<html>
<title> - FOREST RESTORATION AND HAZARDOUS FUELS REDUCTION EFFORTS</title>
<body><pre>[Senate Hearing 110-315]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-315
 
        FOREST RESTORATION AND HAZARDOUS FUELS REDUCTION EFFORTS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

  RECEIVE TESTIMONY REGARDING FOREST RESTORATION AND HAZARDOUS FUELS 
       REDUCTION EFFORTS IN THE FORESTS OF OREGON AND WASHINGTON

                               __________

                           DECEMBER 13, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


                    U.S. GOVERNMENT PRINTING OFFICE
41-296                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Aune, Philip S., Forester, Former Research Program Manager, 
  Redding Silviculture Laboratory Pacific Southwest Research 
  Station, Redding, CA...........................................    32
Barrasso, Hon. John, U.S. Senator From Wyoming...................     7
Britton, Hon. Boyd, County Commissioner, Grant County, OR........    65
Caswell, Jim, Director, Bureau of Land Management, Department of 
  the Interior...................................................    15
Craig, Hon. Larry, U.S. Senator From Idaho.......................     3
Donegan, Matthew, Co-President, Forest Capital Partners, LLC, 
  Portland, OR...................................................    54
Dubrasich, Michael E., Executive Director, Western Institute for 
  Study of the Environment, Lebanon, OR..........................    75
Hoeflich, Russell, Vice President and Oregon Director, The Nature 
  Conservancy, Portland, OR......................................    59
Johnson, K. Norman, University Distinguished Professor, Oregon 
  State University, Corvallis, OR................................    26
Rey, Mark, Undersecretary, Natural Resources and Environment, 
  Department of Agriculture......................................     9
Smith, Hon. Gordon, U.S. Senator From Oregon.....................     5
Vaagen, Russell C., Vice President, Vaagen Bros. Lumber Inc., 
  Colville, WA...................................................    49
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Responses to additional questions................................    81


        FOREST RESTORATION AND HAZARDOUS FUELS REDUCTION EFFORTS

                              ----------                              


                      THURSDAY, DECEMBER 13, 2007

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. The 
purpose of today's hearing is to receive testimony about forest 
restoration and efforts to reduce the amount of hazardous fuels 
in the forests of Oregon and Washington.
    This is a critical issue for the survival of our forests, 
our rural communities and for our economy. This subcommittee 
has a long tradition of working in a bipartisan way. I think 
with the hectic schedule here in the last few days before 
adjournment, we'll have some colleagues coming in and out, but 
I'm very glad that Senator Craig has already joined us. As 
Senator Craig knows, this subcommittee has played a key role in 
the only two major pieces of forestry legislation that had 
actually made it through the legislative gauntlet and signed 
into law. That's the County Payments Legislation and the 
Healthy Forest Restoration Act. It's my intention to go forward 
once again in a bipartisan way and deal with this very serious 
issue that the committee is looking at today, and that's 
reducing the amount of hazardous fuels in our forests.
    For too long, the Federal Government's approach to 
hazardous fuels has basically been to fiddle while the forests 
burn. With different approaches, like thinning of overstocked 
second-growth forests, I believe it's possible to restore these 
forests to some semblance of diverse, resilient forests to 
reduce the risk of fire and to create good family wage 
employment. Addressing the forest restoration needs of the 
Northwest is an issue I intend to pursue, not only at today's 
hearing, but in the near future with legislation. As I 
mentioned, a number of us on this committee worked in a 
bipartisan way to pass the Healthy Forests Restoration Act, but 
it has not allowed the country to get ahead of the problem.
    One significant factor in my view has been the inadequate 
funding for this. In section 108 of the Healthy Forests 
Restoration Act, the Congress specifically authorized $760 
million for each fiscal year for hazardous fuels reduction 
projects.
    There, on page 1901 of volume 117 of the Statutes at Large, 
is this specific inclusion, because both sides of the aisle 
felt it was necessary to have a dramatic increase in funding 
for hazardous fuels restoration work.
    Now at that time, the Forest Service budget for hazardous 
fuels was about $258 million. Four years later, the President's 
budget for hazardous fuels reduction is just over $291 million. 
At the Interior Department, the President's proposed budget 
represents an $18 million increase in hazardous fuels funding.
    So at this subcommittee, again and again, we are told that 
not enough acres are being treated. In addition, many Oregon 
communities tell me that they are simply afraid.
    They're afraid the forests are going to go up in flames, 
afraid that the infrastructure to restore the forests--both 
mills and human capital--is disappearing, and they're afraid 
that their communities and the jobs that depend on them will 
disappear, as well.
    Now, in recent years, the subcommittee has been very active 
when it comes to forest thinning and restoration oversight. A 
hearing was held, for example, in this subcommittee on 
oversight, with respect to the forest restoration legislation.
    At that hearing, I pointed out that limited progress 
implementing the Healthy Forests Act at that point would take 
more than 200 years to thin the 20 million acres called for in 
the legislation. We're glad to have the Secretary here, 
Secretary Rey. He said that in March 2004, that the essential 
work was going to get done in eight to 10 years.
    Recent estimates indicate that at the current rate, 
conducting hazardous fuels reduction treatments on an average 
of 130,000 acres a year in Oregon, it will take three-quarters 
of a century to complete a single treatment of just the acres 
in the most endangered fire condition class. So clearly, 
expectations are not being met.
    Today's testimony is designed to build the case for the 
urgent need to thin millions of acres of Oregon and Washington 
forests now. Previous hearings before the full committee have 
demonstrated why it is so important to take action. The fire is 
threatening more and more communities in the Wildland Urban 
Interface. The danger to these forests only increases as the 
climate changes.
    Similarly, plantations in the Northwest moist western 
forests lack the tree diversity and resiliency that is seen in 
natural forests. The State of Oregon has approximately 30.2 
million acres of forestlands that cover nearly half the State.
    Approximately 60 percent of that land is owned by the 
Federal Government. Due to decades of poorly managed plantation 
forestry and fire suppression, there is now a breathtaking 
backlog, a backlog of millions and millions of acres that needs 
to be treated.
    As a result, these choked, fire-suppressed forests are at 
great risk for naturally catastrophic fires, insect 
infestation, and disease. The health threats to the nation's 
forests, fire, insects and disease, obviously respect few 
geographic boundaries. That means that private landowners and 
communities are all at risk.
    We're going to have an excellent hearing today with a 
diverse range of witnesses, all of whom I'm looking to, to 
assist us to try to break the gridlock. Now, before we move to 
our colleagues who have joined us, Senator Craig and Senator 
Smith, I want to touch on just two other issues that I know the 
senators care a great deal about.
    Today, the energy bill was voted on. Had it gone forward, 
it would have included a 4-year, $1.9 billion reauthorization 
for the Secure Rural Schools Program. In my view, it is not 
just bipartisan legislation, but it is sensible and responsive, 
and I'm very disappointed by the vote that was held earlier 
today.
    We are not going to give up however. This is the only major 
bipartisan multi-year authorization approach that has any 
traction at this time. There hasn't even been a vote on it in 
the other body. The Administration's approach has not been able 
to attract even a single Unites States senator. So we are very 
hopeful that we will hear more supportive words from the 
Administration in these key hours before the session ends, 
because real communities in the West are waiting for this issue 
to be resolved in their favor. They've got sharp pencils out 
now, they're trying to make budgets for this upcoming year. 
It's critical that the Congress move forward. The amendment 
that I offered for a multiyear authorization of this program 
got 74 votes in the U.S. Senate.
    An overwhelming plurality and I'm very hopeful that the 
Administration will work with us on it. It is directly relevant 
to the work hearing that we're holding today, because in the 
energy bill, the legislation we offered would put more than 
$170 million out for collaborative forest restoration on 
Federal lands.
    So we hope that the Administration will assist us so that 
this can get resolved before the Congress wraps up for this 
year. I also want to touch briefly on the definition debate 
that has come up with respect to biomass in H.R. 6.
    I happen to think that the good folks--Scott Miller, 
Michelle Miranda, Frank Gladics--the bipartisan staff of this 
committee did very good work when we wrestled with this here in 
the Senate Committee. Together, on a bipartisan basis, we came 
up with a good definition of biomass that protected old growth. 
The old growth that the American people want to see protected, 
but would still allow significant biomass to be used from 
Federal lands to create renewable energy. So I'm hopeful that 
the Senate definition that has been able to generate bipartisan 
support can prevail, and I'm sure there will be some colleagues 
that will want to discuss it today.
    Let me turn to two senators who've worked very closely with 
me on all these issue. We have a long history of it, beginning 
with Senator Craig.

          STATEMENT OF HON. LARRY CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much, and thank 
you for holding this hearing today. When you include Idaho in 
that definition, then you have a partner. We have a few 
problems in Idaho. Idaho burned this year at an unprecedented 
rate, as many of our States did. Of the 10-plus million acres 
of public land burned, we had nearly a quarter of them in our 
State.
    Last week, a Federal Appeals Court took two steps backward 
on that Healthy Forest Initiative that both you and I are very 
proud of. I'm disappointed in a three-judge panel of the Ninth 
Circuit Court of Appeals, that they would side with the Sierra 
Club and against the Forest Service stating that the agency 
improperly used categorical exclusions under the National 
Environmental Policy Act.
    As you know, we established categorical exclusions to some 
degree in healthy forests to be able to effectively streamline 
hazardous fuels reduction, primarily in the Urban Wildland 
Interface. I think the Sierra Club needs to understand two 
realities about hazardous fuels reduction. If they or their 
leaders haven't been out West looking at the smoky skies during 
the summer months of the hot summers we seem to be having, then 
they ought to go out and listen and smell, and their eyes will 
blur and their noses will smart.
    Forest fuel reductions are not a guise for old-growth 
logging. Both the Senators from Oregon and I made sure of that. 
But somehow, that lingers on in this Kabuki dance that we're 
not in that don't allow us to get at what we need to get at. It 
is a necessary land management practice, designed to improve 
the health of our National Forest. That's what hazardous fuels 
reduction is all about. Just over 100 years ago, this country 
decided to take a stand against one of the natural disasters 
that we encounter in the West--wildfires.
    We have battled and controlled the spread of human-caused 
and natural-caused wildfires for over a century. By doing so, 
we took the natural process of fire out of many of our 
terrestrial ecosystems. To counter this, we harvested timber 
and inadvertently reduced fuel loads. Now, we've taken logging 
out of the process. What we've ended up with is a National 
Forest Land that can aptly be described in many of its 
locations as a timberbox. When we look at the rating and the 
ranks that we're about today, we're talking well over 100 
million acres, 100 and--I guess it's 140, 190-plus, somewhere 
in that range. Hazardous fuel treatment aided in a transition 
from, I hope, a tinderbox to a healthy forest.
    Second, we are already behind the curve on meeting our 
goals and treatment acres we need. We don't need to elongate 
the time between project design and project implementation as 
we sit and watch the Forest Service to reanalyze the Healthy 
Forest Initiative, and its environmental effects. More acres 
will burn, and much greater intensity--with intensity and a 
much higher rate of tree mortality. My guess is that's what 
we'll see again next summer, and the summer after, and the 
summer after, and the summer after.
    Last summer, following the fires and during the climate 
change debate, Mr. Chairman, I and my staff did a calculation. 
We tried to factor in by approximate acreage and approximate 
burn--and that was pre-California scrubland burn of the scrub 
oaks that we saw burning out there that wiped out so many homes 
in California late in the year this year. We estimated that if 
had we have not had the intensity of forest fires that we had, 
it would have been equivalent to taking--by that, I mean the 
emission of CO<INF>2</INF> into the air and carbon--it would 
have been equal to taking 12 million automobiles off the road.
    Now does anybody want to factor that one in? That's like 
taking almost all of California's car fleet off the road for 1 
year. Somehow we still play this game that I now call 
officially the Kabuki Dance of the environmental community that 
thinks it's going to get somewhere by simply attempting to lock 
up our forests and not allow the reasonable management that you 
and I foresaw and tried to put together in reasonable law, 
convinced our colleagues to do so, and did so with limitations, 
with side-votes, with categorical definitions. Somehow, we 
can't get there.
    With that in mind, I appreciate, Mr. Chairman, the effort 
to increase the number of acres to be treated; however, I would 
also ask that we be mindful that we've got policy that has to 
be adjusted, apparently, to make it work. We're going to have 
to listen to the Courts to some degree, for they're obviously--
those judges up in the Ninth Circuit--are experts in land-use 
management, or so they proclaim by their decisionmaking.
    Having said that, I think we're going to have an energy 
bill out by late evening. I hope within it, it has obviously 
the provisions that you and I have so closely worked on over 
the years as relates to timber-dependent school districts, and 
that we give them some long-term viability based on that 
effort. Thank you.
    Senator Wyden. Thank you, Senator Craig. Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Senator Wyden, Senator Craig, thank you for 
today's hearing. I welcome all the Oregonians who are here to 
testify. I know how long you've come. Senator Wyden and I make 
that trip regularly, and we respect your concern and effort in 
being here. I particularly want to welcome Commissioner Boyd 
Britton and from Grant County. In September, Commissioner 
Britton, and others from eastern Oregon issued a press release 
titled ``Enough is Enough.''
    It described their frustration as elected officials in 
seeing the deplorable conditions of Federal forests and the 
ebbing forest products industries in their communities. The 
situation in Oregon's timber communities is indeed dire, and 
enough is enough. The situation simply must change. It seems no 
matter what the Congress or the White House does to help, it's 
not enough. The Forest Service budget for hazardous fuels 
removal has increased fourfold since 1999.
    The green timber sale budget has increased 30 percent since 
2000. The Forest Service Plan is finally fully funded. Congress 
passed the Healthy Forest Initiative. The Administration 
implemented reforms to speed up the process of thinning and 
forest restoration. But serial litigants and obliging courts 
continued to supplant their judgment for the people's elected 
representatives. Good faith efforts to clean up our forests and 
get our rural communities back on their feet continued to be 
defeated.
    Mills are closing. Forests and habitat are still being 
incinerated. In 2000, Congress put into place the County 
Payments Safety Net designed to remove counties from the boom 
and bust cycles of Federal timber management. That program was 
urgently needed as the Courts tightened their turnicate on 
Federal timber sales. Ironically, however, the Safety Net 
brought along its own uncertainties. Oregon counties are still 
in limbo, wondering if the Safety Net will be extended and 
where it will leave their budgets 5 years from now.
    Reauthorization of the Safety Net has been as much of a 
roller coaster as Federal timber sales have ever been. I agree 
with my colleague from Oregon that new legislation is now 
needed to provide relief to Oregon counties. Relief in the old-
fashioned way, the way used to do it--managing our forests, 
creating family waged jobs, providing a tax base for local 
services. That relief needs to be in the form of a sustainable, 
predictable supply of timber.
    Thinning is undeniably a component of that solution--I 
emphasize component. A legislative solution can only be 
successful if it is formed by the broadest array of interests 
in our State. I respect all of the different views on this, but 
no view wins with the status quo. The environment loses. The 
economy loses. Governor Ted Kulongoski created the Federal 
Forest Land Advisory Committee to draft goals, to address the 
needs and possibilities of Federal land in Oregon.
    I hope that Congress will embrace the recommendations 
developed by this diverse working group. Oregon counties, more 
than anyone, also need to be at the drawing table for 
legislation that addresses forest management in our State. 
Western Oregon counties have already been working with the BLM 
on the Western Oregon Plan Revision. Northeastern Oregon 
counties have been working with the Forest Service on its 
planned revisions in the Blue Mountain Forests.
    Our counties know best what is happening on the ground, and 
they are critical in identifying the solutions best suited for 
their local needs. Oregon's Indian tribes also have a direct 
interest in the thinning and management of national forests. 
First, national forests adjoin some Indian reservations. For 
example, the Warm Springs Reservation is bordered on three 
sides by national forests. What happens on the national forest 
can directly impact their own forest resources and their 
personal safety.
    Second, the Warm Springs and the Umatilla Tribes have 
treaties in which those tribes reserved important hunting, 
gathering, and pasturing rights on lands that now comprise 
national forests and BLM lands. Forest management obviously 
impacts these rights, as well as the Warm Springs and Umatilla 
treaty-reserved fishing rights. Third, tribes have a close 
government-to-government relationship with the Forest Service 
and deal routinely with the Forest Service on a host of issues. 
The Warm Springs tribes have entered into a MOU with nine 
national forests who memorialized this relationship.
    Finally, the Warm Springs is actively developing a Biomass 
Electrical Generation Project that will utilize biomass from 
national forests. A major purpose of the project is to 
facilitate improvement of tribal and adjoining national forest 
health. Other tribes have shown an interest in following their 
example. For nearly a decade, the Confederated Tribes of the 
Coos, Lower Umpqua, and Siuslaw Indians have been asking the 
Oregon Delegation for help along these very same lines. The 
tribes have asked Congress to return a portion of their 
ancestral homeland, and these lands would be thinned under 
guidelines stricter than the Northwest Forest Plan. We've seen 
too little help for them in this cause.
    Recently, Governor Kulongoski wrote to the Oregon 
Congressional Delegation a letter regarding the Confederated 
Tribe's proposal. He urged us to work together to restore a 
portion of the tribe's homeland and allow them to restore these 
forests by thinning. The Confederated Tribes proposal and this 
thinning discussion are dovetails. Both aim to improve forest 
health, while also creating economic value. It also has support 
from both environmentalist and timber interests.
    So I believe now is the time for Congress to take up this 
proposal. The fundamental point of this hearing is to reinforce 
the notion that we can have both healthy forests and healthy 
rural economies. We cannot have one without the other. If the 
history of the last few decades has taught us anything, it is 
that truth. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. We're joined by the 
ranking Minority Member Senator Barrasso. We're going to hear 
from Senator Barrasso, and then I'm told just now that they'll 
be four roll call votes at 3:55, so we're going to all sprint. 
That's what I gather, which will allow us to kick it over until 
4:10 or something close to it. But Senator Barrasso, welcome, 
and we appreciate all your interest in this.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this hearing on forest restoration and hazardous fuel 
reduction. I want to add my welcome to all of the witnesses who 
are here with us today. Many of you have traveled a great 
distance. You're familiar with that, as you travel that same 
distance weekend after weekend, Senator Smith. I also 
appreciate Under Secretary of Agriculture Mark Rey being here, 
and Bureau of Land Management Director Jim Caswell who's come 
to testify. I note that they are both left-handed, and that 
probably is why they see eye to eye on so many things. I'll 
tell you the entire Wyoming Senate delegation is left-handed, 
as well. That says much for great cooperation among us.
    Mr. Chairman, I understand how important the issues are of 
this hearing--forest restoration and hazardous fuels reduction. 
The State of Wyoming faces many of these issues. On our 
forests, like Oregon, almost half of Wyoming is entrusted to 
Federal Land Managers. We have 18 million acres of Bureau of 
Land Management lands, over 9 million acres of national forest 
lands. Wyoming has one of the largest national grasslands in 
the country--23,000 acres of national wildlife refuge, and 
820,000 acres of Bureau of Reclamation lands. The need for 
management of forest health and hazardous fuels is very real 
and important in Wyoming. Forests in each of the seven national 
forests across Wyoming are at risk of being consumed by 
insects, by disease, or by fire. We must set resource policy 
that addresses these threats in a real, as well as a practical 
way.
    Today, I've introduced Senate Bill 2468. It's called the 
Wyoming Forest and Watershed Restoration Act. That would 
provide for the State of Wyoming to cooperate with the U.S. 
Forest Service on forest health projects. You may have noticed, 
Mr. Chairman, they both picked up the pens in the left hand and 
wrote down S. 2468. I'm delighted to see that. Thank you.
    Under this authority, the Wyoming State Forester could work 
with the U.S. Forest Service to carry out forest health 
projects on adjoining private, State, and Federal land. We do 
face an urgent problem in Wyoming with bark beetle infestation. 
Forests between Interstate 70 in Colorado and Interstate 80 in 
Wyoming are being killed by bark beetles. We're very familiar 
with that. We have thousands upon thousands of acres that are 
dying, and the only way to address threats like these bark 
beetles is to take on forest health projects on a landscape 
level.
    Preventing forest fires, addressing watershed health, and 
conserving wildlife habitats require that same big-picture 
thinking. Resource issues don't stop at fence lines and neither 
should our policy. I'm proud to sponsor this bill, and I will 
work with the subcommittee to further this and other 
commonsense public land policy. The people of Wyoming, as you 
gentlemen know, really are people that demand on-the-ground 
results. That's why I'm concerned about policies that are too 
restrictive for our Forest Managers. The people of Wyoming want 
to see healthy forests and healthy communities, so let's get 
down to real business of forest management.
    For instance, the definition that we saw just last week in 
the House of Representatives Energy Bill set, to me, what was 
an impractical standard. The language would prevent almost all 
biomass from Federal forests from being used to meet this 
country's energy and fuel needs. I can get into that a little 
bit later, Mr. Chairman, with some questions. That would 
eliminate for me any real potential for tackling the tough 
forest health projects that are before us. With that kind of 
policy, I think people in Wyoming would just shake their heads.
    In closing, Mr. Chairman, the committee has tackled forest 
health and other important forestry issues in the past. Our 
country and our forests have been improved by your efforts. I 
pledge to work with you to find commonsense solutions. This 
work is important to set policy for public land managers. The 
utmost importance is to the people who live in and around our 
Federal forests and lands, the people who make their living off 
of the land. So I look forward to working with you, and to 
hearing the testimony of these great witnesses. Thank you, Mr. 
Chairman.
    Senator Wyden. I thank my colleague and appreciate his 
excellent statement. Let me also say that the Forest Service 
seems to have made sure that William Peter Wyden and Ava Rose 
Wyden, now 5 weeks old, will be getting off to a sensible start 
with respect to understanding the importance of forestry, and I 
want to thank the Forest Service and welcome both of you.
    Secretary Rey is here, and also Director Caswell. We'll 
make your prepared remarks part of the record. Why don't we 
begin with you, Secretary Rey?

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
             ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. It's fortunate you didn't 
have triplets, because I only had two of those. Thank you for 
the opportunity to testify on the forest restoration and 
hazardous fuels reduction efforts of the Forest Service in 
Oregon and Washington.
    The Administration credits implementation of the Healthy 
Forest Initiative and Healthy Forest Restoration Act of 2003 
for much of the progress made today. The act is a significant 
legislative tool that allows timely implementation of fuels 
treatment and forest restoration projects that are critical to 
reducing the risk of severe wildfire. These projects are 
beneficial to forest health, as well as supportive of the 
regional economy. I want to thank those three of the four of 
you who were in service at the time in 2003 for your leadership 
in the enactment of that legislation.
    My testimony for the record reviews the state of the 
forests in Oregon and Washington, as well as the status of the 
forest products industry. I'll highlight some of our 
achievement in the hazardous fuel reduction area, and then be 
happy to respond to your questions. To address dangerous fire 
and fuel conditions across the West, we're now treating more 
fuels than ever, and we are collaborating with our local State 
and tribal partners more than ever before.
    From 2000 through 2007, the Forest Service and the 
Department of Interior Land Management Agencies have treated 
nearly 25 million acres for fuels reduction on Federal lands, 
including 18 million acres treated through hazardous fuel 
reductions programs, and over 7 million acres of landscape 
restoration accomplished through other land management 
activities and authorities. The Pacific Northwest region, which 
is Oregon and Washington, treated over 940,000 acres of 
hazardous fuels from fiscal year 2000 through 2007. The 
region's priority is to reduce the risk of damage from wildfire 
and municipal watersheds, and in threatened and endangered 
species' habitat on national forest lands, and on private 
property and infrastructure on adjacent lands.
    Over 1 in 32,000 acres treated in the Wildland Urban 
Interface, and about an additional 4,000 acres were treated to 
reduce risks to threatened or endangered species' habitat in 
the region. The Pacific Northwest region focused 94 percent of 
its treatments in Fire Regimes I, II, or III in 2007. This was 
accomplished by integration of vegetative management treatments 
from multiple programs. Five of the 21 national wildfires that 
burned in 2007, burned in the fuels treatment areas. The Region 
monitored three of these, and found the number of acres that 
were burned severely were reduced as a result. The Department 
and the Department of the Interior, in collaboration with our 
non-Federal partners, continued to increase the community 
protection emphasis of the Hazardous Fuels Program. Community 
Wildfire Protection Programs are essential for localities to 
reduce risks and set priorities. In the Pacific Northwest 
Region, 40 Community Wildfire Protection Plans have been 
completed in Oregon, covering 291 communities; and 24 plans 
have been completed in Washington, covering 62 communities.
    Additionally, the Administration supports full 
implementation of the Northwest Forest Plan and its timber sale 
components to meet the Plan's balanced purposes. The Fiscal 
Year 2007 President's Budget Request to Congress reflected this 
support, and the region received additional funding in fiscal 
year 2007 for the purpose of more fully implementing planned 
volume expectations. More than 90 stewardship contracts have 
been approved in the region--that is Oregon and Washington--
since the initiation of stewardship contracting provided by 
Congress as a new authority in 2003.
    All of these projects focus on restoration and/or fuels 
reduction, using thinning to accomplish forest health, habitat 
improvement, watershed improvement, and fuels reduction. Region 
6 of the Forest Service, which encompasses Oregon and 
Washington, has issued more stewardship projects since that 
authority was provided by Congress in 2003 than any other 
Forest Service Region.
    I am pleased to hear both Senator Wyden and Senator 
Barrasso's commitment to work on the biomass definition in the 
current pending energy bill, H.R. 6. Put simply, if the House 
language prevails, there will be no fuels reduction work that 
will occur on national forests as a result of that authority. 
Put even more simply, the Administration supports the language 
in the Senate bill that was developed by your staffs after long 
and arduous negotiations, and opposes the language in the House 
bill.
    As it relates to progress today, I hear a bipartisan 
consensus of frustration associated with how fast we've been 
able to move and the funding we've been able to provide. Now, 
as far as the funding is concerned, if you look at what is 
authorized in HFRA, and compare it to what we're funding in our 
budgets, what you will find is that we're funding dollars in 
excess of the authorization. We can debate back and forth 
whether we're accurately interpreting that authorization. But 
there two inalienable realities that we cannot debate. The 
first of those is that we have been putting more money in 
successive budgets since the enactment of the Healthy Forest 
Restoration Act than any president has requested of any 
Congress in the history of the Republic. The second reality is 
that in 2006 Congress didn't give us as much money for this 
purpose as we requested. As a consequence of across-the-board 
decisions, the 2006 funding level was actually lower than the 
Administration's request.
    So I point that out as something for further discussion. I 
would concede that the progress is not as fast as we'd like it 
to be. On the other hand, 25 million of acres, treated since 
2001, is an area equivalent to the size of the State of Ohio, 
and we are now treating almost five times as many acres on an 
annual basis than we did in any year during the decade of the 
1990s. That having been said, as we go forward, we often find 
ourselves taking two steps forward and one step back. The 
recent court decision by the Ninth Circuit Panel reversing a 
District Court decision on their use of categorical exclusions 
is clearly at least one, if not several steps back.
    But if I might close with a simple illustration of what we 
mean by progress today, you've already noted that we endured a 
firestorm in Southern California this past October. That 
firestorm was not dissimilar to a firestorm that we endured in 
2003, and that in fact provided much of the inducement to enact 
the Healthy Forest Restoration Act. Let me compare 2003 and 
2007 in a couple of critical ways. The 2003 event was an event 
of 15 days in duration of extended winds; the 2007 event was an 
18-day event with higher sustained winds and drier fuels. 
During the 2003 event, we had 213 ignitions; during the 2007 
event, 271 ignitions. Those resulted in 14 large fires that 
escaped initial attack in 2003, and 20 large fires that escaped 
initial attack in 2007.
    Our success on extinguishing fires on initial attack was 
identical in both years--93 percent. But in 2003, we burned 
three-quarters of a million acres--750,000 acres in rough 
terms. In 2007 we have burned 518,000 acres. In 2003, we lost 
5,200 major structures; in 2007 we lost 3,050 major structures. 
The biggest difference in those 2 years is that between 2003 
and 2007 we treated 275,000 acres of Federal forest and range 
lands in that affected region. We know that as a result of 
those treatments we saved somewhere between 8,000 and 10,000 
homes, because the fires that burned in the treated areas and 
were extinguished before they entered at-risk communities.
    So there is progress, even if it's not as much as we'd 
like. Notwithstanding this progress, there are things that we 
can do together to accelerate our work. The Healthy Forest 
Partnership Act, which we sent to Congress last year and is 
actually strikingly similar to the Wyoming Good Neighbor Act, 
is, I think, a good place to start, as well as some of the 
ideas that you, Senator Wyden, Senator Craig, Senator Smith, 
and I have exchanged on forest thinning. Thank you very much.
    [The prepared statement of Mr. Rey follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify on the forest restoration and hazardous fuels 
reduction efforts in the forests of Oregon and Washington. The U.S. 
Forest Service, Pacific Northwest Region is dedicated to progress 
toward improved forest health and landscape resiliency. In fact, these 
are the Region's top resource management priorities. The Region will 
continue to use its authorities to strategically implement vegetative 
treatments, and to use collaborative approaches with partners and 
landowners to accomplish this goal.
    The Administration credits implementation of the Healthy Forests 
Initiative (HFI) and the Healthy Forests Restoration Act of 2003 (HFRA) 
in part for the progress made to date. The Act is a significant 
legislative tool that allows timely implementation of fuels treatment 
and forest restoration projects critical to reducing the risk of severe 
wildfire to communities and to sensitive ecological resources. These 
projects are beneficial to forest health as well as supportive of the 
regional economy.

                  THE FORESTS IN OREGON AND WASHINGTON

    The Pacific Northwest Region of the USDA Forest Service contains 19 
(administered as 16 units) National Forests, a National Scenic Area, a 
National Grassland, and 2 National Volcanic Monuments, covering 
approximately 25 million acres, all within the States of Oregon and 
Washington.
    Forest health conditions are mixed across the Region. Some forest 
insects and diseases have declined, while others have taken hold and 
expanded. In the last two years, precipitation levels have been at or 
above normal in western Oregon and Washington resulting in less 
moisture stress and greater resistance to bark beetle attacks. On the 
other hand, Mountain Pine Beetle outbreaks have continued to expand 
across the eastside of the region as a result of dense stand conditions 
and lower precipitation, especially along the east slope of the 
Cascades. Drought conditions continue to persist in eastern Oregon and 
southeastern Washington. Damage by defoliating insects has increased in 
the Region with expansion of western spruce budworm. Climate and 
weather patterns continue to influence the start and spread of forest 
pests and diseases. If the warmer, dryer trends occurring in the 
eastern portion of the region continue, we expect to see increased 
damage from bark beetles and defoliators, particularly in overstocked 
stands. Mortality related to these infestations and wind events which 
blow down trees create conditions for increased fire risk.
    Large fires are occurring in the Region with potential negative 
affects. The average number of wildfire acres burned across all 
ownerships has increased substantially since fiscal year 2000. In 
fiscal year 2000, about 1100 fires burned approximately 200,000 acres. 
In fiscal year 2006, the number of fires rose to almost 1700 and burned 
over 450,000 acres. On average, the length of the fire season appears 
to be 7-10 days longer today as compared to 20 years ago. Large fires 
impacted watersheds, habitats, trails, and created conditions in which 
pest infestation and invasive species could take hold, and resulted in 
the loss of economically valuable forest products.
    Wildland Urban Interface (WUI) areas are expanding. There are 
approximately 16 million acres of Pacific Northwest national forests 
within Fire Regimes (FR) I, II, and III. These areas are likely to have 
highly altered vegetation as a result of changed fire disturbance 
processes (Condition Class 2 and 3), and therefore are at increased 
risk from uncharacteristic fire. Approximately 530,000 of these acres 
are within the WUI. The land in WUI is growing as development adjacent 
to NFS lands expands challenging our ability to treat and maintain all 
high priority lands.
    The Pacific Northwest Region is striving to increasingly integrate 
its vegetation management and fuels reduction programs to improve 
treatment cost effectiveness, efficiency and to accomplish multiple 
outcomes for forest health, habitat and municipal watershed protection. 
All treatments which remove vegetation, including merchantable timber, 
are based on restoration oriented prescriptions. Timber volume offered 
reached a region-wide low of 335 mmbf in fiscal year 2002 and has 
rebounded to 593 mmbf in fiscal year 2007. We will work to maintain 
this level into FY 2008 to meet the treatment needs of our forests and 
to provide a stable supply of material for regional wood products and 
furniture industries.
    A viable regional timber industry is an important element in 
meeting the goal of healthy forests. Currently, the forest products 
industry is experiencing difficult times and strained markets. Prices 
for timber products have been falling and are expected to fall further 
in 2008. Nationally, home sales are at a 5 year low while inventory of 
unsold new homes is about double what it was five years ago. Housing 
starts are projected to remain weak through 2008. Northeast Oregon has 
recently seen the closure of 2 key sawmills, affecting communities 
throughout that part of the State. North central Washington has also 
seen the closure of 2 mills, affecting projects on the Okanogan-
Wenatchee NF. This loss of industry reduces the opportunity to meet 
healthy forest goals and allow the use of materials from forest 
treatments.
    On a positive note, two new mills have opened in northwest 
Washington providing opportunity for timber sales from the Mt Baker 
Snoqualmie, and Olympic forests. Also, several companies have begun to 
use innovative and new technologies to utilize small-diameter trees and 
woody biomass in the Region. Biomass energy facilities are scheduled to 
open within the next couple of years in central and southern Oregon, 
and other new biomass starts are being considered that have the 
potential to allow more national forest lands to be managed to reduce 
fuel loading, protect communities, and improve forest health. Recently, 
prices for biomass, coupled with an Oregon tax credit, have allowed 
landing slash materials that normally would be burned, to be hauled in 
excess of 70 miles from the Fremont-Winema National Forest over the 
crest of the Cascade Mountains to White City, near Medford, Oregon. 
This example reflects a potential for an improvement in the market for 
biomass removal within the region.

                       HAZARDOUS FUELS REDUCTION

    To address dangerous fire and fuels conditions across the west, we 
are aggressively treating fuels, and we are increasing our emphasis on 
collaborating with our local, State and tribal partners.
    Some of our specific accomplishments in reducing hazardous fuels 
include:

  <bullet> From 2000 through 2007 the Forest Service and Department of 
        the Interior (DOI) land management agencies have treated nearly 
        25 million acres for fuels reduction on federal lands, 
        including 20 million acres treated through hazardous fuels 
        reduction programs and over 5 million acres of landscape 
        restoration accomplished through other land management 
        activities.
  <bullet> Despite a substantial national wildfire suppression 
        workload, the Forest Service and DOI reduced fuels and improved 
        ecosystem health on more than 4.8 million acres of land 
        nationally in 2007, of which over 3 million acres were treated 
        through hazardous fuels reduction programs and 1.8 million 
        acres of land restoration accomplished through other land 
        management activities.
  <bullet> In 2006, to more adequately demonstrate the benefits of 
        fuels reduction treatments on fire risk, the Administration has 
        begun to measure changes in the Condition Class of National 
        Forest System land and is currently working on metrics for 
        forest health changes that will help demonstrate the outcomes 
        of projects that remove fuels.
  <bullet> The Pacific Northwest Region treated over 940,000 acres from 
        hazardous fuels reduction programs and land restoration 
        accomplished through other land management activities from 
        fiscal year 2000 through 2007. The Region's priority is to 
        reduce risk of damage from wildfire in municipal watersheds and 
        in T&E habitat on national forest lands and on private property 
        and infrastructure on adjacent lands. This effort resulted in 
        over 432,000 acres treated in the WUI on all lands and about 
        4,000 acres treated to reduce risk to T&E habitat in the 
        region.
  <bullet> The Pacific Northwest Region focused 94 percent of its 
        treatments in FR 1, 2, or 3 in 2007. This was accomplished by 
        integration of vegetative management treatments from multiple 
        programs. Five of 21 large wildfires burned into fuel 
        treatments in 2007. The region sent inter-disciplinary teams to 
        assess three of these fire areas and through their observations 
        found that the number of acres that were burned severely was 
        reduced as a result of forest treatments.
  <bullet> USDA and DOI, in collaboration with our non-federal 
        partners, continue to increase the community protection 
        emphasis of the hazardous fuels program. Community Wildfire 
        Protection Plans (CWPPs) assist localities to reduce risk and 
        set priorities. Over 1,100 CWPPs covering 3,000 communities 
        have been completed nationally and an additional 450 plans are 
        progressing toward completion. In the Pacific Northwest Region 
        40 CWPPs have been completed in Oregon (covering 291 
        communities) and 24 CWPPs in Washington (covering 62 
        communities).

              FOREST RESTORATION IN OREGON AND WASHINGTON

    The Pacific Northwest Region is committed to forest restoration and 
other management actions to improve landscape resiliency. The Region 
seeks to achieve this objective by:

  <bullet> Revising fire management plans to implement wildland fire 
        use.
  <bullet> Increasing the ability to achieve multiple objectives in 
        vegetation management and fuels treatment investments:
          1. Increase use of HFRA, HFI and stewardship contracting 
        tools.
          2. Strategic placement of treatments to change fire behavior 
        (to increase suppression effectiveness, reduce suppression 
        costs and protect watersheds).
          3. Working with partners and adjacent landowners.
          4. Continuing to implement the Northwest Forest Plan.
          5. Incorporate climate change considerations in vegetation 
        treatments.
  <bullet> Implementing the aquatic restoration strategy with a focus 
        on watershed function, resiliency, water quality, and salmon 
        recovery.

    The Region has begun the process of revising fire management plans 
to better integrate wildland fire use. The region recognizes that 
increasing wildland fire use (WFU) is critical to improving ecosystem 
resiliency over the long term. In 2007, we increased our acres 
available for WFU by 200,000 acres, to a total of 2,360,892 acres. We 
have increased funding for further expansion of wildland fire use in 
2008.
    The LANDFIRE project has now been completed for the western third 
of the mainland United States. The data are being used in setting 
hazardous fuel treatment priorities. The Forest Service is also testing 
methods of modeling fire risk with LANDFIRE data to help better inform 
hazardous fuel treatment prioritization. In addition the agency has 
begun allocating fuels reduction funds and measuring the effectiveness 
of those treatments in terms of wildfire risk reduction.
    The Forest Service will continue to strive toward full 
implementation of the Northwest Forest Plan Amendments (NWFP). 
According to the ``Northwest Forest Plan--The First 10 years (1994-
2003): Synthesis of Monitoring and Research Results'' published in 
October 2006, the Plan's success cannot be fully determined in 10 
years, but some trends are clear. The most notable successes are 
associated with protection of old-growth and riparian forests and 
associated species. Approximately 80% of all federal lands in the NWFP 
area are in reserves or are congressionally or administratively 
withdrawn. Vegetation management occurring on the lands in reserves, 
including timber harvest, is allowed to promote the restorative 
objectives of those reserves, i.e., riparian or old growth habitat 
protection or enhancement. Much has been learned about the distribution 
and habitat needs of old growth dependent species and how to use 
silvicultural practices to accelerate old-growth structural and 
functional development. Watersheds are being restored, roads de-
commissioned, and species protected. Timber harvest has been lower than 
planned and budgeted for in the NWFP area and this has significantly 
impacted Pacific Northwest communities. Between 1995 and 2007 Region 6 
offered on average 307 mmbf per year, Today, the volume offered in the 
Region is almost twice that figure.
    The Administration supports full implementation of the Northwest 
Forest Plan and its timber sale component to meet the Plan's balanced 
purposes. The fiscal year 2007 President's Budget request to Congress 
reflected this support. The Region has been allocated increasing levels 
of funding to implement the NWFP and the NWFP forests have ramped up 
the offered volume as a result of this additional funding in fiscal 
year 2007, and expect to do so in fiscal years 2008 and 2009.
    Climate change has the potential to modify forests in the Pacific 
Northwest. Forest management can play a dual role in addressing global 
climate change, including: 1) management designed to position forests 
to remain healthy and resilient in the face of the environmental 
stresses associated with changing climate (adaptation role), and 2) 
management to reduce the build-up of atmospheric CO<INF>2</INF> to 
mitigate the rate of climate change (mitigation role). Our fuels 
treatment and ecosystem restoration activities can be important as a 
way to achieve adaptation and mitigation objectives. We will apply 
forest restoration activities to improve the capacity of forests to 
resist the environmental stresses of changing climate while producing, 
as a by-product of thinning, materials used for biofuels that also 
reduce fossil fuels consumption.
    The Region is implementing recommendations of its Aquatic 
Restoration Strategy. This strategy identifies the highest priority 
restoration areas, outlines specific goals and objectives, and 
describes key actions needed to achieve them. Implementation of the 
strategy is showing positive initial results. For example, eleven 
watershed action plans have been developed for the highest priority 
areas. Agency partners strongly support agency restoration projects. 
For example, in fiscal year 2007, partners contributed almost $8 
million towards restoration projects, enabling the Forest Service to 
achieve $3 of restoration work for every $1 of appropriated funds.

            COLLABORATION TO TREAT PACIFIC NORTHWEST FORESTS

    Collaboration among communities, industry and local Forest Service 
staff has resulted in effective and successful hazardous fuels 
reduction projects. The Region is working to expand its use of the HFRA 
and HFI authorities to expedite strategic restoration efforts and to 
utilize stewardship contracting to carry them out. More than 84 
stewardship projects have been approved in the Region since the 
initiation of Stewardship contracting in 2003. All of these projects 
focus on restoration and/or fuels reduction using thinning to 
accomplish forest health, habitat improvement, watershed improvement, 
and fuels reduction. Stewardship contracting in the Region, from 
utilization of retained receipts and non-monetary exchange for goods 
for services, is resulting in more acres being treated, improved 
relationships and partnerships for forest management projects and 
contributions to local economies.
    The Lakeview Federal Sustained Yield Unit is a long standing 
collaborative effort (more than 10 years) that has focused on 
sustainable management and community partnership. The Fremont-Winema 
National Forest will have the Region's first 10-year stewardship 
contract within the Unit and is working on a second 10 year contract 
outside of the Sustained Yield Unit. These Forest and community efforts 
have allowed Fremont Sawmill to construct a small sawlog mill, and a 
biomass energy plant is planned adjacent to the Fremont sawmill in 
Lakeview, Oregon. These new facilities will allow the Fremont-Winema to 
manage more lands to improve forest health and reduce fuels by harvest 
and removal of small diameter material.
    Another example of a community developed collaborative effort that 
is benefiting national forest management is on the Colville National 
Forest in northeast Washington. This collaborative effort has been 
ongoing for several years and has worked hard to facilitate HFRA 
projects and stewardship contracting projects. Most of the 12 approved 
stewardship contracting projects were designed to reduce fuel loading 
in the WUI by removing small diameter material. The Vaagens mill in 
Colville is using innovation and new technology to use very small 
diameter material for dimensional lumber. In addition, the Colville 
National Forest is one of three Model Forest Projects under the Proof 
of Concept Program. As a Model Forest, the Region is committed to a ten 
year flexible budget to meet objectives of restoration, ecosystem 
services, recreation and sustainable forestry with an emphasis on local 
social and economic factors.
    Within the NWFP area collaboration and the use of stewardship 
contracting are producing restoration gains on all forests, and in 
particular, the Siuslaw and Mt Hood national forests. Both national 
forests have worked with their respective community partnership groups 
to improve wildlife habitat by thinning in young stands, predominantly 
young managed plantations. In addition, both forests are using thinning 
practices to accelerate the development of old growth structure. 
Receipts from these thinnings are being used to improve fisheries 
habitat, close and/or manage roads to reduce sedimentation, remove 
invasive weeds, replace culverts to improve fish passage, and meet many 
other restoration objectives. Forests within the fire prone portions of 
the NWFP are also using thinning to improve the resiliency of timber 
stands as well as provide for the sustainability of northern spotted 
owl and other old growth dependent species.

                               CONCLUSION

    Mr. Chairman, though we have much to do, we are making progress in 
Oregon and Washington regarding the health and resilience of Pacific 
Northwest forests. We believe the administration's focus on meeting the 
principals of the Northwest Forest Plan and use of the tools afforded 
through HFI and HFRA are producing positive results for the forest and 
communities.
    I would be happy to answer any questions the subcommittee members 
may have.

    Senator Wyden. Thank you. Director Caswell.

STATEMENT OF JIM CASWELL, DIRECTOR, BUREAU OF LAND MANAGEMENT, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Caswell. Thank you, Mr. Chairman. This is my first 
opportunity to testify.
    Thank you for the opportunity to testify on BLM's 
activities for Forest Restoration and Hazardous Fuels. I will 
briefly summarize my testimony and ask that the entire 
statement be included in the record.
    Senator Wyden. Without objection it'll be done.
    Mr. Caswell. Of the 69 million acres of forests and 
woodlands that BLM manages, approximately 3.5 million are 
located in the State of Oregon and Washington. In Western 
Oregon, BLM manages about 2.5 million acres. In Eastern Oregon 
and in Washington State, it's about 233,000 acres of commercial 
forests, with an additional 815,000 acres of woodland. So the 
total's about 3.5 million acres in those two states. We 
appreciate your interest in pursuing an aggressive new focus on 
sustainable forest management, and your concern about thinning 
in Oregon's Federal forests. Based on my experience, I 
recognize the importance of thinning as a tool in restoring 
forest ecosystems, particularly in the Wildland Urban 
Interface.
    BLM uses thinnings for several reasons--to reduce wildland 
fire risks, to accelerate the development of a structurally 
complex forest, and to accelerate growth for attainment of 
sustained yield and allowable sale quantity objectives. To 
reduce the risk of wildfire, BLM, since 2001, has applied 
nearly 674,000 acres of hazardous fuel reduction treatments to 
the woodlands and rangelands and forests on the public lands in 
Oregon and Washington.
    In the area of the Northwest Forest Plan, Western Oregon, 
BLM uses thinning, both commercial and pre-commercial, to 
accelerate the development of structurally complex forests and 
to accelerate growth of younger stands for sustained yield in 
the allowable sale quantity. Mr. Chairman, we are aware that 
some interest in exploring whether commercial thinning could be 
relied upon to a greater extent to provide a higher level of 
sustainable receipts for the ONC counties. A key question for 
the BLM is whether applying thinning to such a portion of the 
forest, specifically trees less than 80 or 120 years old, as a 
standalone silvicultural prescription could achieve this goal.
    Unfortunately, the answer to that is no. Our preliminary 
analysis shows a significant decrease in harvest potential if 
limited to commercial thinning of forest stands less than 80 or 
120 years old. Both timber volume and timber value would 
decline significantly. Thinning alone does not constitute a 
sustainable approach to forest management, and if limited to a 
portion of the landscape, cannot provide sufficient timber to 
generate the level of receipts the counties of rural Oregon 
have historically received. Finally, the BLM uses stewardship 
contracting in its byproducts of forest restoration and 
hazardous fuel reduction treatments to provide economic benefit 
to both local communities and to stimulate biomass utilization.
    Since receiving this authority in 2003, BLM has used this 
tool primarily, though not exclusively, in the public domain 
and eastside forest and woodlands. The number of BLM's 
contracts has increased steadily from two contracts in 2003 to 
30 contracts in fiscal year 2007. Planning is in process in 
2008 for an additional 16 contracts. In conclusion, BLM will 
continue its efforts to achieve improvements in the health and 
productivity of public forests and rangelands. We will also 
continue to work in partnership with other Federal agencies, as 
well as the State, local, and travel governments, and to 
accomplish fuel reduction and forest restoration projects, 
including an active thinning program.
    We recognize that thinning is one tool in an overall forest 
management program to provide for sustainable and functional 
forest ecosystems. We appreciate your continued support for our 
forest management efforts and I stand for questions. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Caswell follows:]

    Statement of Jim Caswell, Director, Bureau of Land Management, 
                       Department of the Interior

    Thank you for the opportunity to testify on the Bureau of Land 
Management's (BLM) activities for forest restoration and hazardous 
fuels reduction on the public lands in the states of Oregon and 
Washington. Although rangelands comprise much of the land administered 
by the BLM, we also manage substantial forest resources on the public 
lands. The BLM manages 69 million acres of forests and woodlands in 11 
western states.
    The President's Healthy Forests Initiative and the Healthy Forests 
Restoration Act have provided the BLM with additional tools to ensure 
sound forest management practices and to implement hazardous fuels 
reduction projects; stewardship contracting authority has allowed for 
the productive use of forest products that are the by-product of 
restoration treatments.
    Since 2001, the BLM has applied nearly 674,000 acres of hazardous 
fuels reduction treatments to woodlands, rangelands, and forests on the 
public lands in Oregon and Washington, using the tools of prescribed 
burns, chemical, and mechanical fuels treatments.
    Of the 69 million acres of forests and woodlands that BLM manages, 
more than 3.5 million acres are located in the states of Oregon and 
Washington. In these states, the BLM manages forests and woodlands 
through two distinct programs:

    Western Oregon: Our western Oregon districts manage about 2.5 
million acres that contain some of the most productive forest lands in 
the world. Of these, about 2.1 million acres are the ``O&C'' lands 
designated by Congress in the ``Revested Oregon and California Railroad 
and Reconveyed Coos Bay Wagon Road Grant Lands Act of 1937''. The 
remaining 400,000 acres are public domain forest lands and are managed 
under the principles of multiple use as directed by the Federal Land 
Policy and Management Act of 1976 (FLPMA).
    Eastern Oregon and Washington State: In eastern Oregon and 
Washington, the BLM manages about 223,000 acres of commercial forests 
(ponderosa pine, lodgepole pine, and Douglas-fir) and 815,000 acres of 
woodlands (predominantly western juniper). The public domain forests 
and woodlands are managed for multiple use under FLPMA.

 THINNING AS A TOOL IN HAZARDOUS FUELS REDUCTION, FOREST RESTORATION, 
                         AND ACCELERATED GROWTH

    Mr. Chairman, we appreciate your interest in pursuing an 
aggressive, new focus on sustainable forest management and your 
concerns about thinning in Oregon's Federal forests. Based on my 
experience as a professional forester, I recognize the importance of 
thinning as a tool in restoring forest ecosystems, particularly in the 
wildland urban interface (WUI).
    The BLM in Oregon and Washington uses a variety of silvicultural 
treatments, including thinning of dense stands of trees, to achieve 
interrelated objectives:

  <bullet> to reduce the risk of wildfire;
  <bullet> to restore forest health and reduce the risk of insect and 
        disease epidemics; and
  <bullet> to accelerate development of a structurally complex forest, 
        in areas identified for management as habitat for old growth 
        related species including the Northern spotted owl; and
  <bullet> to accelerate growth for attainment of sustained yield and 
        allowable sale quantity objectives.

Reducing the risk of wildfire
    Since the inception of the National Fire Plan in 2001, the BLM's 
hazardous fuels reduction and forest rehabilitation activities have 
been guided by the National Fire Plan's goals. These goals include: to 
reduce fuels (combustible forest materials) in forests and rangelands 
at risk, especially near communities; to rehabilitate and restore fire-
damaged ecosystems; and to work with local residents to reduce fire 
risk and improve fire protection.
    The National Fire Plan is being successfully implemented under the 
leadership of an interagency and intergovernmental group of local, 
State, and Federal agencies (including the BLM) working cooperatively 
to reduce wildfire risk and restore fire-adapted ecosystems. In Oregon 
and Washington states, the emphasis for hazardous fuel treatments 
(which may include a thinning component) is in areas east of the 
Cascade Mountain Range and in southwestern Oregon where concentrations 
of hazardous fuels are greatest and there is a high percent of WUI 
adjacent to federally managed land. With a focus in these areas, since 
2001, the BLM has applied nearly 674,000 acres of hazardous fuels 
reduction treatments to woodlands, rangelands, and forests on the 
public lands in Oregon and Washington. Roughly 48 percent of the acres 
treated in OR/WA between 2003 and 2007 moved to a better condition 
class.

Restoring Forest Health
    Thinning is used in forest restoration projects to reduce tree 
stocking levels and fuel loading of overstocked stands. A goal of 
forest restoration is increased forest resiliency to insect, disease 
and stand-replacing wildfire. Treatments are designed to leave in place 
species of trees that are more adapted to the forest ecosystem, 
including those where periodic ground fire is a normal disturbance. 
Many treatments in woodland vegetation have an additional benefit of 
improving watershed conditions, wildlife habitat, and species 
diversity.

Accelerating Development of Structurally Complex Forests
    Since 1994, the BLM has managed the forested lands in western 
Oregon under the guidance of the Northwest Forest Plan (NWFP). BLM-
managed lands (2.5 million acres in Oregon) comprise ten percent of the 
NWFP's total area of 24 million acres in Oregon, Washington, and 
northern California; the non-BLM lands are managed by the U.S. Forest 
Service. The NWFP established land use allocations, which include Late-
Successional Reserve (LSR) [for management as habitat for late-
successional and old growth related species including the Northern 
spotted owl], and Matrix (to be managed for multiple uses including 
timber harvest). Under the Northwest Forest Plan, BLM's target is 203 
million board feet per year of allowable sale quantity and 100 million 
board feet of non-sustained yield LSR thinning volume pursuant to the 
settlement agreement in AFRC et al. v. Clarke. Each year the BLM comes 
closer to achieving the target.

Accelerating growth for sustained yield and allowable sale quantity
    BLM uses pre-commercial and commercial thinning to support a 
sustainable level of timber sale offering for the long term management 
of the public lands in western Oregon. As in accelerating development 
for structurally complex ecosystems, thinning for growth enhancement is 
based on scientific studies carried out in the forests of the west. 
These studies are the basis for the growth and yield modeling that is 
used to predict the sustainable levels of harvest for both the NWFP and 
the current planning effort.
    Late-Successional Reserves: Of the 2.5 million acres managed by BLM 
in the area of the Northwest Forest Plan, approximately 847,000 acres 
are in LSRs, and are managed exclusively to protect and enhance late-
successional and old-growth forest ecosystems. Under the NWFP, no 
treatments are allowed in stands over 80 years except those that will 
enhance the development of old growth characteristics.
    In LSR stands younger than 80 years of age, we estimate there are 
approximately 292,000 acres where thinning could be beneficial. Of 
these, 196,000 acres would involve pre-commercial thinning in stands 
less than 30 years of age, and 96,000 acres would involve commercial 
thinning in stands from 30 to 80 years of age. The objective of 
thinning in these areas is to accelerate the development of late-
successional old growth characteristics. The actual thinning treatments 
are guided by the standards and guidelines contained within the 
Northwest Forest Plan. Thinning in these areas is accomplished based on 
scientific peer-reviewed studies that indicate timely treatment can 
accelerate and enhance the development of old growth characteristics in 
younger forests. Since 2001, BLM has completed such thinning projects 
on 46,000 acres in western Oregon, resulting in improved forest 
conditions and 564 million board feet of timber volume sold.
    Mr. Chairman, we are aware of some interest in exploring whether 
commercial thinning could be relied upon to a greater extent to provide 
a higher level of sustainable receipts for the O&C counties. A key 
question for the BLM is whether applying thinning to just a portion of 
the forest, specifically, trees less than 80 or 120 years old, as a 
stand-alone silvicultural prescription, could achieve this goal. 
Unfortunately, the answer is no. To achieve higher levels of sustained 
yield management, we believe that thinning needs to be part of an 
overall, integrated, and landscape-wide forest management program.
    We estimate there would be a significant decrease in harvest 
potential if limited to commercial thinning of forest stands less than 
80 or 120 years old. Compared to the Northwest Forest Plan's current 
allowable sale quantity, harvest on BLM lands in western Oregon would 
decrease 32 percent in the first decade if limited to commercial 
thinning on stands less than 80 years old, and would decrease 24 
percent in the first decade if limited to commercial thinning on stands 
less than 120 years old. These effects vary geographically as well, 
with a much greater impact to the rural counties in southwestern Oregon 
as compared to our northern districts.
    Thinning is one forest management tool that must be used in concert 
with other silvicultural practices across the entire spectrum of age 
classes to meet desired resource and socio-economic objectives 
envisioned in the Northwest Forest Plan and the O&C Act. Thinning alone 
does not constitute sustainable forestry and, if limited to a portion 
of the landscape, cannot provide sufficient timber to generate that 
level of receipts the counties of rural Oregon have historically 
received.
    BLM is revising six western Oregon Resource Management Plans tied 
to the NWFP. A few weeks ago, BLM released a draft plan analyzing four 
alternatives for the future management of 2.5 million acres of public 
lands in Western Oregon. BLM is currently accepting public comments on 
management options.

STEWARDSHIP CONTRACTING AND BIOMASS: BY-PRODUCTS OF FOREST RESTORATION 
                AND HAZARDOUS FUELS REDUCTION TREATMENTS

    Congress authorized the BLM to use stewardship contracts, which are 
intended to provide economic benefits to local communities, reduce 
hazardous fuels, and restore forest and rangeland health, in the FY 
2003 Omnibus Appropriations Act (Section 323 of Public Law 108-7). The 
BLM in Oregon and Washington has used this tool, primarily, though not 
exclusively, in the public domain lands and eastside forests and 
woodlands, to accomplish forest, woodland, and range restoration 
projects, and to provide substantial amounts of forest products as a 
by-product of the restoration treatments. The number of BLM stewardship 
contracts has increased steadily from 2 contracts in FY 2003 to 30 
contracts in FY 2007.
    Stewardship contracting projects have become the BLM's best tool 
for promoting biomass utilization, as they allow for contract lengths 
of up to 10 years. A few examples include:

  <bullet> Klamath Falls: The 10-year Gerber Stewardship project began 
        in FY 2004 in south central Oregon. When completed, the project 
        will result in the treatment of 10,000 acres, improving forest 
        and woodland health, improving rangeland health, reducing 
        hazardous fuels in the Wildland Urban Interface, improving 
        wildlife and fisheries habitat, and enhancing riparian areas. 
        It is now in its fourth year, with 1,500 acres under contract 
        and resulting in the sale of 750,000 board feet and 15,000 tons 
        of biomass for energy development.
  <bullet> Prineville: Through the execution of a Memorandum of 
        Understanding (MOU) with the Confederated Tribes of Warm 
        Springs (Tribes) in January of 2006, the BLM and Forest Service 
        in central Oregon agreed to offer 80,000 bone dry tons (8,000 
        acres) of woody biomass material annually. This long-term 
        commitment to provide biomass to the mill at Warm Springs will 
        provide a stable supply of biomass to expand the market for 
        biomass energy. With the increased supply of renewable energy, 
        the Tribes can market energy to power homes, or direct that 
        energy to new businesses. Thus, woody debris that used to be 
        discarded will now be converted to heat, light, and economic 
        development. Based on this MOU, the Tribes are seeking a power 
        purchase agreement and bank financing to develop a 15.5 
        megawatt cogeneration plant.
  <bullet> Lakeview: The BLM has participated in the Lakeview Biomass 
        Project since its inception in 2005. In November of 2007, the 
        BLM joined its partners in the Lake County Resources Initiative 
        (U.S. Forest Service, Collins Companies, Marubeni Sustainable 
        Energy, Town of Lakeview, City of Paisley and Lake County) in a 
        Memorandum of Understanding for a 20-year supply of woody 
        materials for biomass for energy. We anticipate that treatments 
        in the Lakeview District from western juniper cutting and 
        removal, hazardous fuel reduction, and timber sales will result 
        in the production of 6,000 to 13,000 ``bone dry tons'' of 
        biomass per year--representing five to ten percent of the total 
        annual supply needed for operation of the proposed facility. 
        The Lakeview District has committed to applying mechanical 
        treatments to approximately 2,000 acres per year, where biomass 
        would be one of the natural resource products generated.

                               CONCLUSION

    The BLM will continue its efforts to achieve significant 
improvements in the health and productivity of the public forests and 
rangelands. We will also continue to work in partnership with other 
Federal agencies, as well as State, local, and Tribal governments, to 
accomplish fuels reduction and forest restoration projects, including 
an active thinning program. We recognize that thinning is one tool in 
an overall forest management program to provide for sustainable and 
functional forest ecosystems. We appreciate your continued support of 
our forest management efforts. I would be glad to answer any questions.

    Senator Wyden. Thank you very much, Director. Secretary 
Rey, you and I consistently go through these sort of eye-
glazing discussions about budgets and which account it's coming 
from. I think I'm going to spare everybody, because time is 
short. The bottom line to me, of course, is that a country 
that's going to end up going through a trillion dollars on the 
war in Iraq ought to be able to fund adequately the essential 
work that needs to be done in our forests. I know my friend, 
Boyd Britton, from Grant County--he's going to talk about 
inadequate funding. The environmentalists talk about inadequate 
funding.
    Clearly, progress is not being made to the degree it must 
be made to meet the needs of the American people. Now, the 
environmental folks are going to say again today that our 
forests are deteriorating faster than they're being restored. 
Do you think that's right?
    Mr. Rey. No. I think that we still have serious challenges 
to get ahead of, and a ways to go to do that, but I believe 
we're at least reaching parity with the seriousness of the 
situation that we have today, in terms of the acreage of 
treatments that we're putting on the ground. We have focused, 
at the request of most major environmental groups, on the 
Wildland Urban Interface as a first priority.
    Now, we didn't necessarily focus in the Wildland Urban 
Interface exclusively because of that request. We focused on it 
because that was where the greatest immediate threat to human 
life and property was. But I would say to any environmental 
group that's complaining that we're not moving fast enough to 
deal with a deteriorating situation--sit down with the regional 
forester or the forest supervisor, and tell us where you're 
willing to agree to work with us to accelerate the work that 
needs to be done. We're happy to do that.
    The fact is, funding alone will not solve this problem. A 
perfect example of that is the Tahoe Basin, where we had a very 
difficult fire season and a very bad fire this year. Now, after 
we've lost the homes, including the home of the Head of the 
Lahontan Regional Water Resources Control Board, that 
regulatory agency and the Tahoe Regional Planning Authority is 
willing to look at their regulatory restrictions to fuels 
treatment work that we're adding $200 an acre, $250 dollars an 
acre, to getting that job done. Now, maybe we'll make some 
progress, but without that, I'm not sure we would have ever 
gotten that level of understanding about the work that needed 
to be done, and we would have continued to fight to spend 
upwards of $3,000 to $5,000 an acre to do that work in the 
Tahoe Basin.
    So obviously, we need to increase our funding commitment 
this area, and we are doing that. But just as obviously in our 
judgment, we have to look for ways to do this job smarter and 
faster, at a lower unit cost in expense than we have been 
experiencing in certain areas.
    Senator Wyden. Mr. Caswell, do you want to add anything to 
that?
    Mr. Caswell. Mr. Chairman, the thing I would add to that is 
that, as Under Secretary Rey explained, there's a real issue 
here, in my view, with public understanding of the need. When 
there's smoke in the air, and the fire is on the ridge, 
everybody goes, ``Holy cow, we ought to be doing something 
about this, and why didn't we?'' The day it's gone out, 
everything's cooled off, everybody's gone back home, they all 
become complacent again, and forget about it until the next 
time. So, I think one of the things that we really need--``we'' 
meaning the Federal agencies, along with our partners in the 
states--we really need to do a better job in reaching out to 
the public and explaining what it is we're trying to do, why 
it's important, and what the consequences are if we're not 
successful.
    Senator Wyden. I want to tell you that in every community 
meeting--and I go to every one of my rural counties--all I hear 
is, ``The policies today aren't getting the job done.'' These 
rural communities are falling behind.
    Now, Secretary Rey, I am going to hear today from witnesses 
that a number of Forest Service policies, from categorical 
exclusions for small projects, to acre-treated mandates that 
encourage treating the cheapest acres, to the budget cuts, are 
favoring scattered, small-scale projects. What people would 
like to see is more work done by the land managers to look at 
landscape-level kinds of projects. What can be done to 
encourage that?
    Mr. Rey. The use of stewardship contracts is where we've 
had the greatest success in dealing with issues at a landscape 
scale, and we're eager to do more of that. One of the 
contracting problems that we've run into is one that is 
associated with cancellation liability and budgeting for that. 
We do believe that there's a fairly simple legislative fix to 
that, and that's one that we'd like to proffer to the 
subcommittee and work with you on to do. That, more than any 
single change, will accelerate our ability to use the 
stewardship contracting authority to do landscape-scale 
treatments, which I hear a lot of people asking for----
    Senator Wyden. We will follow up with you on that, and 
that's constructive. One last question for you, Secretary Rey, 
Professor Johnson will be here on the second panel. He's going 
to assert his testimony that restoration within old growth 
forests that are characterized by frequent fire ought to be a 
high priority for treatment. How does the Forest Service 
incorporate restoration within old growth into the priority 
setting efforts to go on at the department?
    Mr. Rey. Those would be among the Non-Wildland Urban 
Interface stands that would be of our highest priorities. The 
way that--I mean, the priorities are set through the community 
wildfire protection plans, but in generic terms, the top 
priority is where we've got homes and lives at risk in the 
Wildland Urban Interface. The next priority down would be where 
we have threatened or endangered species' habitat or critical 
watersheds at risk. Just below that then would be restoration 
work to deal with fire--frequent fire, older stands where we're 
trying to maintain that older stand structure.
    One of those, quite frankly, is the Sequoia National 
Monument in Southern California. We need to remove second 
growth white fur from around the Sequoia Groves to save the 
Sequoia Groves, and we have been sued at every step of the way. 
We will eventually in my judgment lose the Sequoia Groves to a 
catastrophic fire, and it will because the fuel ladders that 
are represented by second growth white fur remain in place.
    Senator Wyden. OK. Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman, Mark, and 
Jim. Thank you for your testimony. I'm glad you mentioned the 
Tahoe Basin, Mark, because you were staffing this committee 
when we sat down with Harry Reid and looked at the situation of 
the dead and dying environment there, and funded it.
    Put money in a project that would begin to thin and clean 
and restore health to that and, of course, as you said, we were 
then stopped at every front, and it took a wipeout or a near 
wipeout to awaken the public to the reality that we saw a good 
number of years ago, and it is really quite tragic when those 
kinds of situations occur. I suspect to the homeowners in that 
Basin, it was even more tragic, at least those who lost their 
homes. What does the ruling of the Court mean to the Forest 
Service's ability to implement the Healthy Forest Act? By that, 
I mean in the absence of healthy forest CEs, how will it 
increase the agency's cost of implementing these projects?
    Mr. Rey. What the Court has done is overturned a District 
Court decision that sustained our judgment and our compliance 
with the National Environmental Policy Act in issuing 
Categorical Exclusion 10, which was a categorical exclusion for 
more detailed analysis under the National Environmental Policy 
Act for certain types of fuels treatment activities with strict 
bounds on the size of the treatment and where it could be 
applied.
    In the last couple of years, roughly 14 percent of the 
acres that we've been treated have--between both the Department 
of the Interior and the Department of Agriculture--have been 
treated under the authority of Categorical Exclusion No. 10. An 
average sized project under Categorical Exclusion No. 10 takes 
about 6 months to develop, at a cost of about $50,000. If we 
are now going to have to do an environmental assessment for 
that type of project, it will take us upwards of a year at a 
cost $250,000. If, as a consequence of further review and 
conflict, we end up going to an environmental impact statement, 
that will take between two and 3 years, and upwards of a 
million dollars.
    So, those are the order of magnitude numbers for the 
difference between what gets done under the authority of a 
categorical exclusion, and what gets done under the authority 
of an environmental assessment or an environmental impact 
statement. So the short answer to your question is it's going 
to slow it down and make it more expensive.
    Senator Craig. By a substantial factor. Could your staff 
provide us with a list of projects by State that have been 
undertaking using--In this case, No. 10, I guess, CE knocked 
out by the Court by this action?
    Mr. Rey. Yes. We're collecting that from the regions via a 
data call right now. I can tell you anecdotally that 
Categorical Exclusion 10 resulted in fuels treatments that 
allowed us to save Alomar Mountain this past October during the 
Southern California firestorm.
    Senator Craig. Mr. Chairman, it was also, in a tragic 
environment, very pleasing to me to see those numbers earlier 
that Secretary Rey talked about in relation to similar fires. 
The fire that helped us bring about healthy forest versus the 
fire this year when, in fact, homes that were in fuel treated 
areas didn't burn or substantially less of them burned. It was 
easier for the firefighters to get in, get around them, get the 
fires down and under control, and that even during the fire, 
got noticed, in some instances, by those who were covering the 
fires.
    I was impressed by that in the reality that I hope there is 
a bit of an awakening to that. Could you tell me what will 
happen to projects that are currently being implemented, that 
were approved using the CEs, that were knocked down by the 
Court? Where do we go from here? Would you couple that response 
with--Has the Forest Service and BLM looked at any ways that we 
might work with the Court to fix this, so that we can stay at 
the business without increasing the cost by a factor of five as 
it relates to a project, and doubling its time before we can 
bring it online?
    Senator Wyden. Let us say that any question that gets in 
before the----
    Senator Craig. Oh.
    Senator Wyden [continuing]. Five-minute gong goes off is 
eligible for an answer.
    Senator Craig. OK.
    Senator Wyden. Senator Craig's is.
    Senator Craig. I doubled that one up. Thank you, Mr. 
Chairman. Please, gentlemen.
    Mr. Rey. The Circuit Court remanded the decision back to 
the District Court.
    Senator Craig. OK.
    Mr. Rey. An injunction is not yet issued. From the language 
of the Circuit Court's opinion, it would appear that they want 
an injunction on any project that was approved after October 
2004, when the lawsuit was brought. We are issuing direction to 
the field shortly that is not yet final. We're still looking at 
what the data call tells us, but I think it's reasonable to 
suspect that when the time that the pleadings, the motions 
practice here clears, we'll be enjoining future work on 
anything approved after 2004, unless enjoining that work would 
actually create an even bigger fire hazard.
    For instance, we've got slash down on the ground that would 
have been removed could the project go to completion. So we'll 
get you the individual projects that would be affected, but I 
think that's going to be the nature of the impact. Then, of 
course, any future projects would not be able to go forward, 
anything that hasn't already been executed in the form of a 
contract. As far as working with the Court, we're assessing our 
opportunities for rehearing and appeal as the present time, and 
we'll continue in that regard.
    Senator Wyden. Thanks. Go to Senator Smith.
    Senator Smith. Thanks, Senator Wyden. Mark, on the weekend, 
Senator Wyden and I toured the wind and flood damage in Western 
Oregon, and I understand that while we saw some blowdown 
timber, there was a great deal of blowdown timber in Washington 
State on Federal lands. Do you have any--Have you quantified it 
at all? Do you have a figure at this point?
    Mr. Rey. We're collecting that information now. I would 
hazard a guess that the hardest-hit forests would be the 
Olympic National Forest in Washington, and the Siuslaw in 
Oregon. We'll probably have any initial damage reports in a 
week or 10 days, and we'll share them with you.
    Senator Smith. Do you have any plans for salvage on that?
    Mr. Rey. We would, as a normal course, within the 
constraints of the Northwest Forest Plan, try to salvage that 
material. What we don't know is, what you always have to look 
at carefully when you're looking at wind damages, what kinds of 
values you have left, because usually the trees are twisted 
before they're snapped off. Depending on how badly that occurs, 
it'll affect the value of what's there.
    Senator Smith. In 1998, there was a similar storm in Texas 
that blew down an awful lot of Federal forest, and the Clinton 
Administration used what they had called ``alternative 
arrangements'' in order to harvest the blowdown wood. Have you 
considered alternative arrangements when it comes to salvage?
    Mr. Rey. Whenever we have a natural disaster like this, we 
look at all of the available options----
    Senator Smith. Did they follow a statutory----
    Mr. Rey. It's a--yes----
    Senator Smith. Alternative arrangements--is that a 
statutory thing that'll permit it?
    Mr. Rey. No. The statute references it in a very succinct 
way. The procedures for when it's applicable are embodied in 
regulations issued by the Council on Environmental Quality.
    Senator Smith. It got around NEPA.
    Mr. Rey. Alternative arrangements are part of NEPA. So we'd 
like to express it that way.
    Senator Smith. So, in a sense, it got around NEPA.
    Mr. Rey. It's an alternative that NEPA provides for in 
situations where there's an imminent risk to human life and 
property.
    Senator Smith. Is there something different about the 
Pacific Northwest and Texas that would make alternative 
arrangements appropriate to one and not to the other?
    Mr. Rey. Not on the face of things. The question would be 
more site-specific. That is, is there an imminent threat to 
human life and property such that alternative arrangements are 
justified?
    Senator Smith. Was there in Texas to your recollection?
    Mr. Rey. The--Of course, this was----
    Senator Smith. I'm just trying to jog your----
    Mr. Rey. Yes.
    Senator Smith [continuing]. Your creativity here more.
    Mr. Rey. This was a decision rendered by my predecessors.
    Senator Smith. I'm trying to get some timber to some 
desperate communities.
    Mr. Rey. My recollection is that this was an area where 
there was concern about the following spring fire season, and 
that's why they wanted to move this stuff off quickly.
    Senator Smith. Any concern about the following spring fire 
season in the Pacific Northwest?
    Mr. Rey. The problem there is that you can likely make a 
better case for that on the Siuslaw than you can on the 
Olympic, but we'll have to look at it in a more specific way.
    Senator Smith. I hope you'll look at it. The Ninth Circuit 
Court of Appeals, when it invalidated the categorical exclusion 
process for certain hazardous fuels projects--my understanding 
is that a categorical exclusion has been used by the Forest 
Service in projects that successfully protected communities 
from wildfire. I think you've stated that. What type of 
projects will this decision now stop?
    Mr. Rey. This decision will stop relatively small-bore 
projects that fit within the categorical exclusion. There's an 
acreage cap of this particular categorical exclusion, and in a 
minute here I can describe those sideboards to you succinctly.
    Senator Smith. Do you have, in that description, do you 
have in mind legislation that we could work with you on in 
order to meet the Ninth Circuit objection and get this back 
online as a vehicle for you to harvest timber?
    Mr. Rey. We'd be happy to work with the subcommittee on 
that. But basically, for this categorical exclusion to work, 
the project has to be located in a Wildland Urban Interface 
area or in Condition Classes II or III in Fire Regime Groups I, 
II, or III. In other words, areas with high fuel loads and high 
fire frequencies. It has to be identified through a 
collaborative framework; be consistent with existing land 
management plans; not be within wilderness areas or wilderness 
study areas; not involve any use of herbicides, pesticides, or 
the construction of permanent roads; and be subject to size 
limitations that vary depending on the nature of the fuel 
reduction activity in question, whether it's mechanical 
treatments or prescribed fire.
    Senator Smith. I'd like to work with you on some language 
that might meet the Court objection and allow this tool to be 
available to you still. Mr. Chairman, if I may have one other 
question.
    Senator Wyden. That'll be fine, but we're going to have to 
really hustle to get to our second panel before close.
    Senator Smith. Any comment from you, Mark? I keep hearing 
that you're focused on cutting all growth, but my understanding 
is that you're focused clearly on secondary growth, and not on 
old growth. Do you have any comment about that?
    Mr. Rey. Since the development of the Northwest Forest Plan 
we have harvested 400 acres of old growth in the affected 
region, and I think we still have about 5 million acres left, 
so----
    Senator Smith. OK. I think that----
    Mr. Rey [continuing]. Not old growth harvest been 
incidental.
    Senator Smith. I think that answers the question. Thank 
you, Mr. Chairman.
    Senator Wyden. Senator----
    Senator Barrasso. Thank you, Mr. Chairman. Mr. Caswell, 
earlier Mr. Rey testified about the House Energy Bill and 
compared it to the Senate Energy Bill with relation to some of 
the language in there about how biomass could be used. Do you 
agree with Mr. Rey, or any additional comments you'd like to 
make?
    Mr. Caswell. Absolutely, Senator. We're in lockstep.
    Senator Barrasso. Then Mr. Rey, I think we've recognized as 
far as health issues in Wyoming, and as well as around the 
country, and when I visit with my constituents and travel 
around the State, they ask the question if conservation efforts 
are actually overstepping their good intentions and causing 
some harm. Any comments you'd like to make on that?
    Mr. Rey. I think what I would urge people to focus on is 
that, notwithstanding all of the rhetoric that you've heard 
about the Healthy Forest Initiative, in the 4.8 million acres 
we treat in 2007, we will treat about 300,000 acres that will 
involve the utilization of commercial forest products. So about 
6 percent of the acres treated are going to generate some sort 
of a commercial forest product. If you then compare that to the 
rhetoric, to the litigation, to the appeals, you have to 
wonder--what's all the sturm and drang about?
    Senator Barrasso. Mr. Chairman, just in the interest of 
time, I'll allow you to go on to the next panel.
    Senator Wyden. I thank my colleague for his courtesy. Let 
us do just that. I would certainly continue this debate about 
categorical exclusion if we weren't under such time 
constraints. Thank you, both. Let's go forward now with 
Professor Johnson and Phil Aune from Nine Mile Falls, 
Washington. Gentlemen, please come forward.
    Professor Johnson, welcome. Always glad to have you and 
your long history of expertise here. Mr. Aune, we welcome you, 
as well. Professor Johnson, we'll make your prepared remarks 
part of the record, and if you can summarize your key views, 
that would be helpful.

   STATEMENT OF K. NORMAN JOHNSON, UNIVERSITY DISTINGUISHED 
       PROFESSOR, OREGON STATE UNIVERSITY, CORVALLIS, OR

    Mr. Johnson. Thank you, Mr. Chairman. It's good to be here, 
and good to be on the panel with my friend Phil Aune. I'm Dr. 
K. Norman Johnson, and I'm here to give testimony today for 
myself and Dr. Jerry Franklin. I'm Professor of Forest 
Resources at the College of Forestry at Oregon State. Jerry is 
Professor of Ecosystem Sciences in the College of Forest 
Resources at the University of Washington.
    Our testimony focuses on forest restoration in the national 
forests of Oregon and Washington that it turned out when they 
added up we have been looking at and admiring for almost a 100 
years in our professional life. We've also served on a number 
of scientific panels, including the panels that result in the 
Northwest Forest Plan, and we just recently completed a plan 
for the Klamath Tribes, a comprehensive restoration plan for 
their historic tribal lands that are currently part of the 
Winema Fremont.
    Our definition of restoration is the establishment of 
ecological structures and processes on those forests where they 
have been degraded, and simultaneously restoration of economic 
and other social values on these lands. One product of this 
restoration will be substantial reductions and uncharacteristic 
fuel loadings. We emphasize here restoration activities in 
which ecological, economic, and social goals are compatible. 
Our restoration needs and objectives contrast greatly between 
forests representative of plant associations historically 
characterized by relatively frequent low-to mixed-severity 
fires, such as the Ponderosa Pine and the dry mixed-conifer 
forest, common east of the Cascade Range; and, on the other 
hand, relatively infrequent high severity disturbance regimes, 
such as Westside Douglas-fir and western hemlock forests, and 
our testimony will reflect these differences.
    First, restoration of the forest characterized by frequent 
low-and mixed-severity fire regimes--We will lose these forests 
to catastrophic disturbance events unless we undertake 
aggressive, active management programs. This is simply not only 
an issue of fuels and fire, as important as they are. Because 
of the density of these forests, there is potential for drought 
stress and related insect attacks. Old growth pine and other 
trees are at high risk of death from both fire and western pine 
beetle. Without action, again, we're at risk of losing these 
forests, and this potential for loss is greatly magnified by 
expected future climate change, which will result most probably 
in more intense summer drought periods, putting additional 
stress on the forests.
    We know enough to take action. We need to learn as we go, 
but we do need to take action now. Furthermore--and Dr. Jerry 
Franklin wanted me to emphasize this--it is critical for 
stakeholders to understand that active management is necessary 
in stands with existing old growth trees in order to reduce the 
risk to them. Activities at the stand level need to focus on 
restoring ecosystems to sustainable composition and structure, 
in addition to reducing fuel level to acceptable amounts. As 
part of that, restoring old growth tree populations is an 
important goal.
    Action is also needed to restore hardwood species often 
overlooked--such as aspen, willows, and alders--which have 
declined in the landscape. As mentioned earlier, restoration 
programs must be planned and implemented at the landscape level 
to be effective. Creating fuel treatment patches and strips is 
a useful first step to helping control wildfire, but it's not 
sufficient to save these forests and the important array of 
values in them. To conserve these forests, we believe we need 
to modify stand structure on one-half to two-thirds of the 
landscape, creating a matrix of more natural and sustainable 
forest interspersed with islands of dense stands, an 
environment we believe the northern spotted owl can survive in.
    Key elements of actions to restore these forests include: 
Conserving old growth trees as a first priority, combining 
conservation of old growth trees, stand density targets, and 
emphasis on drought and fire tolerance species as an overall 
guide to action. As I mentioned before, focusing on areas with 
concentrations of old growth structure is a high priority, and 
also ensuring the conservation of aquatic systems.
    Prescribed fire is a useful tool in forest restoration, but 
it's not sufficient alone. Mechanical silvicultural activities 
typically will be required. Harvests cannot pay for actions, of 
course, and provide useful economic and social benefits, 
although it's mentioned here additional funds will be needed. 
Then fire or other actions need to follow harvest to reduce 
short-term fuel hazards, or better yet, used as residue in 
biomass power plants. Finally and most profoundly, policymakers 
and managers need to plan for continued active management of 
these restored stands.
    Now, I want to go on to restoration of forests associated 
with infrequent high intensity fire regimes in the Douglas-fir/
western hemlock plant associations that dominate the Westside. 
The primary restoration need is for silvicultural activities to 
accelerate the development of structural complexity in 
plantations created following timber harvest. There are a 
number of key elements in this, and there are tens of thousands 
of acres of this--hundreds of thousands of acres, really. Key 
elements are conserving the remnant old growth trees using 
silvicultural prescriptions that would encourage development of 
spatial heterogeneity, allowing plantation thinning beyond the 
current limit of 80 years of age, and a number of other actions 
I discuss here.
    Next, I want to briefly discuss a guide to activities 
following severe disturbances for restoration activities. 
Management goals should be a starting point in determining 
appropriate post-disturbent activities, and comparable 
structural goals should guide management before and after a 
wildfire. As an example of where ecological objections are 
primary, proposed salvage operations should retain structures 
of the same size and density as those developed for the green 
forest. Old growth trees, in that case, would be considered 
whether alive or dead. This approach provides a solid reference 
for action and can eliminate intense arguments over such issues 
of the probabilities where the burned trees will die.
    Finally, and important to Jerry and I, is the notion that 
third-party review is a key to forest restoration. Successful 
restoration of the forest will require large-scale actions over 
space and time, and managers need the latitude to adapt general 
policies to specific situations. In exchange, we need credible 
mechanisms for evaluating whether actions are moving our 
forests toward restoration goals, and also how to change when 
the actions are not doing that. Monitoring is necessary, but 
not sufficient. We think that third-party review is essential 
to gain and retain public acceptance.
    [The prepared statement of Mr. Johnson follows:]

   PREPARED STATEMENT OF K. NORMAN JOHNSON, UNIVERSITY DISTINGUISHED 
            PROFESSOR, OREGON STATE UNIVERSITY, CORVALIS, OR

    I am Dr. K. Norman Johnson and I am here today to give testimony 
for myself and Dr. Jerry F. Franklin regarding forest restoration and 
hazardous fuel reduction efforts in the forests of the Pacific 
Northwest. I am a University Distinguished Professor in the College of 
Forestry at Oregon State University. Jerry Franklin is Professor of 
Ecosystem Sciences in the College of Forest Resources at University of 
Washington. These comments represent our view and not those of our 
respective institutions.
    Our testimony focuses on forest restoration in the National Forests 
of Oregon and Washington. Collectively, we have been studying these 
magnificent forests and the amazing variety of benefits that they 
provide for almost 100 years. In addition to research, we have served 
on many scientific panels analyzing forest policy issues, including the 
Northwest Forest Plan, and recently completed for the Klamath Tribe, a 
comprehensive restoration plan for their historic tribal lands, which 
are currently a part of the Winema-Fremont National Forest.
    Our definition of ``restoration'' is the re-establishment of 
ecological structures and processes on these forests where they have 
been degraded and, simultaneously, restoration of economic and other 
social values on these lands. One product of this restoration will be 
substantial reductions in uncharacteristic fuel loadings. We emphasize 
restoration activities in which ecological, economic, and other social 
goals are compatible.

      NORTHWESTERN FORESTS REQUIRE MULTIPLE RESTORATION APPROACHES

    Forests of the PNW are very diverse in their characteristic 
disturbance regimes and developmental patterns, and therefore 
restoration policies and practices must acknowledge and accommodate 
these differences. This diversity is obvious when one compares a 
typical old-growth forest of Douglas-fir, western hemlock, and western 
redcedar on the western slopes of the Cascade Range, with a typical 
old-growth ponderosa pine forest found on dry sites on the eastern 
slopes of the Cascade Range. The complexity of environmental 
conditions, as measured by variation in macroclimate, soils, landform, 
elevation, etc., and related differences in disturbance regimes make 
simple stratifications of forests, such as into areas either west or 
east of the Cascade Range divide, poor bases for policy or management 
prescription.
    Plant associations and groupings of similar plant associations 
(PAGs) provide a sound scientific basis for stratifying these forests 
into different disturbance regimes for purposes of policy development, 
management planning, and silvicultural prescription.
    Restoration needs and objectives contrast greatly between forests 
representative of plant associations historically characterized by (1) 
relatively frequent (<100 year interval), low-to mixed-severity fire, 
such as the ponderosa pine and dry mixed-conifer forests common east of 
the Cascade Range, or (2) relatively infrequent (>100 year interval), 
high-severity disturbance regimes, such as west side Douglas-fir--
western hemlock forests. Although there are many plant associations and 
sites that exhibit intermediate behavior, in this presentation we will 
focus our discussion on types that are more at one end or the other of 
the disturbance gradient.

   RESTORATION OF FORESTS CHARACTERIZED BY FREQUENT, LOW- AND MIXED-
                         SEVERITY FIRE REGIMES

    These forests have been grossly modified during the last century by 
a variety of management actions including fire suppression, grazing by 
domestic livestock, logging, and establishment of plantations. 
Consequently, they differ greatly from their historical condition in 
having much higher stand densities and basal areas, lower average stand 
diameters, much higher percentages of drought-and fire-intolerant 
species (such as white or grand fir), and many fewer (or no) old-growth 
trees.
    We will lose these forests to catastrophic disturbance events 
unless we undertake aggressive active management programs. This is not 
simply an issue of fuels and fire; because of the density of these 
forests, there is a high potential for drought stress and related 
insect outbreaks. Surviving old-growth pine trees are now at high risk 
of death to both fire and western pine beetle, the latter resulting 
from drought stress and competition. Many fir-dominated stands are now 
at risk of catastrophic outbreaks of insect defoliators, such as the 
spruce budworm, as has occurred at many locations on the eastern slopes 
of the Cascade Range in both Oregon and Washington.
    Without action, we are at high risk of losing these stands--and the 
residual old-growth trees that they contain--to fire and insects and 
the potential for these losses is greatly magnified by expected future 
climate change. Historically, much of the loss of old growth trees and 
forests has come during time of drought. The expected longer and more 
intense summer drought periods with climate change will put additional 
stress on the forests here. The stress on old growth trees will be 
especially severe where they are surrounded by dense understories.
    We know enough to take action (uncertainties should not paralyze 
us). Inaction is a much more risky option for a variety of ecological 
values, including preservation of Northern Spotted Owls and other old-
growth related species. We need to learn as we go, but we need to take 
action now. Furthermore, it is critical for stakeholders to understand 
that active management is necessary in stands with existing old-growth 
trees in order to reduce the risk that those trees will be lost.
    Activities at the stand level need to focus on restoring ecosystems 
to sustainable composition and structure--not simply to acceptable fuel 
levels. Objectives of these treatments need to include: Retention of 
existing old-growth tree populations; shifting stand densities, basal 
areas, diameter distributions, and proportions of drought-and fire-
tolerant species (e.g., ponderosa pine and western larch) toward 
historical levels; and development of spatial heterogeneity. Plant 
associations provide a good basis for providing site-specific target 
goals for stand parameters, such as basal areas. Finally, restoring 
old-growth tree populations to, and maintaining them at, historical 
levels should be a goal of restoration management.
    Action is also needed to restore hardwood species, such as aspen, 
willows, and alders, which have declined in these landscapes as a 
result of lack of regeneration and overtopping by dense conifers. 
Elimination of large predators is probably an additional key factor in 
the changes that have occurred in hardwood representation and riparian 
vegetation.
    Restoration programs must be planned and implemented at the 
landscape scale to be effective; management over the last century has 
altered entire landscapes and created the potential for very large 
wildfires and insect outbreaks. Treating isolated stands within these 
landscapes will not be effective.
    Creating fuel treatment patches and strips is a useful first step 
to help control wildfire, but is not sufficient to save these forests 
or the important array of values that they provide, including owls and 
old-growth trees. Many of the intervening areas will eventually burn 
and, even if they do not, old-growth trees will succumb to insects 
during periodic drought, since they are surrounded by dense competing 
vegetation.
    To conserve these forests, we need to modify stand structure (e.g., 
treat fuels) on one-half to two-thirds of the landscape. This level of 
restoration will create a matrix of more natural and sustainable 
forest, which has a greatly reduced potential for stand-replacement 
fire and insect mortality, interspersed with islands of dense stands. 
These interspersed dense stands will provide habitat for species like 
the Northern Spotted Owl that utilize such areas. In fact, an approach 
that results in restoring conditions on the majority of the dry forest 
landscapes is the only way in which sustainable habitat for Northern 
Spotted Owls can be provided.
    Key elements of actions to restore these forests include:

          Conserving old growth trees as a first priority.
          Utilizing historical conditions, such as historical densities 
        and distributions of tree sizes, as an ecological guide, 
        modified, as needed, by recognition of coming climate change.
          Combining conservation of old growth trees, stand density 
        targets, and emphasis on drought and fire-tolerant species as 
        an overall guide to action. We suggest moving away from 
        approaches based on diameter limits. Young, shade-tolerant 
        trees of substantial size often contribute to the unnaturalness 
        of many stands, as well as threatening old-growth trees. Also, 
        old-growth trees may be smaller than a proposed diameter limit 
        but still should be retained.
          Focusing on areas with concentrations of old growth structure 
        as a high priority for treatment. Recognition that such areas 
        should receive early attention is recent; there has been a 
        tendency to think that stands with numerous old-growth trees 
        should be left alone or, at least, be of much lower priority 
        for treatment. The reality is the opposite! Forests that still 
        retain substantial numbers of old-growth trees should be 
        priorities for treatment because these are irreplaceable 
        structures that are at great risk from uncharacteristic 
        wildfire and bark beetle attack. Hence, reducing the potential 
        for accelerated loss of these old trees should be at the top of 
        the agenda.
          Working to regain complexity--forests have been simplified 
        through harvest, fire suppression, and grazing--work for 
        heterogeneity at all spatial scales.
          Returning understory community composition and ground fuels 
        to characteristic composition and structure. Many areas that 
        characteristically had frequent, low-frequency fire regimes no 
        longer do, due to the accumulation of branches and dead trees 
        on the forest floor and the loss of fine fuels (that used to 
        carry these fires) to grazing. Reversing these effects will be 
        needed.
          Giving special attention to the hardwood component of the dry 
        forest landscapes, both riparian and upland. In many ways, 
        hardwood species and communities are in as much difficulty as 
        conifer-dominated stands.
          Ensuring conservation of aquatic systems. Limiting new roads, 
        closing unneeded roads, improving road systems, revitalizing 
        aspen and willow forests, and controlling aggregate watershed 
        effects will all play a role in this effort.

    Prescribed fire is a useful tool in forest restoration but is not 
sufficient alone--mechanical silvicultural activities typically will be 
required. Difficulties exist in safely dealing with the build-up in 
fuel; in many cases harvest is required to help reduce fuel loads. In 
addition, the uncertainty of a burn program, due both to smoke and 
safety issues, makes it difficult to base a forest management program 
for a large area solely on prescribed fire.

          Harvest can help pay for actions and provide useful economic 
        and social benefits, but additional funds will be needed. 
        Significant commercial volumes need to be removed to restore 
        these forests. They can provide the funds for treatment and 
        also help maintain milling capacity and communities. Rarely has 
        there been such a coming together of ecological, economic, and 
        social considerations. Commercial harvest, though, will not pay 
        for all that needs to be done.
          Fire or other actions must follow harvest to reduce the 
        short-term fuel hazards generated by mechanical treatment. 
        Fire, at least to consume activity fuels (debris and small 
        trees left on site), is an ideal follow-up to harvest where it 
        can be carried out. Without treatment of activity fuels, 
        thinning has a significant probability of actually accentuating 
        the fuel hazards in treated forests for at least a period of 
        time. Better yet, use this residue in biomass power plants.

    Finally and most profoundly, policy makers and managers need to 
plan for continued active management of these restored stands. These 
activities and others will need to be repeated through time to maintain 
the sustainable structure and composition. Sometimes, this may be 
accomplished with burning but most of the time repeated silvicultural 
treatment of stands and landscapes will be required in the more 
productive mixed conifer types.

   RESTORATION OF FORESTS ASSOCIATED WITH INFREQUENT, HIGH-INTENSITY 
                              FIRE REGIMES

    On the west side of the Cascade Range, the primary restoration need 
is for silvicultural activities to accelerate the development of 
structural complexity in the plantations created following timber 
harvest. Tens of thousands of acres of young stands exist which could 
benefit from activities that reduce stand densities, favor 
biodiversity, and create spatial heterogeneity. There is an immense 
opportunity and need for restoration in these plantations that could 
result in significant contributions to ecological, economic, and social 
goals.
    Restoration efforts can increase structural complexity in the 
plantations created after clearcutting. These plantations usually 
contain dense conifers dominated by one or two commercial species. Most 
have little or no structural legacy of standing and down trees from 
previous stands. Thus, these stands are much simplified from the young 
naturally regenerated forests that would have developed historically. 
Thinning and other activities can accelerate the development of 
complexity within these stands. Also, such thinning can speed the 
development of late-successional characteristics.
    Key elements of actions to increase structural complexity in 
plantations:

          Conserving all remnant old growth trees. There is rarely an 
        ecological justification for cutting old growth trees as a part 
        of restoration programs.
          Utilizing silvicultural prescriptions that encourage 
        development of spatial heterogeneity, such as variable density 
        thinning.
          Allowing plantation thinning beyond 80 years of age.
          Ensuring conservation of aquatic systems Limiting new roads, 
        closing unneeded roads, improving road systems, and controlling 
        aggregate watershed effects will all play a role in this 
        effort.

    USING MANAGEMENT OBJECTIVES AND RESTORATION PRINCIPLES TO GUIDE 
                ACTIVITIES FOLLOWING SEVERE DISTURBANCES

    Management activities following major disturbance events, such as 
large intense wildfires, are among the most controversial issues in 
national forest management. Such ``restoration'' activities should 
follow the same principles previously emphasized with the goal of 
restoring structures and ecological processes where they have been 
degraded while simultaneously restoring economic and social values on 
these lands.
    Management goals should be the starting point in determining 
appropriate post-disturbance activities. Hence, if ecological 
objectives are primary objectives prior to the disturbance they should 
be primary considerations in any post-disturbance restoration process.
    Comparable structural goals should guide management before and 
after wildfire; these will certainly differ depending upon whether the 
management focus is primarily on ecological processes or wood 
production. Where ecological objectives are primary, proposed salvage 
operations should retain structures of the same size and density as 
those developed for the green forest. Old-growth trees should be 
conserved, whether alive or dead. This approach provides a solid 
reference for action and can eliminate intense arguments over such 
issues as the probabilities that burned trees will die.
    Similarly, approaches to reforestation should reflect restoration 
principles and management objectives For example, attempts to establish 
dense conifer plantations on ponderosa pine and dry mixed-conifer sites 
are not appropriate; if successful, such efforts simply have created, 
at best, stands in need of restoration thinning or, at worst, the next 
generation of uncharacteristic stand-replacement fires. Furthermore, 
the structurally-rich early successional communities that exist between 
a severe disturbance and re-establishment of a closed canopy of trees 
are very rich in biological diversity, including species and key 
ecological processes. Rapid termination of this successional stage is 
inappropriate where management objectives emphasize ecological 
objectives.

  TRUST BUT VERIFY; THIRD-PARTY REVIEW AS A KEY TO FOREST RESTORATION

    Successful restoration of these forests will require large-scale 
actions over space and time, as we have discussed above, and managers 
will need the latitude to adapt general policies to specific 
situations. Public acceptance and support will be needed and the social 
license for these efforts is tenuous in many places. A key component in 
gaining public support will be credible evidence that the actions are 
moving the forests toward restoration goals and a mechanism for 
changing management where the actions are not achieving the desired 
objectives.
    Monitoring is necessary but not sufficient. Given the uncertainties 
that we face in forest restoration, keeping track of the state of the 
forests and the effects of actions is a first principle of forest 
management. We believe, though, that people are increasingly skeptical 
of an agency keeping score on the effectiveness of its own actions.
    Third-party review will be essential to gain and retain public 
acceptance. We need mechanisms that provide trusted evaluations of the 
linkage between actions and goals along with the ability to suggest 
change as needed. Creation of third-party review as a regular part of 
forest restoration would go a long way toward this goal. As an example, 
a broad group of community leaders and resource managers could 
periodically review the results of restoration work and publish a 
report on their findings and suggestions for change. Other approaches, 
such as certification, could also be used. In sum, third party review 
could go a long way toward dispelling distrust in the public about the 
purpose and results of forest restoration programs.

    Senator Wyden. Professor, thank you. Mr. Aune, welcome. 
We're glad you're here from our neighbor State.

STATEMENT OF PHILIP S. AUNE, RETIRED FORESTER, FORMER RESEARCH 
   PROGRAM MANAGER, REDDING SILVICULTURE LABORATORY, PACIFIC 
            SOUTHWEST RESEARCH STATION, REDDING, CA

    Mr. Aune. Thank you very much. It is indeed a pleasure to 
be here. Mr. Chairman, I'm really going to summarize my rather 
lengthy testimony.
    My background is 45 years as a forester and silviculturist, 
primarily working in research and management. In my latter part 
of my career, I joined the California Forestry Association. All 
of my examples I'm going to use today are principally from 
California. So you can get a little bit of that, but they're 
very appropriate for especially Eastern Washington, Oregon, and 
the area east of the Cascades.
    First thing I want to show is a couple of graphs.* Bear 
with me. The first one--We oftentimes forget the fundamentals. 
I think one time it was a famous saying ``familiarity breeds 
contempt.'' It's important to look at some of the fundamentals. 
Why do we thin? How do forest stands grow? As an example here 
on the axis going across we see a typical per-acre density. As 
density increases, what happens to the volume?
---------------------------------------------------------------------------
    * Graphs and charts have been retained in subcommittee files.
---------------------------------------------------------------------------
    Professor Langsaeter, a Swedish scientist back in the 
1940s, designed this curve, and it's very appropriate for 
today. In Zone I, identified by the Roman numerals, stocking is 
light, annual growth rates are extremely high. In Zone II, the 
annual growth rate starts to decline as trees compete. In Zone 
III, the annual growth rate is rather constant over a wide 
range of stocking. Then, as it approaches Zone IV, the inner 
tree competition begins and mortality starts. As it goes to 
Zone V, substantial amounts of mortality are occurring. 
Unfortunately, most of our public lands today are operating in 
Zones IV and V. So there's no need to argue about--Do our 
stands need to be restored? The historical forest was the 
mosaic operating in all of Langsaeter's zones. Somehow, we've 
got to get that back. The next chart, please.
    Further, if we look at--What have we learned from research 
in thinning? What can it do? We have a lot of long-term 
research studies that show we can fundamentally change the 
characteristics of trees by thinning them. This is one example 
from a 30-year measurement, a study of investment in Forest 
Service research, and a plot called the Elliott Ranch Levels-
of-Growing Stock Study. To simplify this, in 1970, five levels 
of treatment started by thinning a 20-year-old stand--90 
percent of the trees were removed all the way down to 20 
percent. Thirty years later, look at the gross difference in 
diameter from those thinning treatments--25.7 inches for the 
widest space versus 16 inches for the narrowest space.
    Now, just imagine if one of our restoration goals was to 
accelerate the diameter of our trees. We have all of the 
knowledge and technology of how to do that. We need to 
encourage the willingness to do that. There are studies in the 
Douglas fir type throughout the West of these various kinds of 
studies. I used to use that as an example. You cannot influence 
such variables as the height growth on trees. But you can 
conversely influence the amount of mortality. Here we see 
diameter growth from the widest space. Guess what? That's the 
one with the lowest amount of mortality. As you increase 
stocking, guess what? You get more mortality. What does that 
mean? All of that mortality leads to the fuels.
    Finally, I'd like to--Before I--Just one case study, the 
next one, an example of what happens when we thin our forests 
when a wildfire comes up to the--and hits the forest. This was 
an accident in the long-term research project we initiated on 
the Blacks Mountain Experimental Forest, near Susanville, 
California. We were trying to study the effects of--How do you 
develop a forest with high structural diversity versus one with 
low? A simple forest versus a complex forest on 250-acre plots. 
We thinned those 250-acre plots. Then, of all of the nice 
things, we had a wildfire. I'll say that again--It was actually 
a nice thing, because that wildfire burned very aggressively 
through the Lassen National Forest where there was no thinning. 
A picture is worth 1,000 words.
    Look down immediately to the experimental forest. That was 
thinned as one of our low structural diversity followed by 
broadcast burning. As you go across the Lassen National Forest, 
the fire--Again, most of its damage in the experimental plot 
right at the edge. It didn't even invade that part of the 
treatment. It moved rapidly through the private land. The 
private land looked like that area on the forest above us 
there, kind of a grass and brush and young plantation. It 
burned all the way through that. Notice that some of the small 
trees are still living, principally because the fuel loads were 
less. Then it came back onto the experimental forest in an 
unthinned plot. Notice closely how quickly it developed into a 
total stand destruction fire. What we can say unequivocally is 
every time that fire hit one of our treatment plots, it went 
down, and mortality was down significantly.
    So there's a basis of science to what we do. Now, the 
modern science has gone beyond growth and yield. What I'd like 
to talk about, one recent research publication--I have two 
extra copies to leave for the record--the title of this is 
``Restoring Fire-Adapted Ecosystems: Proceedings of a 2005 
Workshop.'' It's interesting, if we look at the 27 papers in 
here, they're all addressing forest restoration, the effects of 
fuels reduction. There are, of these 27 articles, there's 599 
literature citations in there. Two-thirds of those came since 
1990. Our knowledge base on this subject has grown 
dramatically. The oldest citation is 1664, from England. 
Forestry has a long history of studies, and so we've got to 
capture and utilize that. OK. Enough is enough. You've heard 
enough to science. What are you going to about it? We all are 
agreeing to do the restoration.
    It's kind of like the eighth-grade dance. The music's 
playing, everybody's standing around the music, but nobody is 
dancing. We've got to make the music happen. Unfortunately, 
there is a bully that comes in periodically and says, ``We're 
not going to dance.'' You can imagine what that bully is. It's 
the one that says, ``You're going to do it my way or the 
highway.'' If the nothing is done by that, you will have son, 
daughter, grandson, granddaughter hearings on this very same 
subject. So I'm not really pleading too hard, I don't think, 
but we've got to do something about this problem. It just can't 
just restore the easy stuff, where we get violent agreement 
about removing the small trees. We've got a treat whole stands 
to restore their components, and I think we just need the will 
to do that. Thank you very much.
    [The prepared statement of Mr. Aune follows:]

Prepared Statement of Philip S. Aune, Retired Forester, Former Research 
  Program Manager, Redding Silviculture Laboratory, Pacific Southwest 
                     Research Station, Redding, CA

                           EXECUTIVE SUMMARY

          1. Thinning is one of the key practices necessary to restore 
        our forests, reduce excessive fuel accumulations, and make 
        forests sustainable and resilient as we face the uncertainties 
        surrounding climate change.
          2. There is a strong scientific foundation for thinning our 
        forests supported by centuries of research and forest 
        management observations.
          3. Within the last decade, a large body of research, 
        development and application projects has expanded our knowledge 
        of thinning and its effects on fuels reduction and forest 
        restoration.
          4. Thinning can play a major role in reducing the adverse 
        environmental effects of catastrophic events to critical 
        wildlife habitats, key watersheds, wilderness, parks, private 
        timberlands and rural communities.
          5. Thinning activities can be an expensive undertaking and 
        therefore projects must consider existing infrastructure, 
        markets for by-products, future silvicultural activities and 
        available funding.
          6. Thinning can be sustainable if economic objectives are 
        substantially improved to meet the goals established for 
        restoration and fuels reduction priorities. Social 
        sustainability remains problematic for active forest management 
        programs that require removal of trees.

                               TESTIMONY

    Good afternoon Mr. Chairman and members of the Subcommittee, my 
name is Philip S. Aune and I am a retired forester with 37 years of 
service in the United States Forest Service. My last assignment was the 
Program Manager of the Redding Silviculture Laboratory, a unit of the 
Pacific Southwest Research Station. After retiring from the Forest 
Service, I served as Vice President of the California Forestry 
Association for 5\1/2\ years retiring in 2005. I am currently a 
resident of Nine Mile Falls, Washington and I work as a part-time 
consulting forester for the American Forest Resource Council.
    My testimony today represents my views as a professional forester 
with over 45 years of experience in forest management, silviculture 
research, and forest policy and government affairs. I am also a member 
of the National Association of Forest Service Retirees an organization 
that strongly supports the need for thinning, stocking control and 
reducing the vulnerability of forests to fire, disease and insects 
problems. They clearly recognize that thinning is a valuable and 
necessary practice to achieve healthy and productive forests for 
Americans.
    The focus of this hearing is on forest restoration and hazardous 
fuels reductions in western national forests and public lands managed 
by the Bureau of Land Management. The need and foundation for forest 
restoration is clearly described as part of the U.S. Department of the 
Interior and Forest Service 2001 Cohesive Strategy for Restoring Fire-
Adapted Ecosystems on Federal Lands.\1\ Reducing hazardous fuels by 
implementing the National Fire Plan was the major focus area in 
previous Senate Energy and Natural Resource hearings in 2001.\2\ By 
2002, in the midst of one of the worst fire seasons on record, 
President Bush announced the Administration's Healthy Forest Initiative 
in Central Point, Oregon.\3\ A bipartisan effort to provide united 
leadership concerning these issues came to fruition when the Healthy 
Forest Restoration Act HFRA was passed and signed into law on December 
3, 2003 by President George W. Bush.
---------------------------------------------------------------------------
    \1\ Restoring Fire-Adapted Ecosystems on Federal Lands . . .  A 
Cohesive Strategy for Protecting People and Natural Resources. U.S. 
department of the Interior. USDA Forest Service. December 2001.
    \2\ September 25, 2001 Hearing on Implementing the National Fire 
Plan. Senate and Energy and Natural Resource Subcommittee on Public 
Lands and Forest.
    \3\ President Announces Healthy Forest Initiative. Remarks by the 
President on Forest Health and Preservation. The Compton Arena, Central 
Point, Oregon. September 13, 2002.
---------------------------------------------------------------------------
    Many have questioned why the pace and scale of federal actions has 
been so slow ever since HFRA was passed. The focus of the land 
management agencies since then has been primarily to reduce the fuel 
accumulations in the Wildland Urban Interface (WUI) using a variety of 
forest practices. Most of the practices utilized require significant 
federal appropriations to be successful. In the last few years, 
agencies have been working with generally fixed budgets and strong 
competition for federal appropriated funding in a highly charged 
political environment. Generally, only thinning has the potential to 
produce revenues and the ability to help offset costs and the current 
reliance on appropriated funding to accomplish HRFA goals and 
objectives. Thinning will be the focus of my testimony today.
    Science basis for thinning. Thinning of forest stands has a strong 
scientific foundation based on centuries of research, observations, 
development and application of this fundamental silvicultural practice. 
Most of the historic research concentrated on thinning responses 
designed to improve the overall health and vigor of forest stands while 
improving opportunities for increased growth and yield of forest 
products. Some of these thinning principles are:

          1. This continual diminution in numbers (of trees) is 
        primarily the results of a vigorous natural selection and is 
        the expression of one of the fundamental biological laws of 
        silviculture.\4\
---------------------------------------------------------------------------
    \4\ Smith, Dvid M. 1062. The Practice of Silviculture. Seventh 
Edition. John Wiley & Sons, Inc., New York.
---------------------------------------------------------------------------
          2. The struggle for existence in dense, unthinned stands is 
        so fierce as to reduce the growth and vigor of all trees in the 
        stand.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
          3. Very few trees ever recover a dominate position after they 
        have fallen behind in the race for the sky.\6\
---------------------------------------------------------------------------
    \6\ Guillebaud, W.H., and F.C. Hummel. 1949. A note on the movement 
of tree classes. Journal of Forestry, Volume 23: 1-14.
---------------------------------------------------------------------------
          4. The total production of cubic volume by a stand of a given 
        age and composition on a given site is, for all practical 
        purposes, constant and optimum for a wide range of density of 
        stocking.\7\
---------------------------------------------------------------------------
    \7\ Smith, David M. 1962. The Practice of Silviculture. Seventh 
Edition. John Wiley & Sons, Inc., New York.

    The last key principle has led to the following theoretical graph 
of growth, development and response to changes in stocking levels on a 
per acre basis. This graphical representation is part of the basis of 
silviculture and is known as the ``Langsaeter Growth Curve.''\8\
---------------------------------------------------------------------------
    \8\ Langsaeter, A. 1941. Om tynning I enaldret gran- ogfuruskog. 
Meddel. f.d. Norske Skogforsoksvesen 8-131-216. In Smith, David M. 
1962. The Practice of Silviculture. Seventh Edition. John Wiley & Sons, 
Inc., New York.
---------------------------------------------------------------------------
    This graph* is extremely relevant today because helps to provide a 
framework for the overall condition of our public land forests today. 
The roman numerals represent five major growing and subsequently health 
conditions of forested stands. Zone I represents the most rapid period 
of annual growth resulting from ample growing space for individual tree 
growth. Zone II reflects that point in time when individual trees start 
to compete with their neighbors for nutrients, water, and light. Per 
acre annual growth rates are still relatively high and constantly 
increasing as overall stocking increases. Zone III represent the 
highest annual per acre growth rate over a wide range of stocking 
levels. Intertree competition accelerates to the point where stand 
density approaches levels found in Zone IV. In Zone IV, intertree 
competition has developed to the point where significant tree mortality 
begins. Annual growth rate declines begin and this is the Zone where 
the general forest health begins to decline. Zone V is the point where 
the effect of too many trees and severe competition is the dominate 
factor and tree mortality is the major event present in the stand.
---------------------------------------------------------------------------
    * All graphs and figures have been retained in subcommittees file.
---------------------------------------------------------------------------
    The optimum time to thin forest stands is in Langsaeter Zone III 
with high annual growth conditions. Thinning practices should reduce 
the stocking levels to meet whatever the forest management objectives 
require. Generally speaking, forest management objectives should be 
established to reduce the stocking to levels found in Zone III to the 
lower end of Zone III or the high end of Zone II. Determining the 
specific quantifiable goals should be based on the best evidence from 
Levels of Growing Stock research (discussed later in this testimony) 
and objectives, local experience and economic considerations.
    The next logical question is, ``How much of our forest land needs 
thinning?'' Most of our historic forests were a mosaic of stands in all 
five Zones of Langsaeter's growth curve. Today, our public forests are 
dominated by stand conditions found in Langsaeter's Zone IV and V. 
Regardless of the cause, the facts are that our public forests are 
significantly out of balance from their historic ranges of variability. 
These overstocked conditions led the General Accounting Office to 
conclude in 1999 that 39 million acres of interior western forests have 
serious forest health problems.\9\ The national scope of the forest 
health problem was expanded and enlarged by 2002 based upon conclusions 
from the Healthy Forest Initiative. As an example, the American Forest 
and Paper Association concluded that there are 72 million acres of 
National Forest System Land at high risk to catastrophic wildfire. 
Another 26 million acres are at high risk to insect infestation and 
disease.\10\ That is almost 52 percent of all national forest land. 
Thinning has been and will continue to be the major silvicultural 
practice to balance stocking levels necessary for a wide variety of 
forest management objectives that require healthy and sustainable 
conditions. Thinning will also aid in achieving a balance of stands in 
all of Langsaeter's Zones necessary for healthy and sustainable forest 
conditions.
---------------------------------------------------------------------------
    \9\ Protection People and Sustaining Resources in Fire-Adapted 
Ecosystems. A Cohesive Strategy. April 13, 2000. The Forest Service 
Management Response to the General Accounting Office Report GAO/RCED-
99-65.
    \10\ American Forest and Paper Association. September 5, 2002. 
Healthy forests don't just happen. A news release of the American 
Forest and Paper Association. Washington D.C.
---------------------------------------------------------------------------
    Case studies of thinning experiments. Langsaeter developed the 
theoretical concepts of growth, competition, and stocking levels that 
provide the basis for thinning and other silvicultural practices. His 
concept does not, however, provide the kind of information necessary 
for specific forest types. Fortunately, such insight is available from 
carefully control long term Levels of Growing Stock Studies (LOGS). One 
such example is the Interior Ponderosa Pine LOGS study with studies 
scattered throughout the Ponderosa pine range from Canada to Mexico. 
These study sites balance the range of site productivity variables from 
very low to very high productivity. One of the highly productive LOGS 
sites is the Elliot Ranch LOGS plots located on the Tahoe National 
Forest near Foresthill, California.
    At the Elliot Ranch site, five levels of thinning were applied to a 
20 year old Ponderosa pine plantation in 1970 that resulted from a 1950 
wildfire. Each of the thinning plots had between 500 to 681 trees per 
acre before the first thinning with tree diameters between 6.6-7.2 
inches. The heaviest initial thinning treatments removed approximately 
90% trees, the next treatment 70%, the next 50%, then 30%, and the 
lightest thinning removed 20% of the trees to develop the 5 levels of 
growing stock. Three additional thinnings were applied 10, 15, and 20 
years after the first thinning. All of the trees were measured every 
five years for a variety of tree characteristics such as diameter, 
height, mortality, live crown ratio, etc. Per acre values for volume in 
cubic feet and board feet, growth and mortality were developed from the 
basic tree measurements. Summarizing some of the key data results in 
the following illustrative graphs.*
    After 30 years, the widest spaced treatment yield trees with an 
average diameter of 27.5 inches. The narrowest spacing resulted in 
trees with an average diameter of 16.8 inches or 10.7 inches smaller 
than the widest spacing, a 61.7% reduction in diameter growth. This 
could be very critical in meeting restoration objectives especially in 
areas devastated by wildfire and lacking the larger diameter trees 
necessary for wildlife habitat needs. As an example, California spotted 
owl guidelines require leaving trees greater than 30 inches in 
diameter. The LOGS plots provide ample evidence that thinning can play 
an important role in accelerating diameter growth rates. This does not 
mean that you will have California spotted owl habitat once the trees 
reach 30 inches in diameter. But what is informative is that the tree 
diameter requirements can be substantially influenced by thinning 
levels.
    There are numerous attributes that can be displayed for all of the 
measured and calculated variables too numerous for this testimony. 
However, mortality is one of the key variables for forest health 
discussions. The general rule from research results is that mortality 
generally increases as stand density increases. The amount of mortality 
varies considerably by species and seasonal factors such as drought 
induced stress. The following graph* displays the mortality for the 
period 1970 to the measurements in 2000 at the Elliot Ranch LOGS site.
    At ages 25, 30 and 35 mortality was minor. However, between the age 
of 35 and 40, mortality started to significantly increase in the 
highest density plots that only removed to 30% and 20% of the initial 
stocking. By age 45, all plots had some mortality with the widest 
spaced trees having only 2 square feet basal area \11\/acre of 
mortality and the narrowest spaced trees had 20 square feet of basal 
area/acre. Translating these results in Langsaeter Zones, all of the 
initial thinning treatments were operating in Zones I and II for the 
first 15 years. After 20 years, the 90% initial thinning has been in 
Zone I and II; the 70% level in Zone II and III, the 50% level in Zone 
III and the 30% and 20% in Zone III and IV. It is fairly obvious that 
these two light thinning treatments need another thinning to maintain 
their health and vigor.
---------------------------------------------------------------------------
    \11\ Basal Area. The sum of the square feet contained in the cross 
section of trees generally measured at breast height (41/2 foot above 
the ground on the high side of trees). As an example, a tree 16 inches 
in diameter at breast height has 1.4 square feet of ``basal area'' 
which is equal to the area of a circle 16 inches in diameter. If a 
stand contained 100, 16 inch trees in one acre, the basal area/acre 
would be 140 square feet per acre.
---------------------------------------------------------------------------
    Another excellent example of LOGS studies and benefits from long-
term forest management research is that the results can be used to 
evaluate environmental effects of thinning and prescribed burning as 
common management practices. This was recently accomplished in a long-
term study in Ponderosa pine forest located near Bend, Oregon.\12\ The 
study addresses whether their combined use is required to lower 
present-day fire risk and help restore natural ecological function; or 
whether fire or thinning alone is sufficient to attain these goals. The 
use of thinning as a fire surrogate is not well understood. The draft 
manuscript documents the effects of 16 treatments focused on thinning; 
a combination of thinning and broadcast burning; broadcast burning 
alone and fertilization on stand growth, understory development and 
biological diversity. This study is located on the Deschutes National 
Forest in the Interior Ponderosa pine forest type in eastern Oregon. 
This manuscript documents the observations of a study initiated in 1989 
and includes all re-measurements through 2006. The results documented 
nearly two decades of thinning and prescribed fire effects and 
identified the following five conclusions:
---------------------------------------------------------------------------
    \12\ Busse, M.D. et al. 2007. Is mechanical thinning an ecological 
surrogate for fire in Ponderosa pine forests? Peer Review Draft subject 
to changes. USDA Forest Service, Pacific Southwest Research Station. 
Redding California.

          1. Positive responses of ponderosa pine and understory shrubs 
        to thinning alone;
          2. Inconsequential effects of surface-applied thinning 
        residues on vegetation response;
          3. The need for multiple entries of prescribed fire if the 
        abatement of shrub growth is required;
          4. The ineffectiveness of repeated burning to stimulate 
        herbaceous biomass production or diversity in these nutrient-
        poor forests, and
          5. That thinning mimicked most ecological functions 
        attributed to fire and was a key first step to restoring 
        healthy and firesafe forests.''\13\
---------------------------------------------------------------------------
    \13\ Ibid.

    Thinning to reduce the effects of wildfire. There is substantial 
antidotal evidence that thinning will reduce the adverse effects of 
wildfires. Thinning significantly reduced fire severity and stand 
damage on the following fires: Hi Meadow, Colorado; Megram, California; 
Webb, Montana; Cerro Grande, New Mexico; Tyee, Washington; Cottonwood, 
California; Hochderffer, Arizona; Fontainebleau, Mississippi.\14\ These 
and other antidotal evidence from recent fires throughout Oregon and 
Washington and the interior west provide the best evidence of the 
potential of thinning to reduce the adverse effects of wildfire.
---------------------------------------------------------------------------
    \14\ Skinner, Carl N. 2003. Forest Fires and Forest Fuels Power 
Point Presentation. Based upon Omi and Martinson 2002 data. USD Forest 
Service. Pacific Southwest Research Station, Redding, California.
---------------------------------------------------------------------------
    Carefully control research is lacking in the area and it is almost 
impossible to test the hypothesis that thinning will reduce the effects 
of wildfires with complete scientific rigor. Placing a statistically 
sound research design with replications and a variety of treatments 
would have to be done before the wildfire occurred. Even though 
wildfires are widespread, the control research problem is exacerbated 
by the difficulty of predicting where and when the wildfires would 
occur.
    In spite of these problems, accidents do occur on research plots 
that help provide some of the best quantifiable and pictorial evidence 
of the effect of thinning on fire behavior and subsequent stand damage. 
One such example occurred in 2002 on the Blacks Mountain Experimental 
Forest in the Interior Ponderosa pine forest type found throughout 
western United States. Three general conditions were present on the 
Blacks Mountain Experimental Forest when the Cone Fire occurred. Two 
large scale thinning treatments (250 acre replicated plots) and the 
unthinned areas between the thinned plots were present. In addition, 
substantial areas adjacent to the Experimental Forest were also 
unthinned. The Cone fire occurred when fuel moistures levels were 
between one and six percent and wind speeds were nine miles per hour 
with gusts up to 20 mph. The fire was control after burning through a 
full suite of the experimental research conditions and the unthinned 
forest. The following pictures* vividly demonstrate the results of the 
wildfire.
    The area within the generally square white area was experimentally 
thinned to create a forest with high structural biological diversity. 
The area below and to the right of the red circle was designed and 
thinned to achieve low structural diversity. All of the similar 
replaced plots were in place before the Cone Fire burned through the 
Experimental Forest in September, 2002. The Cone Fire started at the 
pointed area outlined in white on the far left of this aerial photo and 
burned toward the left side of the photo. The white line delineates the 
fire boundary. The fire burned through the square area thinned for high 
structural biological diversity. The low structural diversity plot to 
the left of the white line and below the red circle did not burn due to 
the lack of fuels following implementation of the thinning and 
broadcast burning.
    The next photo shows a close up of the area surrounding the red 
circle in the above photo. Here the thinning and lack of thinning are 
fairly obvious.
    In the upper left quarter of the photo, the area defined by the 
white lines is the Lassen National Forest with almost 100 percent 
mortality in an area that was not thinned prior to the Cone Fire. The 
lower left hand quadrant is the thinned low structural diversity 
research plot with less than 1-2 percent overall mortality. Most of 
that mortality occurred at the boundary of the unthinned Lassen 
National Forest where the fire was very intense heat from the crown-
fie. The crown-fie moved rapidly fire through the unthinned portion of 
the Lassen National Forest to the Private Land in the upper right 
quadrant of the photo. The private land looked similar to the area 
immediately above the private land burned in the Cone Fire. This was a 
young planted sapling forest with annual grasses and brush understory 
composition.
    As the fire moved from the private land back on to the Experimental 
Forest in the lower right quadrant, it encountered an unthinned portion 
of the Experimental Forest. Notice how immediately the fire resulted in 
complete killing of patches as it regained its strength. As the fire 
continued, it regained full strength as it moved through unthinned 
forest until encountering other research plots that had been thinned. 
Every time the Cone Fire encountered another thinned research plot, the 
crown-fie became a manageable ground fire.
    The next two photos show the stark contrast between the unthinned 
forest and the thinned forest treatments. The most recent research 
publication documenting the five year results of the Cone fire 
concluded crown-fire spread and severe tree mortality was significantly 
reduced when advancing flames reached research areas that were recently 
thinned and underburned.\15\
---------------------------------------------------------------------------
    \15\ Ritchie, Martin R., Skinner, C.N., and Hamilton, T.A. 2007. 
Probability of tree survival after wildfire in an interior pine forest 
of northern California: Effects of thinning and prescribed fire. Forest 
Ecologyn and Manahement 247, 2007, 200-208.
---------------------------------------------------------------------------
    The Cone Fire story is a good example of what can be learned from 
having a research quality experiment in place before a wildfire occurs.
    Similar observations are being developed from careful analysis of 
other recent large scale wildfires. A recently released 2007 study of a 
large wildfire's effects in northeastern California describes the 
effects of wildfire and suppression efforts on areas with in-place fuel 
treatments, areas with no treatments and impacts on protected 
areas.\16\ The Wheeler fire was caused by lightning and started on July 
5, 2007, burning 23,420 acres of mixed conifer and Interior Ponderosa 
pine forest types. The fire burned through areas treated for fuel 
hazard reduction, untreated areas, and areas protected for California 
spotted owl and goshawk habitat (Protected Activity Centers and home 
range core habitat) as well as Riparian Habitat Conservation Areas. Key 
findings from Fites et al. research were:
---------------------------------------------------------------------------
    \16\ Fites, JoAnn, et al. August 2007. Fire Behavior and effects 
relating to suppression, fuel treatments, and protected areas on the 
Antelope Complex Wheeler Fire. USDA Forest Service.

          1. Treated areas had significantly reduced fire behavior and 
        tree and soil impacts compared to untreated areas.
          2. Treated areas were utilized during suppression along 
        several flanks of the fire for both direct attack with dozers 
        and handcrews, as well as for indirect attack with burn 
        operations.
          3. Treated areas that burned during the first two days--when 
        suppression resources were limited and fire behavior more 
        uniformly intense--had reduced fire effects compared to 
        untreated areas. In some areas, these treated sites had 
        moderate to high severity effects.
          4. A Defensible Fuel Profile Zone treated area provided a 
        safe escape route for firefighters when the column collapsed 
        and two other escape routes were cut off by the fire.
          5. Observations of fire behavior during the first two days 
        suggest that large untreated areas allowed the fire to build 
        momentum and contributed to increased fire behavior (rate of 
        spread and intensity). Thus, the influence of these untreated 
        areas made it more likely that suppression resources could be 
        overwhelmed, treated areas could be threatened and their 
        effectiveness in thwarting fire spread and intensity 
        diminished.
          6. Satellite imagery reveals that protected areas (owl and 
        goshawk nest stands) had significantly greater tree severity 
        compared to untreated or treated areas. A majority of the 
        larger blocks of untreated areas contained these concentrations 
        of owl and goshawk habitat protected areas.\17\
---------------------------------------------------------------------------
    \17\ Fites, JoAnn, et al. August 2007. Fire ehavior and effects 
relating to suppression, fuel treatments, and protected areas on the 
Antelope Complex Wheeler Fire. USDA Forest Service.

    Expanding thinning research beyond growth and yield studies. As 
mentioned earlier, most the research basis for thinning was designed to 
improve opportunities for increased growth and yield of forest 
products. Secondary goals included addressing questions on how to 
improve the overall health and vigor of forest stands. The concept of 
thinning has growth well beyond those earlier growth and yield 
objectives especially with the notion that thinning has utility in 
meeting a wide variety of forest management objectives such as 
restoration and fuels reduction. Modern thinning research, development 
and application programs focus on thinning to achieve a wide range of 
objectives rather than traditional growth and yield objectives. As an 
example, electronically searching the Forest Service Research Web Page 
(literature citations sub page) using ``thinning'' as the key word for 
a literature search from the period 1988-1997 was conducted during the 
week of December 3, 2007.\18\ The electronic literature search listed 
106 publications responding to the keyword thinning. Using the same 
thinning keyword and changing the date to the last ten years resulted 
in 634 publications. That is a 598 percent increase in the number of 
publications over the previous decade. The vast majority of the recent 
thinning papers addressed restoration, fuels reductions and other 
ecological values. An excellent example of this is the publication:
---------------------------------------------------------------------------
    \18\ Forest Service. December 2007. Research Tree Search Web Page 
http://www.treesearch.fs.fed.us/pubs/results.jspErU

          Restoring Fire-Adapted Ecosystems: Proceedings of the 2005 
        National Silviculture Workshop. June 6-10, 2005. United States 
        Department of Agriculture, Forest Service. Pacific Southwest 
        Research Station General Technical Report PSW-GTR-2003. January 
---------------------------------------------------------------------------
        2007.

    This General Technical Report contains 27 individual papers from 
across the nation dealing with research, development and application 
projects. Just about all of them address thinning as a tool for 
restoring our forests or reducing fuels.
    Even though we have this developing body of knowledge, we must keep 
in mind that the principles gained from historic thinning experiments 
and management results have application to a wide variety of forest 
management objectives. Long-term studies demonstrate the natural 
ability of forest trees respond within thinned stands and regain full 
site occupancy. This fact leaves land managers with valuable options 
for current future ecological consideration in thinning operations. 
Stands that have been thinned regardless to the original objective, 
respond with rapid growth rates on the remaining trees. Depending on 
how much has been thinned, the stands fill in the thinned areas in a 
relatively short period of time. That is a dramatic opposite of long 
time required for stands recovery in stands devastated by the effects 
of wildfires or epidemics of diseases or insect infestations. The 
results from the LOGS plots and other control research clearly 
demonstrate this principle. This resiliency and re-growth will aid land 
managers in achieving current and future ecological or environmental 
objectives.
    Even if these goals were not specifically addressed in older 
thinning operations, most thinnings rarely eliminate future ecological 
considerations options. An operational example of this occurred in 1973 
when I was a silviculturist on the Mad River Ranger District of the Six 
Rivers National Forest. During this time, the Forest Service was 
charged by Congress to accelerate our harvest volumes using thinning or 
sanitation harvest practices that are generally referred to as 
intermediate harvests. Our clear goal was to put additional timber sale 
volume in the marketplace. I was given that task for our share on the 
Mad River Ranger District. I chose to thin a 200 acre 110 year old 
stand of overstocked Douglas-fir. The stand had a basal area 240 square 
feet per acre. My prescription cal for thinning the stand to 55% of 
normal basal area. The stand was thinned down to 130-140 square feet/
acre utilizing a classic thin from below approach using skyline logging 
system to harvest the trees. The sale generated around 10 thousand 
board feet/ acre of high value Douglas-fir trees that generated around 
$2 million of revenue for the treasury.
    Ten years later, Six Rivers National Forest personnel invited me 
back to see the results of the thinning and re-measure the stand growth 
response. Immediately after thinning, the stand was opened with 30% of 
the area open to blue sky when viewed from the ground. By 1983, there 
was very little blue sky available since the crowns had completely 
filled in all of the open growing space. The basal area per acre was 
back to 240 square feet per acre. The amount of live crown ratio on the 
trees was between 30-40 percent. Prior to thinning, the trees averaged 
around 20% live crown ratio. These results indicated the individual 
trees were very healthy and the stand was healthy with very little new 
mortality.
    But the most important story was the northern spotted owl story. 
Spotted owls were not a special concern in 1973. By 1983 they were the 
crucial environmental issue for older forest conditions. In 1973 the 
sale area was never surveyed for spotted owls. By 1983, trees in the 
sale area were now 120 years old and definitely qualified as nesting 
habitat for the northern spotted owl. At that time, the thinned area 
was occupied by nesting spotted owls and was one of the best nesting 
habitats on the Six Rivers National Forest. Thinning of the entire 200 
acre stand ten years earlier did not render the habitat unsuitable for 
owls.
    One of the unintended consequences of ``doing nothing'' in special 
areas like spotted owl habitat, streamside buffer zones and old-growth 
reserves is the severe consequences from wildfires, insect and disease 
problems and other biological risks. Thinning definitely has a place in 
special areas and ``doing nothing'' will lead to some unintended 
consequences. A good example of this is long-term changes in species 
composition. Forests are obviously dynamic ecosystems constantly 
changing. Forest health goals could be easily achieved by ``doing 
nothing'' if they were static entities without risk. The dynamic nature 
of stands is emphasized in research results from ``Methods of Cutting 
Trials'' initiated in the late 1930s on the Blacks Mountain 
Experimental Forest. These results provide insight into species 
composition changes based upon ten year remeasurements data of the 
changes that occurred for a period of 50 years.
    Five replicated research thinning treatments increasing the volume 
removed from a light thinning removing 10-15 of the volume to complete 
removal of all merchantable trees was span of the treatments.\19\ For 
comparison, a control with no cutting was included in the experimental 
design. The research plots were re-measured every 10 years for 50 
years. For this testimony, one of the five treatments is displayed 
below to demonstrate the effect of thinning contrasted to no thinning. 
The thinning treatment selected for this example removed 55 percent of 
the volume in 1940. This is compared to no thinning throughout the 50 
year period. The graphs* represent the effects on species composition 
as follows.
---------------------------------------------------------------------------
    \19\ Dolph, K.L., Mori, S.R., Oliver, W.W. 1995. Long-term response 
of old-growth stands to varying levels of partial cutting in the 
eastside pine type. Western Journal of Applied Forestry. 10, 1-1-108.
---------------------------------------------------------------------------
    Notice that the percent of Ponderosa pine remained relatively 
constant over the 50 year measurement period. The predominate old-
growth species was Ponderosa pine on this site before the treatment and 
Ponderosa pine maintained that dominance 50 years later. White fir 
declined from 35% of the species composition in 1940 to 25% in 1990. 
Incense cedar increased slightly during this period. The general 
conclusion from this data is that overall species composition remained 
relatively constant over the 50 year period even though 55% of the 
volume was initially thinned in 1940.
    Contrast that with ``doing nothing'' from similar data gathered on 
the control plots in the following graph.*
    Ponderosa pine declined from 50% of the stand composition to 25% 
during the 50 year period. Insect mortality was the cause of the 
decline in species composition as the old-growth pine trees declined in 
health and vigor at the same time shade tolerant white fir began to 
occupy and compete for growing space in the unthinned stand. Incense 
cedar also increased by almost 10% over the 50 year period. Today, the 
control plot continues to have the highest amount of annual mortality. 
Unfortunately, most of this mortality is in the remaining old-growth 
Ponderosa pine. White fire is rapidly becoming the dominate species on 
a site that was once dominated by old-growth Ponderosa pine. These data 
indicate that ``doing nothing'' will have consequences. The importance 
of these critical changes and consequences is dependent upon the 
objectives established for the stand or forest.
    Economics of thinning. The classic reason for lack of strong 
thinning programs on federal lands is the value--or lack thereof, for 
the products removed. This is especially true for the smaller 
diameters. Stands with diameters too small to allow commercial thinning 
have been thinned with appropriated funding on federal lands. Early 
thinning in the life of a stand has historically been classed as 
``precommercial thinning.'' Policy established in the 1960s placed 
restrictions on precommercially thinning trees greater than eight 
inches in diameter. Trees greater than eight inches were considered 
close to the meeting most of the minimum diameters for sawlog trees in 
those days. Trees less than eight inches limit were routinely 
precommercially thinned prior to the 1990s in western national forests. 
Most of the effort was in natural or planted stands with very high 
densities per acre. The rate of precommercial thinning was determined 
by annual federal appropriations and the amount of Knutson-Vandenberg 
funding generate for this purpose from timber sale activities.
    Today the situation has changed. Stands that were precommercially 
thinned before 1990 are now being sold as commercial products if the 
local infrastructure is in place. Sawmill technology has been developed 
to improve utilization of trees down to six inches in diameter. Some 
plywood veneer plants can easily process logs from small diameter trees 
and can peel logs to a core of around 2 inches in diameter. In 
northeastern California, there is a strong infrastructure in place for 
processing biomass into electrical energy. Successful thinning programs 
selling a combination of sawlogs and biomass chips can be sold by the 
federal agencies. These are all positive steps to help improve 
utilization of small diameter trees. It is imperative that national 
energy policies recognize the important role woody biomass converted 
into electric can place reducing oil imports. In this case, our forest 
management policies are directly related to energy policies. Energy 
policies that encourage use of excess biomass off of our federal forest 
lands should be encouraged and supported in the next round of energy 
bills.
    Unfortunately, this infrastructure is in not in place universally 
throughout the western, intermountain and southwestern areas of the 
United States where most of the fire risk and thinning opportunities 
occur. Establishing a sound energy policy that encourages, rather than 
discouraging investments in biomass plants can go a long way in 
attracting industry to areas where the forest products industry has 
been devastated by the dramatic drop in federal timber sales that began 
in the 1000's. Fortunately, small log processing and thinning programs 
are less problematic in the Midwest, southern and eastern forests. The 
infrastructure is generally in place and small log processing has been 
a staple of the forest products industry for decades.
    The pace and scale of thinning on federal lands lags far behind 
what is necessary to effectively reduce the threats to fire, insects 
and diseases. The Stanislaus National Forest adjacent to Yosemite 
National Park is fairly representative of a typical western national 
forest. The following table indicates fire condition classes on the 
Stanislaus National Forest. Fire Condition Class III represents the 
worst situation, II the next, and Condition Class I the least overall 
risk to fire.\20\
---------------------------------------------------------------------------
    \20\ Stanislaus National Forest Planning File Data. March 5, 2005. 
Stanislaus National Forest, Sonora California.


------------------------------------------------------------------------
                                                              Percent of
             Fire Condition Class                  Acres      Land Base
------------------------------------------------------------------------

III                                                313,566         35.0
II                                                 359,356         40.1
                                               -------------------------
Sub-total                                          672,922         75.1

I                                                  222,578         24.9
                                               -------------------------
                                                   895,500        100.0
------------------------------------------------------------------------

    Seventy-five percent of the entire forest is in the higher 
condition classes and is a priority for treatment to meet the goals of 
the National Fire Plan. Approximately 85% of the class II and III lands 
are forested and the remainder is highly flammable brush and grass 
areas. How many acres per year would have to be treated to reduce the 
Condition Class by at least one level if one wanted to accomplish that 
goal in 10 years? Obviously, the answer is 67,292 acres. The forest is 
actually accomplishing substantially less than 1/10 of the 67,292 
acres. The irony is that near the Stanislaus National Forest a 
substantial industry infrastructure exists including sawmills and a 30 
megawatt biomass power plant. The biomass plant is capable of burning 
240,000 bone dry tons of biomass every year to produce their 
electricity. If all of that woody biomass was to come from typical 
Class III and II forested acres with two products removed, sawlogs and 
biomass chips, the 30 megawatt plant could utilize the chips off of 
approximately 17,700 acres per year. Similar relationships are found on 
every western national forest. This is an extraordinary opportunity 
from one standpoint, and a disaster waiting to happen from another.
    Why is the pace and scale so slow? The easy answer is lack of 
sufficient federal appropriations but the answer is much more 
complicated than simply budget problems. In order to develop some 
information on possible causes, I conducted an informal survey of 
American Forest Resource Council (AFRC) members and staff. AFRC has a 
federal timber sale monitoring system in place that monitors on a 
quarterly basis the progress of timber sales and stewardship contracts 
on every national forest in Washington, Oregon, California and some 
national forests in Idaho. Based upon this informal survey, the 
following reasons were identified as delaying progress of thinning 
timber sales or stewardship projects designed to reduce fuels. All of 
these are related to economics including use of scarce appropriated 
funds.

          1. Appeals and lawsuits.--Dealing with appeals and lawsuits 
        demands so much time, effort and financial resources from 
        federal line officer's, staff and specialists. Some forests 
        appear to just be afraid of the hassle of potential appeals and 
        litigation that their programs lack a targeted and aggressive 
        approach focused on minimizing the risk of appeals.
          2. Budget.--Forests work with the uncertainty of Continuing 
        Resolutions, coup with declining resource management budgets. 
        Fire suppression costs are draining natural resource budgets in 
        a constrained federal budget perspective. Annual fire 
        suppression costs are constantly increasing while resource 
        management funds are constantly decreasing. For more 
        information on this issue see the National Association of 
        Forest Service Retiree's Wildland Fire Fighting issue 
        paper.\21\
---------------------------------------------------------------------------
    \21\ National Association of Forest Service Retirees. January 25, 
2007. NAFSR ISSUE PAPER Funding Wildland Firefighting. Lincoln, 
California.
---------------------------------------------------------------------------
          3. Accountability.--The lack of real accountability in the 
        system, for meeting targets or taking on difficult priorities, 
        is hurting the system.
          4. Inexperience.--Too many line officers do not have a 
        reasonable resource and management background. Supervisors and 
        Rangers whom have never been responsible for meeting targets, 
        budget preparation and accountability have been weakening the 
        process. Most new Line Officers at the Ranger level are also 
        poorly trained in fire fighting management which may correlate 
        to their lack of understanding of the urgency for fuel 
        reductions and dealing appropriately with their overstocked 
        forest conditions.
          5. Downsizing of the ranks of field foresters.--Preparation 
        of thinning projects requires highly skilled timber sale and 
        stewardship contract personal. Personnel with strong 
        backgrounds in sale layout, silviculture, logging systems, and 
        contract administration are generally found on successful 
        thinning projects. Where they are absent, those projects are 
        the most problematic. The missing skills are often the result 
        of loss of qualified people to retirement and a lack of 
        recruiting replacements in the forester ranks for the past 15 
        years. The agencies have been unable or reluctant to fill these 
        crucial positions because of constant downsizing to react to 
        and ever decreasing budget.

    Value consideration plus the generally high cost of removal of 
smaller diameter logs and high transportation costs require careful 
economic considerations throughout the decision process for thinning 
programs. Unfortunately, that is not the case on small log sales and 
stewardship projects. The following economic considerations are 
problematic on the national forests and Bureau of Land Management 
programs AFRC has monitored.

          1. Low volume per acre.--Marking is too light to achieve 
        fuels reduction, restoration, silvicultural or economic 
        objectives. Conservative marking is problematic on just about 
        every sale offered or sold. Conservative marking also results 
        in minimally effective fuel reduction efforts and continuation 
        of fuel ladder problems throughout those stands treated.
          2. High cost logging systems.--Poor road location, timber 
        sale layout and harvest system choices have resulted in 
        excessive logging costs. This is especially true when 
        helicopter yarding is selected for thinnings. Opening or 
        constructing temporary roads could be employed to utilize 
        conventional logging systems and eliminate or greatly reduce 
        the need for high cost helicopter logging.
          3. Low product value (small diameters).--Most of the higher 
        value from trees sold as sawlogs comes from clear wood 
        associated with larger diameter trees. Smaller diameter trees 
        do not contain large amounts of the high value clear grades. 
        The lower value sawlogs coup with large amounts of non-sawlog 
        material such as chips or biomass that must be removed, 
        chipped, or burned substantially lowers the value of the 
        products removed. A key solution for improvement is to 
        increasing the amount of merchantable sawlog to economically 
        cover the cost of removal, chipping or burning of non-sawlog 
        material.
          4. Product understanding.--Not every sawmill can process the 
        low end of the small diameter trees. Even with mills that 
        specialize in small diameter logs, they also need a mixture of 
        larger diameter trees to balance economics of manufacturing of 
        small diameter trees.
          5. Diameter Limits.--It does not make sense to enact a 
        diameter limit in a stand that needs to be thinned or is being 
        attacked by insects or diseases. Forest managers generally 
        understand the need or objective to achieve a healthy forest 
        stand condition. Diameter limits, however, are the absolute 
        wrong limitation to place on thinning prescriptions. The 
        paramount objective should be leaving healthy individual trees 
        that meet stand management objectives, overall stocking goals 
        and economic considerations necessary to achieve the healthy 
        condition. A classic example of diameter limits that hinders 
        achieving healthy forest objectives is the 21'' diameter rule 
        from the ``Eastside Screens'' for eastern Washington and Oregon 
        forests.
          6. Standards and guidelines limit effective economic 
        practices.--Some forests are using outdated standards that are 
        based on logging equipment used in the `70's and `80's. This 
        results in severely restricted operating seasons. The most 
        severe example is using helicopter logging while flying over 
        roads already in place and serviceable because of the fear of 
        ground compaction. In addition to outdated standards, a 
        plethora of new standards have significantly restricted 
        operating seasons to the point where it is problematic to find 
        windows where the purchasers can log the sales.
          7. Appraisal system.--The current appraisal system does not 
        do a good job of separating types of sales when they group 
        sales in large geographic areas to acquire their base sale 
        values used in transaction evidence appraisals. The appraisal 
        system does not respond to rapid changes in market conditions 
        since it is based upon past transactions. Appraisal personnel 
        have limited understanding of logistics or costs involved in 
        doing a project because of the reliance of computer based 
        transaction evidence appraisal.

    Most of the economic problems cited can be resolved without 
compromising or adversely affecting resource values. National, 
regional, and local efforts must be substantially improved in order to 
improve the economic viability of federal thinning programs.
    Social aspects of thinning.--The public willingness to thin our 
forests and reduce the threats from wildfire has greatly changed in the 
last decade. During this time, vivid images on television of 
catastrophic wildfires have dominated the news concerning national 
forests and public lands. Major wildfires have occurred in just about 
every State west of the Mississippi. Lives have been lost and property 
destroyed. Suppression costs have ballooned into billions of dollars 
every year. The most significant impact on threatened and endangered 
habitat has been loss to wildfires. Watersheds have yielded tons and 
tons of sediments into our nation's rivers, lakes and reservoirs. Calls 
for action have been posted in editorials from small town weekly papers 
to major city dailies. Western Governors have held numerous conferences 
encouraging and demanding action. The Healthy Forest Restoration Act 
was passed. Given all of this, it is easy to say the national will to 
do something has been established and is there to support our federal 
agencies actions--but ``how'' to do this has never received unified 
support.
    Support for local solutions has been very prevalent in local 
communities adjacent to and surrounded by federal forest lands. The 
problems of overstocked stands and wildfire threats are universally 
understood. This has led to wide acceptance of the need for aggressive 
active programs in local communities to deal with the problem. 
Realization of the threats from wildfires on the Wildland Urban 
Interface has led to the formation of community coalitions and Fire 
Safe Councils throughout the West. The need to undertake fuels 
reduction efforts is generally well supported by local citizens and 
county officials. As a generalization, the closer one is to the problem 
of overstocked forests, the greater the support for thinning to reduce 
the problem.
    Active citizen coalitions designed to help the federal agencies 
develop effective programs are present in just about every location 
near federal lands. They are generally focused on improving the pace 
and scale of thinning and fuels reduction by providing unified support 
for active programs. As a recent example, a coalition of diverse 
individuals near Bend, Oregon is working together to develop 
prescriptions for encouraging thinning of overstocked stands near the 
Black Butte Ranch. Their goal is an attempt to reach common ground and 
develop support for thinning programs, reduce conflicts and improve 
trust between diverse groups. The Bend Bulletin highlighted this 
program in a recent newspaper article:

          The 20 or so people from the U.S. Forest Service, timber 
        industry, conservation groups and some who just live nearby 
        stood in the ponderosa pine forest next to Black Butte Ranch. 
        Armed with 11 different colors and patterns of marking tape, 
        they set out with a goal to flag which trees they would save, 
        with the other ones left to be cut, if they were making the 
        decisions.\22\
---------------------------------------------------------------------------
    \22\ Ramsayer, Kate. November 16, 2007. Field trip helps forge 
trust among diverse interests. Bend Bulletin. Bend, Oregon.

    Their solution will undoubtedly be relatively consistent for 
removing small diameter trees and brush as such actions are relatively 
free of conflicts. As the diameter of trees identified for removal 
increases, potential conflicts increase. Unfortunately, to be effective 
in dealing with current and potential forest health considerations, 
trees must be removed from all size classes. The critical problem for 
community is how to develop support for this concept. Based upon 
personal observations from critical situations, this is the essential 
problem in building effective solutions.
    As an example, the community of Lake Arrowhead in the mountains 
surrounding Los Angeles has been a beautiful and restful place for 
thousands of southern California citizens. The residents and visitors 
to the community love their trees, their urban forest and the 
surrounding mountains. Their love for their urban forest manifested 
into City ordinances that made it very difficult to cut any tree within 
the city limits. Hence, very few trees were removed over the last two 
decades. As early as 1994, some people were predicting that lack of 
management in the area surrounding Lake Arrowhead would lead to 
potential problems with overstocking, insect mortality and ultimately 
severe wildfires.\23\ At a Congressional Subcommittee Hearing Dr. 
Thomas Bonnicksen stated that he had, ``been working on restoring 
beetle-killed forests in these mountains with Forest Service 
professionals almost continuously for most of this year, and I had 
warned of a possible tragedy as early as 1994.''\24\ Even though 
Bonnicksen's early warning was sounded, little action was taken in 
subsequent years by those who had chartered and received his 1994 
situation analysis.
---------------------------------------------------------------------------
    \23\ Bonnicksen, Thomas M. December 5, 2003. Witness testimony. 
Hearing on recovering from the fires: Restoring and protecting 
communities, water, wildlife, and forests in Southern California. 
Before the Committee on Resources, Subcommittee on Forests and Forests 
Health. Lake Arrowhead, California.
    \24\ Ibid.
---------------------------------------------------------------------------
    Over the last few decades, their once beautiful urban forest (and 
most of the San Bernardino National Forest) reached Zone V stocking 
conditions found in Langsaeter's growth curve with the predictable 
increases in insect caused mortality. By 2000, bark beetle insect 
populations began to expand as they thrived in this favorable 
environment exacerbated by adverse effects of drought. Within three 
years, over 600,000 acres of forest lands surrounding Lake Arrowhead 
were suffering severe insect mortality. The local call to finally do 
something was loudest in Lake Arrowhead and other mountain communities. 
Unfortunately, it was too late--especially for the old-growth pine. 
Massive efforts were then undertaken to remove thousands of dead trees 
within Lake Arrowhead and other communities. The problem dramatically 
changed from insect mortality to wildfire prevention which 
unfortunately devastated the Lake Arrowhead and other communities in 
2003 and 2007. The social question was, ``which of our forest 
communities would be next and how can we develop support to protect our 
communities and forests?''
    Some of the communities have been listening and have attempted 
implementing preventative actions. One of the biggest hindrances to 
implementing community based solutions is frustration with the 
process--especially the appeal and lawsuit aspects. The best example of 
this is the suite of appeals and lawsuits that have been placed in 
front of full implementation of the Herger-Feinstein Quincy Library 
Group Forest Recovery Act (``QLG Act''), P. L. 105-277. Ever since the 
law was passed and the Forest Service prepared their draft 
Environmental Impact Statement, numerous process delays, appeals and 
lawsuits have been put in the path of implementing this classic 
community based solution for a large portion of the Plumas, Lassen and 
Tahoe National Forests. Most of the projects initiated under the QLG 
framework have now been through NEPA three times due to appeals and 
lawsuits; some have been through NEPA five times. It is absolutely 
amazing that members of the QLG coalition are still aggressively 
working to implement reasonable programs supported by the QLG 
legislation. The local communities are still willing to support the 
federal agencies, but certain segments of society remain obstacles as 
they wield one process delay after another.
    Conclusion--Sustainability of thinning.--Three major factors are 
critical for sustainability of thinning programs. These have been 
highlighted in many forums over the last 15 years. They are often 
represented by the theoretical blending of social, environmental and 
economic considerations in the following manner with sustainable 
solutions at the intersection of all three circles.*
    With thinning, the environmental need is huge for restoration and 
fuels reduction on our national forests and B.L.M. public lands. The 
economic opportunities are there if the agencies are willing to cut the 
necessary trees to make their efforts economically viable. If not, they 
will have to rely on ever increasing federal appropriations in a highly 
competitive federal budget. Both the environmental aspects and economic 
aspects are bound by substantial time tested realities. There is a 
``bottom line'' that these boundaries cannot be crossed in order to 
achieve sustainability for these two elements. Fortunately, there is a 
broad solution space for sustainability in these two elements. 
Unfortunately, the agencies are generally not using the entire solution 
space.
    The question is, ``Why are the agencies not using more of that 
solution space?'' The answer is that the social aspect of 
sustainability is the most problematic. Some have been seeking the 
elusive consensus that is so easy to talk about, but so difficult to 
achieve. People still have vastly differing solutions ranging from 
aggressive management to ``doing nothing''. Until people realize there 
is a problem--little action will be initiated. Even when actions are 
proposed, appeals and lawsuits will inevitably be used by those opposed 
to actions. Especially when those actions require removal of trees in a 
commercially viable timber sale or stewardship project. Developing 
socially acceptable solutions that truly blend with the environmental 
and economic considerations will be impossible if those who oppose 
actions continue with their ability to use the process, appeals and 
courts to override economic and environmentally sustainable solutions.
    The Lake Arrowhead example and others indicates that local socially 
acceptable solutions can be achieved. However, it usually takes a 
potential or real crisis to achieve local actions. Those who support 
early aggressive actions are usually over-ruled until the crisis 
actually occurs. People will come together to help develop socially 
acceptable solutions only at the time of crisis. Once they realize 
there is or will be a significant problem, they will cooperate and work 
with the agencies to develop solutions. They may still have vastly 
different views of the range of possible sustainable solutions. 
Generally, the closer they are to the problem and more likely to 
receive benefits from the solution, the quicker they will agree on 
socially sustainable solutions. Once they unite on a solution, they 
will aggressively support the action similar to the Quincy Library 
Group.
    However, there is a relatively narrow window in time of when this 
local support will continue. If the communities do not see meaningful 
results and aggressive cost effective programs from their federal land 
managers, their support will disappear. That is the case in many of the 
western communities because of a relatively tepid agency approach in 
dealing with the problems. There are many in local communities who 
honestly question the relevancy of the Forest Service and to some 
extent the BLM to local communities. Agency leaders and political 
entities must step forward and provide the leadership and programs 
where their actions truly speak louder than words.

    Senator Wyden. Well said. Professor Johnson, you've been at 
this for years and years, and we all read your reports 
devoutly. Once again, you come full of sensible suggestions. I 
think, particularly, getting these restoration programs off the 
ground at the landscape level is so logical. I want to start by 
posing a question to you, and getting your response to it. 
Secretary Rey said to me--I asked the Secretary whether our 
forests were deteriorating faster than they were being 
restored. I'm looking at what the nature of conservancy says, 
and each conservancy says that the Forest Service treated about 
188,000 acres in Oregon. Based on their analysis, the country 
would need to treat at least 550,000 acres annually. Do you 
agree with Secretary Rey's answer to me that we are staying 
equal to the number of forests that are deteriorating?
    Mr. Johnson. This is how I'd answer it. There's a lot of--
the Forest Service is diligently trying to do a number of 
things. Many of them are in so what I would call low-
controversial areas. In the areas where our old growth trees 
are, as Secretary Rey alluded to, down in the Sequoia, or in 
Eastern Oregon and Washington, where our really valuable forest 
is, not a lot is being done. It's much more in the areas of low 
controversy, where significant--or near Wildland Urban 
Interface areas--where activity is being done. Under broader 
landscape, the parts of our forests that are of critical value 
to us are still deteriorating.
    Senator Wyden. So are we still falling behind, because 
every single community meeting--and boy, Britton will say it 
again--and, by the way, I think there are a variety of reasons 
for this. I happen to think that people ought to have a right 
to go to the judicial system when they disagree with something 
in the forestry area. I don't think they have a constitutional 
right to a 5-year delay strategy. I don't. So there are a 
variety of reasons for it, but----
    Mr. Johnson. I----
    Senator Wyden. I'm not going to clobber you over the head 
here, but it just seems to me by any calculus--the county 
commissioners in rural Oregon, some of the environmental folks 
and others--we're not keeping up. I want to give you one more 
chance.
    Mr. Johnson. If you were to ask me yes or no, as you now 
are, what would Dr. Franklin and I say? We'd say we are falling 
farther behind.
    Senator Wyden. OK. Thank you. Let me ask you, on this 
question of old growth, where you and Dr. Franklin have done so 
much good work, the public doesn't want old growth cut. In 
other words, any time you take a survey, they don't want it 
done. They do want forests thinned, and that's what I'm 
committed to doing. I'm committed to cutting through the 
frivolous litigation, doing exactly what we did on the forest 
health legislation on the county payments legislation, where I 
had pickets all over the place in efforts to try to pull people 
together.
    So your point about getting it done is everything. I think, 
Professor Johnson, is it correct in saying that some of the 
characteristics of old growth, such as being resistant to fire, 
that's exactly what we ought to be trying to do as part of our 
whole restoration effort. Is that right?
    Mr. Johnson. Oh, absolutely. Absolutely. In fact, those 
forests are much more both resistant and resilient to fire.
    Senator Wyden. The reason I'm asking is that it seems to 
me, instead of a lose-lose strategy, which is to go after the 
old growth, these treasured trees which the public wants to 
protect, and getting all this, you know, litigation, we've got 
a chance to say there's not going to be a fight in the area 
that the public wants to support. We'd get on with the kind of 
work that you and Professor Franklin are talking about, which 
is, you know, landscape-type projects and the like. So----
    Mr. Johnson. Yes. As a matter of fact, this is the most 
significant coming together of values I've seen since I started 
work 40 years ago on how to manage our forests and what ought 
to be done, and whether it's the Malheur National Forest or the 
Winema National Forest. No. I think that's true, and it's a 
puzzle, and Phil Aune just said as to why we can't move 
forward. But could I just say one thing about it----
    Senator Wyden. Of course.
    Mr. Johnson [continuing]. Which is that there still is 
concern, and I think legitimate concern, about will we in fact 
undertake these treatments in a way that conserves these 
forests, and conserves the old growth, we need to get beyond 
that. We need to find some mechanisms to get beyond that, and 
prove out what we're doing.
    Senator Wyden. I'm violating my rule, because I think I'm 
two seconds over, just so we can get you on this. Mr. Aune, 
your point about political will is absolutely key. I mean, this 
is about making sure that we protect our treasurers, and do 
sensible, commonsense ideas in the forestry area. Do you need 
additional research work at this point? I've noted that you've 
talked about, in the past, diminished research capacity on the 
part of the Forest Services. Is that also an area that you feel 
is important to this?
    Mr. Aune. One of the strengths of the United States Forest 
Service research is its ability to monitor long-term datasets. 
Universities historically have not been able to do that. I 
would say that there is a priority for the kinds of research. 
I'll give you one quick example. It's in my paper. Blacks 
Mountain Experimental Forest, 193940, five methods of cutting--
thinning at light, medium, and heavy. We monitored that every 
10 years for the last 50 years. What we can say unequivocally 
about that, by thinning the old growth forest back in 1940 to 
55 percent of the volume was removed, compared to doing 
nothing, there is more old growth attributes left on that one 
stand that was thinned, the stand that was thinned in 
replicated plots.
    So doing nothing doesn't help the situation. Do we have to 
cut all the old growth trees? No. Do we need to restrict the 
cutting and old growth trees? No. We need to say what is 
essential is to maintain those old growth trees, and provide 
them with an environment to grow and thrive. If we can do that, 
then it makes our problem much more easy. So I would add that 
to that. Beef up the strength of long-term research plots. The 
Forest Service can do that with all of the things. Universities 
are great at turning out grad students, Ph.D. candidates, as 
well. They're not--Forest Service isn't competing with that.
    Senator Wyden. Professor Johnson has graded just about 
everything, but your point is a good one, and we thank you. 
Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Professor 
Johnson, I'm glad you're here. I'd like to pick your brain 
about what's happening in Colorado and Wyoming. I know it's a 
bipartisan issue, because Senator Salazar has some significant 
concerns, as well, as we have about 70 percent of our trees 
with mortality in certain parts of Northern Colorado and 
Southern Wyoming with the bark beetle. At least my 
understanding from talking to our foresters is that the beetle 
can get in under the bark of the older trees, and then go up 
and down, and there's not enough sap to kill them off, and it's 
the older trees that they're able to reap the destruction, and 
in some of the younger trees, there is enough resistance and 
enough sap that it prevents that. So it's the older trees that 
seem to be dying.
    Any recommendations that you have for us in terms of how to 
handle this problem? We have pictures of what things looked 
like 2 years ago, and then what they look like now, and the 
discoloration is significant in what'shappening to these 
forests.
    Mr. Johnson. Much of my testimony here is on Eastern Oregon 
and Washington, where it's pretty clear that conditions have 
developed that we didn't have historically. In the case of 
especially the Lodgepole Pine Forests of Colorado and Wyoming, 
it's a little more difficult. They've gone through natural 
cycles, historically, of insect kill that's undoubtedly 
accentuated now, and made more difficult, by the buildup of 
fuels, and the buildup of understories.
    So it's a complicated--If, in fact, we're trying to restore 
the natural processes of those stands, it's a complicated 
issue. Certainly, thinning can help in some ways, but mortality 
has been part of those stands for a long time. Now, when I go 
there and look at those forests, and I've just recently done 
that, it's very disturbing. Certainly, harvest can help. But I 
would say that a really important part of this is to develop 
sort of a landscape framework for what sort of processes do we 
want to work in those landscapes and where as a starting point?
    Senator Barrasso. Mr. Aune, do you have any suggestions or 
recommendations of things we ought to be thinking about there?
    Mr. Aune. I think you've got to go back again to Professor 
Langsaeter's curve. In the historic forest, there was a set of 
conditions, in the Lodgepole Pine Forest, all the way from the 
forests that were relatively unstocked, not growing very well, 
to very well-stocked forests. The problem is, they're all up at 
that Zone IV and V. When you do get an insect outbreak, it just 
gets atrocious and it magnifies itself like we've never seen 
before. All you've got to do is look north to your neighbors in 
British Columbia--our neighbors in British Columbia. Bark 
beetle epidemics, similar to what's going on in Colorado, now 
infest 26 million acres of British Columbia. Dynamic, dramatic 
effects. We can build a situation like that here in the United 
States if we don't actively manage our stands.
    I'd also like to point out that forests in Southern 
California, valued for their recreation, and while the most 
significant deleterious effect to the old growth forests that 
are down there has been a bark beetle attack. After decades of 
trying to save those very trees, 600,000 acres of forestland 
there have been devastated. Then you confound that with fire 
problems, and it's a situation for disaster. Commonsense tells 
us it's the time to really aggressively thin our stands. That's 
the only one of our economically viable treatments that can do 
something. Everything else relies on huge Federal 
appropriations. Thank you.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Wyden. Gentlemen, thank you both. I'm sorry things 
are so hectic, and we'll look forward to working very closely 
with you in the days ahead. Let's see if we can start our next 
panel. It seems that both are being held up for a few minutes. 
We'll get as far as we can. Russ Vaagen, Vice President of 
Vaagen Brothers Lumber Company in Colville, Washington is here. 
Matthew Donegan, Co-President of Forest Capital Partners in my 
hometown is here. Russ Hoeflech, Vice President of the Nature 
Conservancy in Oregon, is also here. The Honorable Blake 
Britton, one of my friends from Grant County.
    Welcome to all of you, and we're going to get as far down 
the road as we can. Why don't we begin with you, Mr. Vaagen. 
Welcome.

 STATEMENT OF RUSSELL C. VAAGEN, VICE PRESIDENT, VAAGEN BROS. 
LUMBER INC., NORTHEAST WASHINGTON FORESTRY COALITION, COLVILLE, 
                               WA

    Mr. Vaagen. Thank you, Mr. Chairman. I'm Russ Vaagen. I'm 
Vice President of Vaagen Brothers Lumber, and I'm also Vice 
President of Northeast Washington Forestry Coalition. My family 
has been in the forest products industries since the 1920s. Our 
company is based in Colville, Washington, and we're focused on 
maximum responsible utilization of our forest resources. We 
have transformed our company from a traditional sawmill to one 
focused on small-diameter logs. We produce building products 
from logs as small as four-and-a-half inches.
    We think there is a critical need to treat millions of 
acres of national forestland that is currently in poor 
condition, as discussed earlier. Something very important is 
happening in our area and many other areas throughout the 
Western states. Environmentalists and members of the timber 
industry have been coming together to solve current forest 
health problems, and things have changed. The conservation 
groups have come to the table to solve problems, instead of 
trying to fight with the timber industry. The industry has 
started to look to the conservation groups as potential allies 
rather than the evil opposition.
    Much of the timber industry has also moved to technology 
that allows the use of smaller logs. Due to these changes, 
conservation and timber management advocates have common 
interests, including healthy forests, quality wildlife habitat, 
and clean water, with safe, stable, rural economies--I mean, 
rural communities. Excuse me. In our area, we have created the 
Northeast Washington Forestry Coalition. It's a nonprofit 
organization, made up of members from conservation groups, the 
local sawmill companies, consulting foresters, other business 
leaders, and community members.
    It's open to the public, and we encourage others to attend 
our meetings and join our coalitions if they have interest in 
the stuff that we're working on. Specifically, we were formed 
to work with the Colville National Forest in order to influence 
and help the local forest management staff manage the just over 
1 million acre forest in Northeast Washington, comprising the 
three northeast counties. We have been very successful in that 
we have not had any appeals or litigation in over 4 years, and 
we have been able to secure funding to launch new forest 
restoration projects in the Wildland Urban Interface. Our 
agreement on projects is documented and ongoing.
    The unfortunate thing is that just because we may now agree 
doesn't mean the Forest Service is poised to act on it. The 
budget is one reason, but more importantly, it's an attitude 
and a culture that does not readily accept or respond to 
change. It takes entirely too long to complete the NEPA 
document required to move forward on projects. The staff also 
has a real fear of doing things wrong or doing things too fast. 
Caution is fine, but when we're talking about areas of critical 
need that has the necessary road system in place, conservation 
groups and timber industries agree on what needs to happen, 
it's very costly and frustrating.
    The Forest Service budget has also seen great changes in 
recent years. One particular change that's more than troubling, 
and that is the amount spent on fire suppression and 
preparedness. It's out of control. It's moved from consuming 13 
percent of the budget to almost half, and is now squeezing 
every other non-fire program. This is a disaster of epic 
proportions, which I believe is a major conflict of interest 
for the agency. The same people that are responsible for the 
management of our national forestlands are the same people who 
are spending countless hours training for fires in the off-
season, and fighting them in the summer months. This makes 
completing the necessary forest management projects very 
difficult.
    It's clear that our agency is only treating the symptom of 
the problem rather than addressing the root cause. Thinning the 
forest is the best way to prevent massive-scale wildfires. This 
trend needs to be addressed and reversed. Maybe funding for 
fires should be handled another way, possibly a FEMA-like 
approach for funding emergencies. Without any action, we're 
going to continue to spin out of control at the expense of 
other important needs. We are wasting more time and money each 
year, and the problem keeps getting worse. The solution is 
restoring forests to a healthy condition through large-scale 
thinning projects.
    Thinning and forest restoration projects using the new 
stewardship authority is starting to gain a foothold as a 
primary tool of forest management in the national forests of 
the intermountain west. Designed stewardship projects can be 
beneficial both to the forests and the economy. There's a 
spectrum of activities that make up thinning. Thinning can be 
very intensive, with small amounts of commercially valuable 
material, or it could be done efficiently, with high-tech 
machines that create valuable forest products. In Northeast 
Washington, we have a great market for small-diameter logs, for 
both the production of lumber and chips. This is critical to 
the success of thinning.
    It is very important to have a fully functional wood-use 
market. Keeping our infrastructure in place and healthy is 
critical to the restoration treatments needed in our forests. 
Many projects that are currently being proposed are too small 
in size and they don't----
    Senator Wyden. There we go on the votes, folks. So I'm 
going to have wrap you up. But can you just finish up real 
quick, Mr. Vaagen.
    Mr. Vaagen. I can certainly do that. Yes. The projects that 
are being proposed currently are too small in size and too 
short in duration. I guess I can just hold it right there.
    [The prepared statement of Mr. Vaagen follows:]

 Prepared Statement of Russell C. Vaagen, Vice President, Vaagen Bros. 
   Lumber Inc., Northeast Washington Forestry Coalition, Colville, WA

    My family has been in the forest products industry since the 1920s. 
Our company, Vaagen Bros. Lumber, Inc based in Colville, Washington is 
focused on maximum and responsible utilization of our forest resources. 
We have transformed our company from a traditional sawmill to one 
focused on small diameter logs. We produce building products (2x4's to 
2x10's) from logs as small as 4\1/2\'' small end diameter. This puts us 
in a position to utilize small diameter material from forest thinning 
and forest restoration activities. We think there is a critical need to 
treat millions of acres of National Forest land that is currently in 
poor condition. The following testimony is only a snap shot of the 
issues facing our forests and the forest products industry of the 
Intermountain West. I want to touch on collaboration, thinning and 
other opportunities that can result from better management of our 
National Forests.

           COLLABORATION AND THE UNITED STATES FOREST SERVICE

    Something very important is happening in our area and many other 
areas throughout the western states. Environmentalists and members of 
the timber industry have been coming together to discuss how to solve 
our current forest health problems. Things have changed in that the 
conservation groups have come to the table to solve problems rather 
than trying to fight with the timber industry and the industry has 
started to look at the conservation groups as potential allies rather 
than the evil opposition. Much of the timber industry has also moved to 
technology that allows the mills to use smaller logs. Due to these 
changes, conservation and timber management advocates have common 
interests, including healthy forests, quality wildlife habitat, and 
clean water with safe and stable rural communities.
    In our area we have created the Northeast Washington Forestry 
Coalition. It is a non-profit organization made up of members of 
conservation groups, the local sawmill companies, consulting foresters, 
other business leaders and community members. It is open to the public 
and we encourage others to attend our meetings and join the coalition 
if they have an interest in what we are working on. Specifically we 
were formed to work with the Colville National Forest in order to 
influence and help the local Forest Service staff manage the just over 
1 million acre National Forest located in the three northeast counties 
of Washington State. We have been very successful in that we have not 
had an appeal or litigation in four years. We have even been able to 
secure funding to launch new forest restoration projects in the 
Wildland Urban Interface (WUI). Our agreement on projects is documented 
and ongoing.
    The unfortunate thing is that just because we may agree now doesn't 
mean the Forest Service (USFS) is poised to act on it. There are many 
reasons the USFS has not been able to respond in a manner consistent 
with our urgent forest health needs. The budget is one reason, but more 
importantly it is an attitude and a culture that does not readily 
accept or respond to change. We need to change the way we have done 
things in the past. It takes entirely too long to complete the NEPA 
documentation required to move forward on projects. It would be helpful 
if Congress would work to ensure that the agency is using the tools it 
has at its disposal, such as the Healthy Forest Restoration Act.
    The staff also has a real fear of doing things wrong or doing them 
too fast. Caution is fine, but when we are talking about areas of 
critical need that already has the necessary road system in place and 
the conservation groups and the timber industry agree on what needs to 
take place, delays are very costly and frustrating. It is my opinion 
that if we do not start treating these areas very soon on a large 
scale, the fires that we have seen are only going to get larger and 
more dangerous.
    The Forest Service's budget has also seen great changes in recent 
years. One change in particular is more than troubling. The amount that 
is spent on fire suppression and preparedness is out of control. It has 
moved from consuming 13% of their budget to almost half, and is now 
squeezing every other non-fire program. This is a disaster of epic 
proportions which I believe is a major conflict of interest for the 
Agency. The same people that are responsible for the management of our 
National Forest lands are the same people who are spending countless 
hours training for fires in the off-season and then fighting them in 
the summer months. More money and time are being spent on fire 
suppression at the expense of non-fire programs. This makes completing 
the necessary forest management projects very difficult.
    It is clear that the agency is only treating the symptom of the 
problem rather than addressing the root cause. Thinning the forest is 
best way to prevent massive scale wildfires. This trend needs to be 
addressed and reversed. Maybe funding for fire fighting should be 
handled in another way, possibly a FEMA-like approach for funding 
emergencies. It appears like the system is very wasteful with very 
little incentive given to keeping costs under control. Without any 
action this is going to continue to spin out of control at the expense 
of other important needs. We are wasting more time and money each year 
and the problem keeps getting worse. There is a solution. The solution 
is in restoring forests to a healthy condition through large scale 
thinning projects.

                                THINNING

    Thinning and forest restoration projects using the relatively new 
stewardship authority is starting to gain a foothold as the primary 
tool for forest management in the National Forests of the Intermountain 
West. Many private landowners and State forests have been undertaking 
similar projects for years with great success. Well designed 
stewardship projects can be beneficial to both the forest and the 
economy. There is a spectrum of activities that make up thinning. 
Thinning can be very intensive with small amounts of commercially 
valuable material or it can be done efficiently with high tech machines 
and create many valuable forest products. In northeast Washington we 
have a great market for small diameter logs for both the production of 
lumber and chips. This is critical to the success of thinning. It is 
very important to have a fully functional wood use market. There are 
good markets in our area for chips, bark, sawdust, and shavings. Many 
areas of the Intermountain West do not have that luxury. This 
underscores the need to have large projects where the cost of doing the 
intensive work with low material value can be offset by larger volumes 
of higher value material. Keeping infrastructure in place and healthy 
is critical to the restoration treatments needed in our forests.
    Many projects that are currently being proposed are too small in 
size and they don't include enough areas with marketable material. 
Projects need to be large and they need to spread out over years so the 
mills and the contractors doing the work on the ground can count on the 
logs and the work. With millions of acres in need of thinning, projects 
that are small in size and short in duration make very little sense. In 
many cases, it would take the same amount of time and funding for the 
Forest Service to prepare a larger project. Many communities just like 
ours have Community Wildfire Protection Plans in place. Those should be 
used as templates for large scale projects. It only makes sense to tie 
these Community Wildfire Protection Plans and thinning projects 
together. In northeast Washington our three counties, Ferry, Stevens 
and Pend Oreille all have completed plans. The USFS should propose and 
sell a major project in each county. They need to be between 30,000 and 
40,000 acres each and should be 10 year contracts. This would focus the 
effort in the places of the most need in terms of safety and forest 
health as well as provide certainty for the local businesses and 
workforce. By having larger projects it also expands opportunity to add 
value to the material by investing in new uses. We currently use 
biomass to create green energy, but we are only scratching the surface 
of what's possible. There is so much material in the woods that can be 
used to create power, heat, and bio-fuels. Making the material 
available will spark innovation and investment while restoring forests 
and reducing the costs of fighting fires.

                     OPPORTUNITIES AND OBSERVATIONS

    We have an incredible opportunity to take this real problem and 
challenge ourselves to create economic and social benefit for years to 
come. It is already being done in other parts of the World. In Europe, 
some of the most socially conscious nations are managing their forests 
much better than we are. They don't have wildfires and don't use 
prescribed fire nearly as much as our National Forest managers do. They 
use wood residuals to make power in the place of coal. Their milling 
infrastructure is still in place and there no social disconnect between 
responsible resource management and conservation, they are nearly one 
in the same. Doing a better job of managing our forests is a great way 
to reduce the effects of climate change and CO<INF>2</INF> emissions. 
Making a forest healthier improves its ability to take in Carbon 
Dioxide and replace it with Oxygen. When a forest burns it releases 
much of the CO<INF>2</INF> that was stored as well as the massive 
release of heat. By making the forests resilient to fire we are taking 
steps to improve carbon storage and reduce carbon emissions.
    There is a need for new technologies to be introduced to add value 
to the forest residuals. In areas where mills have never or no longer 
exist, financial assistance from the government makes sense. The 
government should assist private industry in the development of new 
technologies or in the use of effective proven technologies. Grant 
money is currently being used to assist some businesses, but there is a 
need to be cautious. Grant money should be used to stimulate 
infrastructure in areas where it is missing and avoid undermining the 
competitiveness of any existing infrastructure. Supporting our current 
wood product facilities is critical to restoring healthy forests.
    Although collaboration is taking place in many areas, not all 
companies are taking part in the collaborative process. Collaboration 
takes time, energy, and a great deal of effort. Some companies wait for 
companies such as ours do the work to get the projects put together, 
and then show up at the bid table. These projects should be a best 
value bid, and firms that invest heavily in the collaborative process 
should earn a competitive edge in the bidding process. We welcome 
companies to join in the efforts, but if a company chooses to focus 
their efforts in other areas, they should not get the same opportunity 
to purchase sales or projects when others worked very hard to bring 
them to market. It undermines the entire process and frustrates all who 
work collaboratively to help restore our nation's forests.

                            CLOSING REMARKS

    Thank you very much for the opportunity to talk to you today. If 
you have any questions today or in the future please do not hesitate to 
contact me. The issue of thinning our Nation's Forests is common sense 
backed by common ground. Leaders in our communities have the 
wherewithal and talent to show the way. Now we need your help in 
getting the Forest Service to follow our lead.
    Thank You.

               Addendum to Statement of Russell C. Vaagen

      A SHORT LETTER AUTHORED BY MIKE BEYE, INFORMATION OFFICER, 
                        VAAGEN BROS. LUMBER INC.

    Twenty-thirty years ago we realized that the seemingly unlimited 
bounty of the forest lands in the U.S. was in fact limited. A movement 
within the conservation community made clear that the forests were 
being over cut and were in danger of being lost. They were right. The 
reaction to that belief was to stop managing our forests completely or 
manage them in a very limited way. The reaction by the forest products 
industry was not in line with this belief and caused a stalemate with 
regard to how forests should be managed. The result has been a forest 
that is now in greater danger of being lost through catastrophic fire 
and disease. The pendulum, as is so often he case in a democracy, has 
started to swing the other way. There is a need to more actively manage 
our forests to ensure their value and survival.
    During this same period of time Duane Vaagen (President, Vaagen 
Bros. Lumber, Inc.) realized that there was a business opportunity in 
the manufacture of lumber products from small diameter timber. This is 
the same type of timber that is choking our forests thus creating the 
fuels that result in fire and the conditions that result in disease. 
The common wisdom in the forest products industry was that Duane would 
not survive, that small timber did not make quality lumber products and 
the economics would cause failure. The common wisdom was wrong. Vaagen 
Bros. Lumber has succeeded. They have embraced technologies, 
efficiencies and a philosophy of total fiber utilization that creates 
value where there was none. The lumber and bio-mass products we 
manufacture are the industry standard for quality.
    We found that when we create value from the forest, the greatest 
recipient of that value is the land owner. We have been returning value 
to the private, institutional, and government land owners from timber 
that was held to contain no value at all. As a direct result of this 
utilization of small timber, we have developed the strategies and 
practices that remove this fiber from the forest through thinning. The 
land owners demand not only a revenue form their timber stands but an 
esthetically pleasing, healthy stand that in itself contains value. We 
are experts at managing this need.The new generation at Vaagen Bros. 
realizes that there is a need to actively and appropriately manage our 
forest with the help of the conservation community. Collaboration on 
the Colville forest was born of this need.
    The first conversations that this group of differing interests 
discovered was that in reality everyone wanted the same things for the 
forests. The differences were not that great and could be worked out. 
All the groups together could achieve real change and return real value 
to the land owners of our national forests. Vaagen Bros. Lumber has 
been a great supporter of this process and its possibilities.
    We are through the transition period from unlimited forest bounty 
to understanding the limitations of this great national resource and 
the real value that the owners of this forest place upon it. We are in 
a position to return to the forest the value that the owners expect. We 
are only looking for an opportunity to set the standard of what has to 
follow, to return our national forests to health, beauty, and 
sustainability. Removal of fuel hazards, creating value in the process 
and retuning it to the landowner is what we have already proven can be 
done.

*Note: Mike Beye did not grow up in the Timber Industry, so his 
insights are from his ten years with our company.

    Senator Wyden. Great. We've got 15 minutes. Let me see if I 
can get most of you in. Mr. Donegan, welcome, and Forest 
Capital Partners, and important contributor. Thank you.

    STATEMENT OF MATT DONEGAN, CO-PRESIDENT, FOREST CAPITAL 
                  PARTNERS, LLC, PORTLAND, OR

    Mr. Donegan. Thank you. My name is Matt Donegan. I am Co-
President of Forest Capital Partners, one of America's largest 
private forestland owners and leading producers of sustainably 
grown forest products. I'm honored to have this opportunity 
today to present a private landowner's perspective on Federal 
forest policy. Today, I hope to convey three basic messages. 
First, management practices on public forests do directly 
affect the health of private forests. Second, the health of 
private forests is under threat from deforestation, 
fragmentation, and conversion to development. Third, thinnings 
aimed at public forest restoration can also play a prominent 
role in restoring private forest health, while also 
fundamentally transforming the debate over America's 
forestlands. I would like to briefly expand upon these 
messages.
    The first, public policies directly affect private forest 
health, is perhaps intuitive. Even for landowners like Forest 
Capital Partners, who do not purchase Federal timber, or have 
any direct financial interest in Federal harvests, there exists 
an interdependence with all of our fellow landowners, private 
and public alike. We share property lines, as all neighbors do, 
and as the risks from fire, insects, and disease grown on 
Federal ownerships, so do the risks to adjacent forest 
landowners, like Forest Capital. A Federal thinning program 
could substantially reduce the risks to private forests.
    Public policies also directly affect the health of our mill 
customers. With further loss of mills in the Inland West, 
private landowners will have no market for our product. Such is 
already the case in several western regions, while other 
regions are barely hanging on to the remaining mills. This 
creates a sense of urgency to initiate thinnings now, before 
the remaining mills are irreversibly lost.
    The second message, private forests are being lost to 
development, is perhaps intuitive, as well. Forest loss is 
directly driven by economics. With mills closing, development 
can become the only option facing the landowners. Since 1991, 
89 mills have permanently closed in Eastern Washington, Eastern 
Oregon, and Idaho, representing 40 percent of regional lumber 
capacity. In the wake of these closures, landowners must now 
truck their products to faraway destinations, increasing 
freight costs and eroding revenues. New mill investment is 
needed to reverse this trend and to improve the viability of 
private working forests.
    Which brings me to my third message. A restoration thinning 
initiative could advance conservation on private forests, as 
well as public forests. The key to saving private forests is to 
provide economic incentives that reward forestland use. By 
revitalizing forest communities, inviting investment, growing 
new markets--including woody biomass energy--encouraging work 
force development, igniting new research and development, and 
otherwise replacing the prevailing pessimism in Western 
communities with renewed optimism, a Federal thinning program 
would encourage private landowners to retain their working 
forests as opposed to selling or developing them. Perhaps most 
importantly, by rising to the challenges we face today, an 
updated forest policy could be the catalyst for a much-needed 
new chapter of America's forests.
    Far removed from the timber wars that pitted commercial 
interests against conservationists, a responsibly administered 
thinning program would protect old growth and spotted owls from 
unnatural fires and insect infestations, and demonstrate 
leadership in tackling some of the greatest environmental 
challenges of our generation, namely, habitat loss, climate 
change, and deforestation of private lands. A thinning program 
rooted in ecosystem restoration, while providing renewable 
energy via woody biomass, could serve to fundamentally redirect 
the forest debate in the Northwest, aligning business, 
community, and conservation interests in a long-overdue 
fashion. Such a vision is certainly worthy of all of our best 
efforts, and it has been my distinct privilege to contribute 
today to a discussion that holds such promise. Thank you.
    [The prepared statement of Mr. Donegan follows:]

   Prepared Statement of Matt Donegan, Co-President, Forest Capital 
                      Partners, LLC, Portland, OR

                              INTRODUCTION

    Forest Capital Partners, LLC (FCP) is a private forestland owner 
and operator with stewardship over 2.1 million acres of American 
forests. Our land is located in Oregon, Washington, Idaho, Louisiana, 
Texas and Minnesota, where our resource professionals apply the latest 
advances in sustainable forest management to generate long-term 
investment returns. Stewardship and resource conservation are deeply-
held company values, as evidenced by our commitment to third-party 
forest certification on all FCP lands.
    Pertinent to this testimony, we own no manufacturing facilities, 
purchase no federal timber, and otherwise derive no direct financial 
benefit from federal timber harvests. We are in fact competitors with 
federal agencies in every region where we operate, frequently selling 
logs within common markets. Viewed narrowly through this competitive 
lens, our short-term interests would be advanced by continued 
restrictions to federal timber supply. We nonetheless view the current 
state of federal forest policy as detrimental to the long-term 
environmental, social and economic sustainability of western forest 
communities and therefore support changes in federal policy, including 
restoration thinnings, which would increase federal timber supply.
    On a national scale, and most dramatically within the western U.S., 
the environmental and social impact of federal forest policy can hardly 
be overstated. As the largest single landowner in most western states, 
the federal government is the driving force behind landscape-level 
ecosystem health, carbon emissions and sequestration, watershed 
enhancement, and a myriad of program funding ranging from local schools 
to environmental research. Based on our personal and company values, we 
are strongly committed to federal forest policies that restore natural 
habitat, sequester atmospheric carbon, improve water quality and 
revitalize local communities. Within the context of this hearing, we 
will defer to the more qualified panelists addressing these 
environmental and social issues, and will thus confine our remarks to 
issues specifically affecting the sustainability of private forests.
    As with all communities, the principle of interdependence is 
central to the forest community. As neighbors sharing property lines, 
landowners mutually depend on one another to manage their respective 
ownerships in a responsible manner, or otherwise subject one another to 
risks from fire, disease and insect outbreak. Further, as fellow 
community members, landowners share the basic operational 
infrastructure in a region. We mutually depend on one another to invest 
in our institutions, research and development, and human capital, or 
otherwise collectively contend with long-term declines within a 
fiercely competitive global marketplace. This testimony will first 
present three pressing trends related to the interdependence between 
federal and private landowners: 1) increased natural hazard risks for 
landowners abutting federal ownerships; 2) basic infrastructure decay 
stemming from current federal policies; and 3) private forest 
conversion to non-forest use resulting from this decay of 
infrastructure. We will then share a vision for revitalizing the 
western forest community, and conclude by conveying a sense of urgency 
to stem the decay of forest communities before they reach a ``tipping 
point'' beyond which revitalization will become extremely difficult.

                   INCREASES IN NATURAL HAZARD RISKS

    Nationwide, FCP neighbors 21 National Forests administered by the 
U.S. Forest Service and six federal ownerships managed by the Bureau of 
Land Management. Our properties abut federal forestlands in every 
region in which we operate and, in many locations, our properties are 
literally embedded within federal lands. The management policies on 
federal lands have very real and direct implications for the health and 
safety of our own forests. We are very concerned about the increased 
fire risk associated with the excessive build-up of fuels in western 
federal forests. While fire is a normal part of forest ecosystems, a 
century of fire suppression combined with a lack of thinning operations 
and drought conditions, have resulted in an increasing number of large, 
severe fires and insect infestations in recent years. Global climate 
change will exacerbate this situation. The substantial curtailment of 
timber production on federal lands over the past fifteen years has also 
resulted in a less well maintained network of logging roads that are 
needed for fire control; and, a reduced pool of forest workers 
available to fight fires. This increased fire hazard is reflected in 
the rising cost of fire protection and suppression that is the shared 
responsibility of private and federal landowners.
    The consequences of a catastrophic fire originating on federal 
forests are chillingly illustrated by the Timbered Rock fire in 
southwestern Oregon that occurred in 2002. This fire began as a series 
of lightning strikes on U.S. Forest Service land. By the time it was 
extinguished three weeks later, the fire had burned 13,000 acres of 
Bureau of Land Management-U.S. Forest Service land and 9,100 acres of 
adjacent private land now owned by FCP. The value of timber lost to the 
fire on what are now our lands was in excess of $10 million (adjusted 
for revenue generated through sale of salvaged material), and the costs 
of restoration and replanting were over $3 million. In addition to lost 
private timber values, the fire caused significant damage to threatened 
and endangered species habitat. Within the fire perimeter, 23 Northern 
Spotted Owl sites were affected, and three miles of riparian zones 
providing protection for Coho Salmon core areas were burned.
    To protect ourselves from the possibilities of future disasters 
like the Timbered Rock fire, private landowners will have to shoulder 
the costs of more intensive fire suppression and protection. These 
higher fire related costs will divert funds that could otherwise be 
directed to research and development, and gaining operational 
efficiencies that would allow landowners to better compete in global 
markets. Of note, large diversified landowners like FCP face far less 
exposure to single-event natural hazards than smaller landowners whose 
woodlots often comprise a comparatively high portion of total family 
savings.

              DECLINES IN FOREST COMMUNITY INFRASTRUCTURE
 
   Another area of concern driven by federal forest policy is the 
continued viability of the forest products sector in the inland west. 
Changes in federal forest policy have resulted in substantially lower 
timber production, which has triggered mill closures and lost 
production. The inland west is the only major producing region in the 
U.S. that has experienced net disinvestment in softwood lumber 
capacity. Softwood lumber capacity in the inland west dropped from 12.0 
BBF in 1990 to 8.0 BBF in 2000, and then to 7.3 BBF in 2007. Between 
1991 and 2007, 89 wood product mills permanently closed their doors in 
Idaho, eastern Oregon and eastern Washington, with an associated loss 
of over 7,600 jobs. The loss of mill capacity and employment in the 
inland west continues today as lumber and plywood manufacturers contend 
with the current collapse in residential construction activity.
    The concentration of mills in some areas of the inland west has 
fallen to the point that the supporting infrastructure necessary for 
conducting business is in jeopardy (indeed, many locations have already 
passed this point). Fewer mills equate to longer hauling distances and 
greater freight costs. For private and public landowners alike, added 
freight costs erode revenues and limit the suite of economically viable 
silviculture options at a forester's disposal. Responding to shrinking 
markets, the level of rail service has been cut back, forcing 
businesses to depend more heavily on expensive trucking; the labor pool 
shrinks as workers succumb to prevailing pessimism and migrate to urban 
areas; and local suppliers also pull up stakes.
    Besides the dire social consequences imposed upon the region's 
communities by the decay of forest industry infrastructure, the 
potential environmental consequences to the vast expanse of public 
lands are equally alarming. In the future, should federal managers seek 
to thin overstocked forests for ecosystem health or to promote carbon 
sequestration, a viable market will be essential to pay for such 
prescriptions. Likewise, a skilled workforce will be needed to conduct 
such treatments, and the absence of an existing forest industry cluster 
would make it more difficult to motivate the investment needed to 
develop wood based energy or bio-fuel production in the region. From 
this perspective, maintaining the remaining industrial infrastructure 
will be critical to the long-term ecosystem health of federal forests 
and underscores the interdependence that exists between private and 
public landowners. Maintaining the remaining industrial infrastructure 
will also be critical to the long-term ecosystem health of private 
forests, as presented in the following section.

       INFRASTRUCTURE DECAY INVITES DEFORESTATION, FRAGMENTATION

    Across the West, the loss of private forests and farmlands to 
development has emerged as a public policy priority. Recent State 
ballot initiatives--Measures 37 and 49 in Oregon, Initiative 933 in 
Washington, and Proposition 2 in Idaho, to name a few--illustrate 
public anxiety about the rate and extent of forest loss. The 
accelerated rate of development, deforestation and fragmentation is 
symptomatic of economic trends that reward real estate land use over 
the continued retention of working forests. At present, policymakers in 
most, if not all, western states are pursuing ambitious agendas to 
protect private working forests. We believe a federal thinning program 
could play a vital role in support of these objectives.
    Faced with shrinking forest products markets in the inland west, 
private landowners find it increasingly difficult to justify the long-
term investments required to sustain working forests. Without improved 
market prospects for timber markets in the inland west, a growing share 
of these private forestlands will continue to be converted to 
residential and recreational uses. Central Oregon provides a number of 
examples of how these shifts in land-use are already occurring. In 
Jefferson County over 60% of the industrial forestland has changed 
hands since 1990. Lands previously managed for sustainable timber 
production are now closed to public access, and subdivided into 
residential lots and built into destination resorts. Such incidents are 
growing in frequency across the inland west.
    This movement away from the management of large contiguous blocks 
of forestland for long-term sustained timber production towards greater 
development will lead to a more fragmented landscape, a greatly 
increased urban/wild-land interface and a loss of wildlife habitat. As 
more development projects are located in close proximity to federal 
lands with a high fire risk, the potential liability of public agencies 
grows. Adding more homes and resorts in the forest landscape increases 
the value of assets at risk from catastrophic forest fire, expanding 
costs and complications for the already strained public agencies 
mandated to control these fires.
    The key to protecting private forests and slowing conversion is to 
increase the relative profitability of working forests compared to 
alternative land uses. A large-scale federal thinning program could 
reverse the decay of western forest communities; ensure a critical mass 
of supply to invite investment, modernize and diversify forest markets 
including wood based energy; reinvigorate skilled workforce and 
infrastructure development; and, in sum, increase economic incentives 
to maintain private working forests. A federal thinning regime would 
thereby leverage the interdependence of western forest communities for 
the mutual benefit of private as well as public forests.

        OPPORTUNITIES TO REVITALIZE THE WESTERN FOREST COMMUNITY

    Given the enormity of its western land base, the federal government 
is without question the most important forest community member in the 
western U.S., and its natural leader. Federal agencies have a unique 
leadership opportunity with regard to wood-based energy development and 
capturing the potential far-reaching benefits both regionally and 
globally of this emerging industry. A large-scale federal thinning 
program could catalyze the development of woody biomass and bio-fuel 
energy in the western U.S., offering numerous advantages:

  <bullet> Creating new sources of renewable energy
  <bullet> Increasing the capacity of federal forests to sequester 
        atmospheric carbon
  <bullet> Restoring natural habitat
  <bullet> Recruiting new investment and revitalizing western 
        communities
  <bullet> Diversifying and modernizing timber markets for both public 
        and private landowners

    An encouraging step in this direction has been the development of 
the Lakeview Biomass Project, a 15 megawatt biomass energy facility 
being built by Marubeni Sustainable Energy in conjunction with The 
Collins Companies' Fremont Sawmill in Lakeview, Oregon. An agreement to 
secure a stable long-term supply of woody biomass fuel from federal 
lands was an essential element for moving the project forward. The 
Collins Companies will also be building a new small-log sawmill to take 
advantage of the increased harvest of small diameter logs from federal 
ownerships. The Lakeview Biomass Project is being hailed for its 
innovation and collaboration, and new woody biomass energy plants are 
now under development in several other sites in Oregon, including Cave 
Junction, Lyons, Tillamook and Warm Springs.
    A prerequisite for the continued development of these new wood-
based industries in the West will be a commitment from federal forests 
to generate an adequate and stable supply of wood fiber to fuel these 
energy-related projects. Recognizing the environmental and social 
opportunities associated with the development of forest-based energy 
projects, Forest Service Chief, Gail Kimbell, has proposed a national 
effort to reach two forest-related goals:

  <bullet> Sustaining and strengthening the role of America's forests 
        as a net carbon sink, and
  <bullet> Increasing the amount of America's energy that comes from 
        forests

    We feel that landowner interests are closely aligned with these 
goals set by Chief Kimball. We welcome the opportunity to support these 
efforts, but recognize the difficult environment in which the Forest 
Service operates, particularly in the western U.S., dealing with the 
ceaseless threat of litigation or appeals, which hobbles their ability 
to confidently make and implement decisions and at times, to most 
effectively work with their neighbors.
    Assuring a dependable supply of woody biomass from federal forests 
will be made more difficult in the wake of the recent ruling by the 9th 
U.S. Circuit Court of Appeals nullifying a central provision of the 
Healthy Forest Initiative that exempts from environmental review any 
logging project involving up to 1,000 acres and any prescribed burns up 
to 4,500 acres. Building a secure supply chain for an emerging bio-
energy industry dependent on woody biomass sourced from federal forests 
may require affording the agencies responsible for managing the forests 
some form of statutory protection from legal challenges and appeals.
    Chief Kimbell has highlighted the valuable role that federal 
forests can play in both boosting atmospheric carbon sequestration 
through increased forest productivity and reducing carbon emissions 
through improved fire management. With a more widespread recognition of 
the importance of federal forests in balancing atmospheric carbon, 
additional funding support for federal thinning programs may be 
available from emerging carbon offset markets. At present, the Western 
Climate Initiative is considering the viability of federal thinning 
programs as legitimate carbon offsets and we view the prospects of 
carbon-related funding of restoration thinnings on federal land very 
positively.
    Such efforts are worthy of due consideration, as the potential 
linkage of wood based energy and federal thinnings offers perhaps the 
greatest hope to western forest communities in a generation.

  CONCLUSION--THINNING OF FEDERAL FORESTS WOULD BRING LANDSCAPE-LEVEL 
               BENEFITS TO BOTH PUBLIC AND PRIVATE LANDS

    Private and public ownerships do not exist in a vacuum, but rather 
cohabitate within interconnected forest communities. Within the western 
forest community, the recent performance of the federal government, a 
natural leader, has not yet risen to the challenges that we now face. 
This is not to criticize the shift in public priorities on America's 
public lands--deemphasizing commodity production in favor of broader 
ecosystem and community objectives. Nor is this an admonishment of 
federal managers who face the Herculean task of reconciling the 
diverse, competing interests of numerous constituencies and constantly 
defending their actions in both the public and judicial arenas. Rather, 
it is a recognition that structural obstacles undermine our 
government's capacity to act as a steward of both public and private 
forestlands.
    Current federal policies create undue risks to private ownerships 
from fire, insects and disease. Further, nearly two decades of 
community decay has imperiled the critical forest infrastructure needed 
to equip stewards of public and private forests alike. A large-scale 
thinning program, afforded adequate statutory protection, may reverse 
these trends by restoring federal forest health and modernizing western 
forest communities. The alternative to pursuing the goal of healthier 
forests and a renewed western forest economy is to accept the ongoing 
degradation of the federal forests accompanied by the continuing 
erosion of forest-related businesses, infrastructure and human capital 
in the rural forest-dependent communities. Given the consequences to 
global climate change, natural habitat and watershed health, and 
private forest sustainability, the importance of the Senate's oversight 
hearing on federal forests, and the need for meaningful change in the 
near-term, could hardly be greater.

    Senator Wyden. Thank you very much. Avoiding those past 
timber wars, that is music to everybody. I saw nods all around. 
Let's see if we can get Mr. Hoeflech in, and I may have to come 
back and just start with Boyd, but we'll kind of go from here. 
Let's see what we can do now.

   STATEMENT OF RUSSELL HOEFLICH, VICE PRESIDENT AND OREGON 
         DIRECTOR, THE NATURE CONSERVANCY, PORTLAND, OR

    Mr. Hoeflich. Senator, I'll get right to the point. Thank 
you, and I ask that my testimony be placed into the record of 
the hearing.
    Senator Wyden. Without objection.
    Mr. Hoeflich. Due to decades of fire suppression in Oregon 
and Washington, and elsewhere in the West, our nation's forests 
are in a crisis. You've heard that today. Roughly, 128 million 
acres of public forests nationwide, including over 13 million 
acres in Oregon, are at risk of unnaturally severe fire unless 
we take immediate action. Stands that historically have had 10 
to 100 trees per acre now have as many as 1,000 to 1,500 trees 
per acre. The current condition of our national forests is not 
only impacting fish, wildlife, and water quality, it is 
compounding the challenges we face from climate change.
    Beyond the ecological impacts, this is a budgetary issue. 
Today, nearly $1.5 billion is spent every year to fight 
wildfires. Firefighting costs do consume close to 50 percent of 
the U.S. Forest Service budget today, making it more difficult 
each year to proactively manage our forests and to address the 
problems people have been describing throughout the beginning 
of this hearing. To restore our forests back to health, 
scientists at the Nature Conservancy estimate that in Oregon 
and Washington alone over the next 25 years, we need to treat 
by thinning and reintroduction to fire at least 550,000 acres 
per year in each State. This is on an annual basis. This is 
well over three times the current rate of treatments.
    There are a number of barriers to increasing forest 
management treatments to the necessary scale. First is the 
longstanding disagreement over the management of our public 
forests. We have eroded trust, and it has led to extensive 
legal battles over the past three decades. Second, the 
controversy surrounding forest management compel Federal 
agencies to plan only small-scale restoration projects, rather 
than the larger ones that are truly needed, as Norm Johnson and 
Jerry Franklin make reference to.
    One point that I want to make reference to, the Ninth 
Circuit Court of Appeals record of decision to enjoin U.S. 
Forest Service for engaging in practices for exercising 
categorical exclusions to facilitate the removal of potential 
fuel loads, that is an issue that is basically one that we feel 
we need to put behind us. That is primarily an issue of small-
scale habitat manipulation. We have to get to landscape scale 
and the effective treatments. We cannot be fighting over 1,000-
acre treatments. We have to pull communities together and focus 
on a scale of dialog of a quarter-million acres to a half-
million acres, and in some cases, even larger than that. Let's 
not waste our energy on categorical exclusion sites of 1,000 
acres here and there. We need to be ramping up community 
conversations at a scale that is meaningful to our society.
    Finally, the lack of sufficient funding for forest 
treatment blocks progress on all fronts. Despite these 
challenges, there is truly a growing consensus among 
stakeholders about fire-prone forests that need active 
management to restore the health and resiliency. So we have 
both an enormous challenge, and we truly have an enormous 
opportunity. The Nature Conservancy would like to give you the 
following recommendations.
    One, put the ecological needs of the forest first. While 
it's true that the forest restorations will provide jobs and 
businesses, and opportunities to the communities, the only way 
stakeholders will achieve consensus on forest treatments will 
be through rigorous scientific restoration design. Two, we have 
to plan and begin implementing large-scale restoration efforts. 
Unless we begin the treatments at the watershed or larger 
landscape scale, we're simply going to fall further and further 
and further behind. Third, we need to bring the full diversity 
of stakeholders into the conversation. The diverging interests 
and values of the stakeholders is really key to the success. As 
they work together to define a common vision for the future for 
our forests, consensus tends to replace conflict and 
litigation. We must facilitate these conversations.
    Four, create incentives to spur private investments and new 
technology and infrastructure. The byproducts of forestry offer 
a tremendous resource for commercial products and renewable 
energy. A forest restoration economy will tap the ingenuity of 
the business sector, so long as the right incentives are in 
place. Working together, I believe we can bring the nation's 
forests back to health for the benefit of present and future 
generations. I'm here today to underscore the commitment of the 
Nature Conservancy to realize this vision.
    [The prepared statement of Mr. Hoeflich follows:]

   Prepared Statement of Russell Hoeflich, Vice President and Oregon 
             Director, The Nature Conservancy, Portland OR

    My name is Russell Hoeflich, and I am Vice President and Oregon 
Director of The Nature Conservancy. The Nature Conservancy is an 
international, nonprofit organization dedicated to the conservation of 
biological diversity. Our mission is to preserve the plants, animals 
and natural communities that represent the diversity of life on Earth 
by protecting the lands and waters they need to survive. Our on-the-
ground conservation work is carried out in all 50 states and in more 
than 30 foreign countries and is supported by approximately one million 
individual members. The Nature Conservancy has protected more than 117 
million acres of land and 5,000 miles of river around the world.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by establishing and maintaining protected areas 
alone. Therefore, we increasingly form partnerships with individuals, 
businesses, and governments to seek compatible human uses over large 
landscapes that benefit both biological diversity and sustain human 
well-being in a changing world.
    I'm honored to testify before the committee about the health of 
federal forest lands in Washington and Oregon. My testimony focuses on 
a specific aspect of public forest management--namely, the challenges 
coming from changes in forest structure, fuel loads, and fire regimes.
    The Landscape Fire and Resource Management Planning Tools Rapid 
Assessment (LANDFIRE) tells us that 80% of the lower 48 states have 
vegetation that is moderately to highly departed from reference 
conditions. In forests, this means they are overly-dense, have lost old 
growth structure, lack diversity of age classes, and are in danger of 
losing key ecological components to wildfire, insects, or lack of 
successional processes.
    Northwest forest management stands at a crossroads. After decades 
of controversy over management of forests in the Pacific Northwest, a 
consensus is emerging that offers an unprecedented opportunity to meet 
the challenge with strategies that restore habitats while improving 
local economic conditions at the same time. We believe it is time to 
move beyond this controversy by building a restoration economy around 
Oregon and Washington forests. Conservation-based treatments, and the 
reintroduction of fire where it is needed, will build an economy that 
will not only create jobs, but will also benefit fish, wildlife, and 
water quality and could be part of the solution to mitigating the 
impacts of climate change.

           CONDITION OF DRY-SITE PACIFIC NORTHWESTERN FORESTS

    While we believe this new restoration economy can be applied across 
the State today, I am going to focus on the challenges and 
opportunities in the dry public land forest in eastern Washington, 
Oregon, and portions of southwestern Oregon. Here, past management 
practices, including timber harvest, livestock grazing, and fire 
suppression have helped to create unnaturally dense forests, spurred 
the removal of large dead and live old structures, changed the 
composition of forest species, and caused a decrease in landscape 
resiliency. Dry, fire-prone forest stands which historically had 50 to 
100 large trees per acre now have as many as 500 or 1,000 small trees 
per acre. Fire-sensitive species such as Douglas-, grand and white fir 
have encroached into ponderosa pine and mixed conifer forests, changing 
species composition. Similarly, high-elevation stands of whitebark pine 
are being replaced by subalpine fir and spruce due to fire exclusion.
    Subsequent high tree mortality and fuels build-ups have altered how 
wildfire, insects, disease and invasive species interact with forests, 
ultimately modifying forest resiliency. These overly-dense forest 
stands are more susceptible to damage from insects. Crowded trees lack 
the water and vigor to fend off insects such as bark beetles. During 
drought conditions in the late 1990s and from 2002 through 2005, 
Eastern Oregon insect activity was at epidemic levels. In 2004, the 
unusual abundance of mountain pine beetle affected over 415,000 acres 
in Eastern Washington, resulting in mortality to over four million pine 
trees, about 20 times the average mortality rate for the previous 20 
years. Aerial detection surveys show an almost eight-fold epidemic 
increase in tree death along the eastern slopes of the Cascade 
Mountains during 2004.\1\
---------------------------------------------------------------------------
    \1\ Elaine O'Neil, Bruce Lippke, Larry Mason. July 2007, Eatside 
Climate Change, Forest Health, Fire and Carbon Accounting Initial 
Report: The Future of Washington's Forests and Forestry Industries. 
College of Forest Resources, University of Washington.
---------------------------------------------------------------------------
    When fires ignite in these overly-dense stands, they are much more 
likely to develop into uncharacteristic stand-replacing crown fires. 
Historically, fires in these stands maintained healthy forests by 
thinning the forest from below and removing fuels that accumulated on 
the forest floor. The current forest conditions constitute an extremely 
large problem that continues to get worse with time.
    Besides promoting uncharacteristically severe fires, the changes to 
forest structure and composition outlined above also affect wildlife 
species composition and distribution by altering hiding and thermal 
cover and impeding movement. The Oregon Conservation Strategy and 
Washington's Comprehensive Wildlife Conservation Strategy identify 
altered fire regimes as one of the six (Oregon) and nine (Washington) 
key statewide issues that present the greatest threats to fish and 
wildlife populations and their habitat. Too much, too little, or the 
wrong kind of fire in these fire-prone forests was identified as a 
limiting factor or threat to a number of species, including golden 
eagles and the northern spotted owl. The Washington strategy described 
suppression of natural fires as one of the most severe long-term 
problems for wildlife and habitat in Eastern Washington forests on 
public and private lands.\2\
---------------------------------------------------------------------------
    \2\ Washington Department of Fish and Wildlife. 2006. Washington's 
Comprehensive Wildlife Conservation Strategy. Washington Department of 
Fish and Wildlife, Olympia, Washington. Oregon Department of Fish and 
Wildlife. 2006. Oregon Conservation Strategy. Oregon Department of Fish 
and Wildlife, Salem, Oregon.
---------------------------------------------------------------------------
    To assess the scope of this problem in Oregon, we analyzed the 
LANDFIRE 2006 Rapid Assessment data to map the forest and woodlands 
with low and mixed severity fire regimes (Fire Regime Condition Class I 
and III).\3\ Of Oregon's 34.1 million acres of forests and woodlands, 
21.1 million acres are moderately or highly modified from historic 
conditions due to fire suppression, grazing, logging, and other land 
uses. Thirteen million four hundred thousand acres are on Bureau of 
Land Management and U.S. Forest Service lands. While we did not conduct 
a similar analysis for Washington, we anticipate a similar result for 
that State. Using National LANDFIRE data for both Oregon and 
Washington, we are updating this analysis; upon completion, we will 
submit our findings as supplemental testimony.
---------------------------------------------------------------------------
    \3\ Catherine Macdonald, Steven Buttrick, and Michael Schindel. 
March 2006. The Condition of Oregon's Forests and Woodlands: 
Implications for the Effective Conservation of Biodiversity. The Nature 
Conservancy in Oregon white paper. For copies, please go to http://
conserveonline.org/docs/2006/03/
Forest%20Restoration%20White%20Paper.pdf
---------------------------------------------------------------------------
                   CURRENT TREATMENTS ARE NOT ENOUGH

    Federal forest management officials are aware of this crisis and 
are trying to respond. Forest restoration projects are underway 
throughout the West, and the people doing this work should be proud. 
But the problem is growing at a rate faster than federal agencies can 
respond. Instead of getting ahead of the problem, we're falling further 
behind.
    In 2007, the Forest Service, Fish and Wildlife Service, and Bureau 
of Land Management treated about 188,000 acres in Oregon and 44,000 in 
Washington. Based on our analysis, over the next 25 years we will need 
to treat at least 550,000 acres annually in Oregon--more than three 
times previous levels of treatments.
    Today, nearly 46 percent of the Forest Service's budget is spent on 
fire suppression, compared to 13 percent in 1991. Funding needed to put 
fires out takes away from funding needed for other programs, including 
restoration, recreation, wildlife management, and facilities. It is 
essential to find a way to put more resources into forest restoration 
and agency budgets now so we can save money on fire suppression in the 
years to come.
    No matter what values or interests we defend personally or in our 
affiliations, the crisis facing federal forests described above demands 
immediate attention. I am convinced we all share a strong enough 
desire--and even a passion--to pass on a legacy of healthy forests to 
future generations. But we must act now to save forests from continued 
deterioration and loss from unnaturally severe and frequent fire.

             IDENTIFYING THE OBSTACLES PREVENTING PROGRESS

    There are a number of barriers to increasing forest management 
treatments to address this problem.

          1. Longstanding disagreements over the management of our 
        public forest lands have eroded trust and led to extensive 
        legal battles over the past three decades. Trust between the 
        various stakeholders is an essential element in any effort to 
        restore health to our federal forests.
          2. Controversies surrounding forest management compel federal 
        agencies to plan restoration projects at very small scales. To 
        meet their action goals, federal agencies have to consider what 
        is doable in addition to considering what is most important. As 
        a result, they often propose relatively small and narrowly-
        focused management actions. On the other hand, ecosystems and 
        the species they support interact in complex ways and at 
        relatively large scales on the landscape. The magnitude of the 
        forest health problem demands working at vastly larger scales 
        if we are to get ahead of the problem.
          3. Successful restoration efforts link protection and 
        restoration. Sound forest management practices, such as the 
        restoration program underway in the Colville National Forest in 
        Washington and the Lakeview Stewardship Unit in Oregon define 
        both the forests in need of restoration and those portions of 
        the forest that require protection. Efforts that solve only a 
        part of the problem make collaboration among stakeholders more 
        difficult, time-consuming and costly.
          4. Lack of sufficient funding for forest restoration 
        treatments is a huge barrier to success. The 2007 fuels 
        treatment budget for Region 6 was approximately $25.3 million; 
        when applied to the more than 13 million acres in Oregon alone 
        in need of treatment, the budget falls well short of meeting 
        the needs of the entire region. Inadequate funding for 
        treatments and the growing number of people living within 30 
        miles of federal forest land affects what and how treatments 
        are proposed. We need to revisit how and where money is 
        currently spent in the agencies, increase agency budgets, and 
        find outside sources of funding, while ensuring that the wood 
        products industry has sufficient incentives to invest in new 
        equipment and infrastructure.

                         POLICY RECOMMENDATIONS

    Despite the problems outlined above, there is growing consensus 
among stakeholders that our fire-prone forests need active management 
to restore stand structure and composition and improve resilience to 
natural disturbance and climate change. We appreciate your efforts to 
seek solutions that would expand protections for older trees while 
simultaneously promoting a new forest restoration economy across the 
West. This approach holds promise for increasing the certainty of 
supply while achieving desired future ecological conditions. In our 
opinion, the ideal solution for Oregon and Washington would balance 
increased legislative protections for mature and old-growth stands with 
efficient planning and management flexibility to address the diversity 
of conditions in our forests, the effects of climate change, and an 
improving knowledge base.
    In Oregon, Governor Ted Kulongoski has created the Federal 
Forestland Advisory Committee to draft goals that highlight the 
following roles for federal forest lands: protecting and restoring 
ecosystems, providing predictable, sustainable supply of the full suite 
of goods and services, and contributing to the creation of jobs and 
economic well-being for local communities. One of the pressing problems 
identified by the committee is the alteration of natural processes in 
our native forests. To address this problem, legislation should 
consider 20-30 year timeframes, and focus on the following:
Put the ecological needs of the forest first
    While we believe forest restoration should be a source of jobs and 
opportunity, scientifically credible ecological restoration goals must 
provide the foundation on which these jobs are created. We must be 
honest with ourselves; there's a residue of mistrust among stakeholders 
based on the fact that ecological health hasn't always been the prime 
objective of federal forest policy or management. We need to rebuild 
that trust, and scientific credibility is the way to do it. That means 
all the pieces of this complex puzzle--including the technologies of 
biomass utilization, mill retooling, harvest equipment design and 
minimum-impact road building--must to be guided by what the science 
says these forests need to be healthy.
    As our goal is to return these forests to a healthy state, we must 
agree to a number of science-based ``environmental sideboards'' to 
guide our work. First, we target all timber management on restoration 
of late-successional and old-growth characteristics at the tree level 
and the landscape level. Except under extraordinary circumstances, we 
should eliminate post-fire or insect salvage logging, except in areas 
previously designated for thinning. As a general policy, dry-site trees 
in excess of 125 years should be protected and encouraged to mature 
into stands reflecting traditional forest characteristics.\4\ It also 
means restoring fire as an integral part of forest management. Thinning 
may reduce stocking density, but by itself doesn't restore ecosystem 
function; restoring fire in dry forest types is typically necessary to 
restore forest function.
---------------------------------------------------------------------------
    \4\ Our recommendation sits well with public opinion; according to 
research conducted in 2002 by Davis, Hibbits, & McCaig, over seventy 
percent of Oregonians and Washingtonians believe that trees over 100 
years are ``old growth.'' Polling was done on behalf of The Northwest 
Old Growth Campaign, World Wildlife Fund, and the Wilderness Society.
---------------------------------------------------------------------------
    This approach is essential to ensure that restoration projects are 
not undermined or delayed by being linked to controversial mature and 
old-growth timber sales. In conversations with conservationists across 
the West, we are beginning to find common ground for scientifically-
driven forest restoration efforts. But, without considerations for some 
protections, many projects will become mired in contention and 
litigation, and our forests will continue to suffer.
Plan for restoration at a significantly larger scale
    Currently, conflicting direction from senior federal officials and 
the threat of litigation makes it risky for land managers to spend 
limited planning budgets on large-scale restoration. If a large-scale 
plan is litigated, our federal partners are less likely to meet their 
performance targets than if they focus on a few small projects.
    As a result, most of the restoration planning is being done at a 
scale of a few hundred to a few thousand acres at a time. These 
treatments aren't achieving restoration at scale, and they aren't large 
enough to support biomass utilization businesses. Unless we begin 
planning at the watershed, landscape or larger scale, the problems 
facing the dry forests of the Pacific Northwest forests will not be 
solved.
    Not only is planning across larger scales better for addressing 
biodiversity issues, it's also critical to ensuring a predictable 
supply of local materials to stimulate business investments. So, it's 
critical that we find ways to allow the agencies to take the risk to 
invest in large-scale planning. To achieve large scale restoration, 
federal agencies must be given the direction and resources necessary to 
carry out their objectives. As a start, this could mean increasing 
agency budgets, updating forest plans, modifying performance targets, 
and creating incentives for identifying large landscapes as restoration 
priorities.
Bring the full diversity of stakeholders into the conversation and give 
        them a seat at the table
    In communities throughout the West, stakeholders are coming 
together and creating consensus around forest management. Examples of 
effective collaboration include the Front Range Roundtable in Colorado, 
the Ashland Forest Resiliency Project and Lakeview Stewardship 
Collaboration in Oregon, and the Tapash Sustainable Forests 
Collaborative in Washington.
    The divergent interests and values of stakeholders are not barriers 
to progress. Actually, this diversity is key to success. In our view, 
the best way to avoid litigation and conflict over forest management is 
through collaboration. Successful collaboration begins by asking 
stakeholders to develop a shared vision of the desired future 
conditions for the forest in question. With grounding in good science 
about past and present ecological conditions, these groups can, and 
are, creating consensus around the best steps to restoring healthy 
forests.
    We aren't naive. While early engagement with diverse stakeholders 
can't eliminate the risk of a lawsuit, we have seen it reduce the odds. 
And while the process takes time, it builds trust. And that's what's 
needed to take active forest restoration to larger scales.
Incentivize private investment
    Finally, we need to examine policies and programs to make sure the 
appropriate incentives are in place to spur private investments in new 
equipment and infrastructure.
    For this conservation approach to work, local industries must be 
able to utilize woody biomass to produce merchantable products and 
services. But while market forces have begun to signal a transition 
away from reliance upon large diameter trees for commercial timber 
production, investment in new technology logging and small diameter 
milling equipment is costly. Electricity produced from woody biomass is 
approximately double the price of electricity produced with coal, so to 
operate within an acceptable cost range biomass generation facilities 
must locate close to woody biomass supply; most experts recommend 
sourcing biomass no more than 50 miles from the facility. To make the 
forest restoration economy work, policymakers should consider offering 
incentives to help bring woody biomass to the mills for conversion into 
commercial products and clean energy, incentives designed to facilitate 
ecological restoration on federal public forestlands while creating a 
restoration economy.\5\ Additionally, Congress should address federal 
contracting barriers that hinder private investment, for example the 
contingent liability coupled to service contracts.
---------------------------------------------------------------------------
    \5\ The Oregon Forest Resource Institute (OFRI) offers a set of 
policy recommendations designed to promote biomass energy development 
and forest restoration. See Chapter 6 of their report, Biomass Energy 
and Biofuels from Oregon's Forests. June 30, 2006. 
www.oregonforests.org
---------------------------------------------------------------------------
    I don't want to oversimplify. There are plenty of complex 
scientific, technical, economic and political challenges that lie 
ahead. To realize the goals I've outlined in my testimony will require 
a commitment from all of us to agree to set aside our differences and 
work together to realize the vision we share--a legacy of healthy 
forests, understood and managed at the landscape scale, and well-
stewarded by thriving local communities.
    At The Nature Conservancy, we're passionate about joining with you 
to meet the challenge of a generation. We look forward to working with 
you.

    Senator Wyden. Thank you very much. Let's do this. We've 
only got a couple of minutes before the vote expires. What I'd 
like to do is break now for the votes. There are going to be, I 
think, four. Then we'll come back. We'll begin with you, Boyd, 
when we come back. So I think that's kind of fitting that we 
hear from Grant County to wrap this up, and people see what 
this really means on the ground. Then we'll go to questions. Is 
that acceptable to everybody? Do people have planes to catch 
and the like? OK. We're going to break for the four votes, and 
then I'm going to be back. Thanks.
    [Recess.]
    Senator Wyden. The subcommittee will come back to order, 
and let me apologize to all our witness. This is life at the 
end of the session, and I feel badly, and didn't want you to 
feel that you we're going to stay for cornflakes or breakfast 
or something by the time we got started again.
    So Boyd, great of you to journey from Grant County. As you 
know, one of things I like most about this job is coming over 
for community meetings and getting into that community hall and 
just kind of listening. So you've taken some time here now and 
you've come a long way. Tell me, having listened to all this 
testimony, and all the experts and, like, tell me what it 
really means to folks in the community and on the ground in a 
place where the Federal Government owns most of the land. So 
welcome.

 STATEMENT OF BOYD BRITTON, COUNTY COMMISSIONER, GRANT COUNTY, 
                               OR

    Mr. Britton. OK, sir, you'll have to excuse me. I like to 
stand up when I'm speaking, and everybody at your staff has 
told me I can't do that. I've got to compliment you right off 
the get-go on your staff. Scott and Michelle and Rachel have 
been excellent to work with.
    Senator Wyden. Thank you. They are.
    Mr. Britton. Thank you. Senator, thank you for inviting me, 
and I would like to put this as part of the record.
    Senator Wyden. Without objection, it will be done.
    Mr. Britton. Thank you, sir. I am the guy in Eastern Oregon 
that has the rose-colored glasses. I see hope and I want to 
thank you, Senator Wyden, for having the courage to hold these 
hearings and bring us all in here. We've heard from the rest of 
the testimony, everybody agrees. We've got to do something, and 
we've got to do it quickly. What's happening in our community, 
if I could, we're decreasing in population by 2 percent a year. 
Our schools went down the last 5 years, decreased 15 percent. 
We're getting poorer and poorer, but I must tell you about our 
community.
    When 9/11 happened, the tragedy, we raised enough money 
that it averaged $6 for every man, woman and child there. Even 
in Katrina, $5 in average for every man, woman, and child in 
Grant County. So we are poor, but we are a very, very giving 
community. It tears us up to see our infrastructure going away. 
I disagree with some folks. I do not think that the Forest 
Service is the enemy. I humbly, respectfully disagree with 
Secretary Rey. Not enough is being done. It is burning up and 
dying before our eyes. Michelle came out and got to see part of 
it. The environmental community has come out and hasgot to see 
it. Everybody agrees. It's the radical element.
    I won't call them environmentalists, sir, because I'll call 
them deconstructionists. Because if I could describe a real, 
true environmentalist--Turner York. He's a lifelong logger in 
Grant County. His family was there, and his parents were there, 
and he was there. Sir, if you can say that, he's a big man, and 
a strong man. If you can see him looking up at Summit Fire, 
where that happened, and see that fire afterwards, and you see 
tears in his eyes--Nobody is going to tell me that man doesn't 
love the environment as much as anybody.
    Walt Guinness, four generations of family there in Grant 
County and he's telling us stories that--Up in a fire where 
Indian Creek runs now. Never in his whole family's history has 
it run anything but clear. After that fire, Senator Wyden, I'm 
sorry, it doesn't run clear anymore. We talk about the 
Endangered Species Act. Great. Meaning. But if we're going to 
devastate our forest, these endangered creatures--Where are 
they going to hang out? I mean, Benjamin Franklin, he made a 
sense that--made a comment that the only bad thing about 
commonsense is that it's not very common.
    In these catastrophic fires, with all this fuel buildup, it 
just builds and builds and builds, and they're not being able 
to adequately treat it. With a good thinning bill, sir, you 
folks have the power to make it happen, to get it out there. 
Sir, we can turn it around--Not only for the resources, but the 
communities, because we work hand-in-hand. I was talking to one 
of your staffers, Scott. He mentioned that he read some 
statistics about Oregon 40 years ago. Eastern Oregon had the 
highest per-capita income. Our forests were healthier back 
then. Now, it's not great, sir. We're the poorest. So, Senator 
Wyden, you've been courageous about calling this hearing, 
calling the witnesses, and I thank you for inviting me.
    But, sir, this committee is going to have to be courageous 
and stand up and say, ``This is what's right.'' One of the ways 
in county government that we're a little bit kind of like you, 
except on a lot smaller scale. We have to balance budget. One 
of the ways I suggest is maybe take some of the funding from 
the upper echelons of the Forest Service and put it down on the 
ground where the work is actually being done. Down here, 
national forests, their personnel has reduced by 46 percent in 
the last 10 years. If we start cleaning up the forests like you 
want to, sir, you know what? There'd be some economic benefit 
that maybe we can start putting money back into the treasury 
like we used to.
    The collaboration, sir? We're trying. We're busting our--
we're trying hard to get that done. I mean, we go to--I've 
met--Judge Webb and I have gone and met with Russ. Susan Jane 
Brown from the Pacific Environmental Advocacy Center--We've had 
her right here on tour. We've gone around and looked at the 
forests. Emily Platt, from the Gifford Pinchot. We've engaged 
those folks. We took them on one tour, sir--and I'll make this 
brief----
    Senator Wyden. No----
    Mr. Britton. Excuse me. I get wound up.
    Senator Wyden. You're saying it well, and you've come a 
long way to say it.
    Mr. Britton. But we took them out on a tour and we got to 
see various parts of the forest. On one particular trip, we 
went--the private land was on the West and the Forest Service 
land was on the east. It was remarkable the difference. We 
drove out to a private ranch that had been logged 3 years 
before. Susan Jane, God bless her, and Emily made the comment 
that, ``Gee, I wish the rest of the forest looked this good.''
    It doesn't, sir. But our guys are trying. We've got a 
forest supervisor that has changed attitudes. He's got them 
excited. If they could just help him out with a little bit more 
personnel, a little bit of money, and it would change things. 
One quick little, brief, primitive analogy, and I'll get out of 
here.
    Senator, imagine if you and your mates, if you went home 
and your toilet was plugged, and your kitchen sink was plugged, 
and you had to wait for a need for analysis, and go through 
collaboration, and then you had to get the approval from the 
Washington office, and then the regional office. When you got 
all that done, then you'd have to go to the Ninth Circuit Court 
of Appeals and ask them to review whether or not your sink and 
toilet were really plugged. Probably wouldn't get fixed. Sir, 
our sink is plugged. Please help us out with some legislation 
to let the Forest Service do the kind of work that they can do, 
and they want to do. Thank you.
    [The prepared statement of Mr. Britton follows:]

       Prepared Statement of Boyd Britton, County Commissioner, 
                            Grant County, OR

    I would like to thank the distinguished members of this committee 
especially Senator Wyden for allowing me the privilege to testify 
before you and attempt to answer any questions you may have.
    I am a County Commissioner from Grant County in Eastern Oregon. The 
citizens I represent love and cherish our land and I know my fellow 
commissioners and citizens in neighboring Wallowa, Union, Baker and 
Harney counties feel the same way about their portion of the Iron 
Triangle forests.
    All of us across the West are scared because we can see our 
precious natural resources, forests, range, water and wildlife being 
destroyed by unnatural catastrophic wildfire. Grant and Harney counties 
share the largest Ponderosa Pine forest in the nation. This summer the 
Emigrant Creek Ranger District of the Malheur National Forest in Harney 
County lost 25% of its district to wildfire. Two years ago the Forest 
Service spent 14 million dollars in 13 days on a 14,000-acre fire in 
Grant County. That same area, which burned precious old growth, 
destroyed wildlife habitat and negatively impacted salmon was scheduled 
for treatment in the early 1990s but was stopped due to litigation.
    Senator Wyden correctly pointed out to me a few years ago that we 
couldn't close the courthouse doors to litigation; however this body 
I'm addressing today has the ability with legislation to limit 
frivolous appeals especially ones of a procedural nature. The citizens 
in the West are frustrated that a radical environmental individual can, 
with a 41-cent stamp, stop, delay or weaken a project that can 
significantly reduce the possibility of a catastrophic fire. As an 
elected county official, when a citizen or group brings forward a 
problem I like to have them propose a solution. I would like to propose 
a few ideas.
    The United States Government spent 2 billion dollars last year on 
fire suppression, which is just treating a symptom of the real problem 
that is unhealthy forests. The Forest Service spent 47% of their budget 
last year putting out fires which left little money or manpower to do 
other work that they have the desire, training and expertise to do. 
Forest management should be done by the local, on the ground managers 
not by activist judges on the Ninth Circuit Court of Appeals; nor 
should it be done by radical environmental obstructionists or by 
regional or national offices of the Forest Service.
    I would ask you to put in place legislation that would limit 
appeals and increase the percentage of funding to the local land 
managers. In the last ten years staffing on the Malheur National Forest 
has decreased by 46%. When the Forest Service began downsizing some of 
the first positions to go were the timber and brush disposal crews. Now 
with the established targets of fuel reduction the Forest Service is 
forced to burn ``cheap'' acres to meet their targets. The needed 
mechanical thinning that needs to be done before the under burning is 
four times more expensive. The Forest Service is in a death spiral and 
I would suggest that increasing the funding of local land managers and 
not administrative offices such as at the regional or national levels 
would begin to slow down this spiral. The local communities are poised 
to help. The thinning and fuel removal that needs to be done will put 
our citizens back to work, preserve the infrastructure within the 
community and most of all preserve our natural resources for our 
grandchildren.
    Senator Wyden and my friend, Congressman Walden successfully put 
forward the Healthy Forests Restoration Act which has helped to start 
reducing fuels within the Wildland Urban Interface and we thank you for 
that, but for lack of funding, lack of personnel, litigation, and the 
threat of litigation it is moving too slowly. We are fortunate on the 
Malheur NF to have a current Forest Supervisor that has a vision and 
the energy to push forward. For years, the Malheur's employees have 
been beat down and frustrated by litigation delays, the cumbersome 
planning process and lack of support from the regional level but the 
Supervisor is changing the atmosphere of the local Forest Service 
employees and the community. One of the silviculturists is a neighbor 
of mine and for many years when asked, ``How are you doing?'' he would 
invariably reply, ``I've got 4 years, 3 months and 2 days until I 
retire.'' Now Eric's excited about having proactive leadership, he just 
needs your help.
    The Iron Triangle forests, Malheur, Wallowa Whitman and Umatilla 
cover an area larger than the state of Massachusetts. The health of 
these forests is reflected in the health and well being of our 
communities. Wallowa County's mill has shut down and 54 good family 
wage jobs along with their health care are gone. Harney County lost its 
only mill and 92 family wage jobs are going away. Here in Grant County, 
Grant Western Lumber Co.'s mill shut down and we lost 56 family wage 
jobs along with their health care benefits. If you were to compare this 
loss of jobs on a percentage basis to Portland Oregon it would amount 
to 22,000 lost jobs. The state has come in with assistance from the 
Federal Government and offered retraining. That's well and good but 
guess what? Those people are going to have to leave our counties to 
find a place for those new skills. Grant County has been decreasing in 
population at the rate of 2% a year. We are losing not only the 
resources of our federal lands but also the precious resource of our 
people.
    The HFRA legislation requires collaboration. We joined in the 
process a little over 3 years ago by inviting the scariest thing known 
to a Grant County citizen--an environmental lawyer from the Pacific 
Environmental Advocacy Center. Old time foresters like Walt Gentis, 
logger Charley O'Rorke, the County Court and Forest Service got on a 
bus and toured parts of the forest. We all observed the same things and 
came up with a similar conclusion--the Forest needs help. One of the 
areas we visited has since burned. We were able to drive up Highway 395 
and see to the west Forest Service managed lands and to the east 
private lands. There was total agreement that Forest Service lands were 
significantly more fire prone than the privately managed lands. 
Attorney Susan Jane Brown and Emily Platt from the Gifford Pinchot Task 
Force even made the comment at a private ranch that had been logged 3 
years earlier she wished the Forest Service lands looked this good.
    I understand here in Washington DC the talk about progress being 
made in Oregon in the West. I respectfully disagree. In the years 2005 
through 2007 our country has lost 27.2 million acres due to wildfire at 
a cost of billions. That's an area larger than the state of Virginia. 
We are in dire need of immediate action.
    If I could provide a primitive analogy: Would the members of this 
committee if having a bathroom toilet and kitchen sink backed up want 
to go through a NEPA analysis, collaboration, and review by the 
Washington Office and Regional Office before you started fixing the 
problem. Then, by the way, you would have to get the Ninth Circuit 
Court of Appeals to rule whether or not the toilet and sink were really 
backed up. Our sink is plugged. With proper legislation, the endless 
appeals won't stall needed projects. Increasing budgets to the ground 
level will help restore our resources and communities to a healthy 
condition which will be good for the West and good for the country, and 
perhaps when we talk to our grandchildren we can say we did a good 
thing and not hang our heads in shame and say I'm sorry we let you 
down.
    Thank you and I would welcome your questions.

    Senator Wyden. Boyd, very, very well said. That's exactly 
where we're going to be going next. I just want to get on the 
record, because I think it's going to be important as we wrap 
this up, we had Professor Johnson say that he disagreed with 
Secretary Rey. We had Boyd Britton say that he disagreed with 
Secretary Rey. Mr. Hoeflech, do you disagree with Secretary 
Rey?
    Mr. Hoeflich. I do.
    Senator Wyden. Mr. Donegan, do you disagree with Secretary 
Rey?
    Mr. Donegan. I do.
    Senator Wyden. OK. If nothing else comes out of today's 
hearing, I hope that will help to show that what we're trying 
to do, as Mr. Donegan said--really, all of you have said--is to 
try bring together parties that have disagreed to get serious 
about thinning and forest restoration in the days ahead. I can 
tell you I feel just as strongly about this as I did about the 
County Payments Effort and the Forest Health Legislation, which 
as I said many hours ago was those were the only two pieces of 
legislation actually that have gotten passed in the forestry 
area in the last 15 years. So this has been very helpful.
    So let me start by asking each of you, starting with you, 
Boyd. Given the fact that we have a difference of opinion, that 
we're losing more than we're restoring, if you had to apportion 
it, how much is due to funding? How much is due to staffing? 
How much of it is due to appeals and litigation? How would you 
break it out in terms of the problem? I think that'll be 
helpful, too, because as you can see, to get the solution we're 
going to have to say, ``Look, everybody is going to have to do 
something.'' Tell me your take on how much, at least in those 
three areas, how much is that contributing to the problem?
    Mr. Britton. That's a tough one, sir. I will try. One of 
the most frustrating words I hear from the Forest Service is 
``process.'' If I died tomorrow and never heard that word 
``process'' again, I'd die a happy man. But funding has a bunch 
to do with it. The structure, the way Forest Service does 
business, is a big part of it. On the fuel reduction, sir, 
they've given these targets they have to meet. If they don't 
meet them, they're castigated, they get bad reviews, whatever. 
So they have to go out and treat these tree bakers, I'll call 
them, that really aren't in that bad a need, and then they're 
treating two and three different entries, when the real 
treatment needs to be done going in and doing the mechanical 
thinning first, at least that should be done before the under-
burning.
    But that costs four times as much. But because of the way 
they're set up, sir, they can't meet their targets going that 
way. So part of it is bureaucratic. Part of it is just the way 
the Forest Service does business. Part of it is legislative. If 
you folks could twist that legislation, do whatever you do--I 
don't know how you do it, but you guys have got the power and 
you know what you're doing. But if you could change that 
legislation, sir, in such a way that it reduces those 
bureaucratic pratfalls that they fall through, lessen the 
opportunities--and I said in my statements, sir, and you 
pointed out to me very strongly one time a few years ago, and 
you were right, that we can't close courthouse doors. You're 
right, sir.
    But we shouldn't have to open them wide and invite the nut 
cases in to say, ``Hey, put this off for 5 years. Kill the 
project.'' That's what's happening now. The true environmental 
community wants to work with the industry, I think. I could be 
proven wrong.
    Senator Wyden. I think that's a good way to put it.
    Mr. Britton. Did I answer you?
    Senator Wyden. Yes, you did, and very well. You shouldn't 
have a constitutional right to five, 10-year, whatever delays. 
I think there's a lot of common ground there. Mr. Hoeflech, in 
terms of your assessment, how much of it is due to funding? How 
much of it is due to needless appeals? How much is due to 
staffing? There may be other factors that you want to outline, 
so feel free to incorporate other ones. But as you break down 
the problems, since we now have unanimity--professors, 
environmental folks, rural communities, timber industry 
people--that, you know, we're falling behind, let's get out the 
sense of what the factors are in terms of proportion. You next.
    Mr. Hoeflich. Let me try to address it this way. I think 
that Boyd hit on the most critical issue, and that has to do 
with the motivation of the employees in the field. If they are 
continually promoted and encouraged, based upon small-scale 
actions, and they are not given incentives to take risks and 
plan at the scale that it really needs to be done, that is the 
No. 1 problem for us. When, in fact, I was sitting on a project 
in the Klamath Basin where there were 19 very hard working 
people in that Basin who were asked by the Forest Service to do 
a planning exercise on a few thousand acres.
    When I asked the person in charge of that project for the 
Forest Service, I said, ``You really need to be working at 
212,000 acres for the entire watershed,'' they said they 
couldn't afford to do it, and the fact of the matter is they 
wouldn't hit their performance standards because they'd be tied 
up in court. So it's just a vivid example of the same 19 people 
were being forced to plan at a scale that was meaningless to 
the long-term health and viability of the community, let alone 
the ecological needs of the forest. It's under your control to 
be able to switch the incentives for the employees in the 
Forest Service to be able to take the risks to plan at the 
scale. The issue of resources really pertains to a reallocation 
of the resources.
    We need to be able to get the best and the brightest of 
scientists from around the Federal agencies, as well as the 
State agencies, to come to the table and support these 
hardworking people in the community to frame a desired future 
condition of their forest. If the resources are put out there 
up front to help have a conversation about a--to help develop a 
consensus over that desired future condition, and the Forest 
Service then is empowered to work in lockstep to develop the 
need for documents at scale that's meaningful, then, in fact, I 
think we can avoid the litigation.
    I'm just trying to put this positive energy and the 
resources in the right place. Let's try to develop a model 
where we avoid that litigation. At least reasonable people can 
agree and can reason prevail in the end. I think that if we 
marginalize those on the end that are really not with the 
conservation community, and not with the community overall, 
understand where they're coming from--we've invited them to the 
table but they haven't offered pragmatic solutions--that, in 
fact, we should be able to prevail, not only in the Court of 
reason but hopefully in the Court of law.
    Senator Wyden. OK, Mr. Donegan. Your assessment of--because 
what I'm going to do is--You sort of tried to identify the 
problem, and next you go to cure. I think your colleagues there 
have sort have been touching on both. Go ahead and take a crack 
at this question of how you'd apportion the problem, and then 
some of your remedies.
    Mr. Donegan. I should start by saying I'm not the most 
qualified panelist, with regard to Federal processes and 
decisionmaking. What I can share is that I think that, with 
regard to problem-solving, part of the problem-solving is going 
to have to include funding, obviously, going forward. If we're 
going to try to accomplish something at the scale that my 
fellow panelists are describing, I think funding is going to be 
a big part of that. Part of that solution can very well be 
qualifying Federal forests and thinnings for carbon offsets, 
and within the emerging carbon markets and recognizing the role 
of that Forest Plan Carbon Sequestration.
    That could establish a long-running source of funding, and 
stable and sustainable source of funding. I think, you know, 
the other point that I'd like to make is that emerging biomass 
markets could play a role here, as well. Again, you know, I 
think they'd need to be nearby. You don't want to have long 
trucking distances. You'd probably want a number of smaller 
mills as opposed to a few larger mills. I think that market 
development is going to take public and private capital.
    I think for it to attract private capital, I think the 
biggest obstacle at this point is just going to be stability. 
Private investors need stability. They abhor risk. I think that 
speaks to the litigation risks that all the fellow panelists 
have brought up today. So I think anything you can do to 
address this litigation risk, I think, can in turn address the 
funding issue.
    Senator Wyden. I can tell you there is going to be a part 
of my legislation that is going to get at that. I mean, I 
think--and Boyd put his hands on it, and we talk about it every 
time I'm in John Day or Canyon City or any of our meetings--
there is something in between cutting off the rights of people 
to be able to express their views about the forestry policy. 
That was the whole sufficiency debate and talk about timber 
wars, as Mr. Donegan did. That was about as acrimonious a 
discussion as I've ever seen.
    There's something in between cutting off the right of 
people to be heard, and what I for shorthand call the 
Constitutional Right to Five-Year Delay. And We're going to be 
working with all three of you to try to figure out what that is 
that is between those two points, and I think we can get it 
done. You know, we tried, as part of the Healthy Forest 
Legislation, to try to expedite some of the processes. We can 
look to that and other kinds of approaches and we will involve 
all of you.
    Now, the only other area that I was really interested in 
some input is what are the ramifications of technology in this 
area? I saw something that indicated that the new mill in 
Lakeview that folks are very excited about is going to cut 
trees up to 7'' dbh. This, I think, is called diameter at 
breast height is the technical lingo. This has helped the mill 
significantly increase their capacity to generate profits. I 
gather that now they want to know whether this is going to get 
the agency to start redefining, you know, what constitutes 
commercial and non-commercial, you know, timber. But what do 
the three of you think about the technology questions here? I 
mean, are there areas for the record that we need to be looking 
at as we examine technology? Boyd, or any three, or all three 
of you can feel free to weigh in.
    Mr. Britton. I'd love to give a shot at it, sir.
    Senator Wyden. Yes.
    Mr. Britton. The two mills that are left up there in Grant 
County, they've already done a whole lot of upgrading on their 
mills. They're going to smaller and smaller top--don't quote me 
on this, sir, but I think they can go down to a four-inch top, 
and still make something happen. But what they lack to keep 
going and keep doing that kind of technology is sustainability.
    They have to have a guarantee somehow or another that 
they're going to have, you know, 10 years of product. That's 
especially true of the Forest Service. They've done some good 
work trying to get biomass to come in. We've had some 
demonstration projects out there, where they can go out and do 
the slash removal and take it out of the woods. But we've got 
people that are interested in it, but they're not going to 
come, sir, until they have that guarantee of a product. That's 
Business 101.
    Senator Wyden. Very good. Mr. Hoeflech.
    Mr. Hoeflich. I've gotten into this issue a bit with the 
Federal Forest Land Advisory Committee and the Oregon Biomass 
Workgroup that I've been one. To Boyd's point, if in fact we 
have the certainty of the volume, I'm finding that the 
incentives will be there, and if the assurity of the product is 
there, the creativity, the energy infrastructure is there, 
people will be able to find the technology to be able to pull 
the wood out of the forest. There already is a lot of 
experimentation to cost effectively remove the product. There's 
experimentation on how to get a chip truck out, and get the 
product in because or traditional chip trucks will not get into 
these remote locations.
    But there are people who are trying to break through those 
issues. They're using European designs to be able to test their 
effectiveness and light entry into the system. Creating some 
incentive to expedite that experimentation, I think, is going 
to be helpful from what I'm hearing from the industry, and Matt 
may know more about that element of it.
    Mr. Donegan. Yes, I can speak to this. I actually wish my 
friend Russ was here, because this is really his specialty. 
Unfortunately, he had to fly back home. But I will say that, 
yes, small log technology has made tremendous advancements in 
recent years, and has allowed sawmills to much more efficiently 
process smaller diameter or dbh timber. That again is an area 
especially for Vaagen Brothers. It's really what makes them a 
very unique partner in this regard.
    I think, equally, the other element of technology mentioned 
just previously is just the whole takeoff on woody biomass. I 
think that's particularly exciting, is that as we would 
envision a thinning program--a large-scale thinning program--
revitalizing Western forest communities, I think a very 
exciting part of that would be inviting new technology, woody-
based or woody biomass-based technology, and perhaps cellulosic 
ethanol. So there's a lot of work to be done there. That would 
have far-reaching ramifications in regard to renewable energy 
and addressing our dependence on foreign oil. I think that 
would have diverse and far-reaching implications.
    Senator Wyden. You all have been very helpful. The biomass 
issue, I think, sort of highlights once again how you tackle 
these issues in a responsible kind of way. You three probably 
wouldn't know all the history, but Mr. Gladics, and Mr. Miller, 
and Ms. Miranda will recall vividly in the course of the 
energy, you know, debate, we tried to offer originally 
something that we thought would strike a responsible approach 
in terms of protecting old growth, but at the same time would 
make sure that we would have a good quantity of material for 
biomass.
    As the three of them can attest, we had people who said 
they'd never heard anything about it, and they were fighting, 
and it was going to end the ability to get biomass. The three 
of them basically went out, and with considerable passion from 
all sides, basically got our committee, which was pretty much 
ready to wrap up the energy title bill to hold off until we 
talked to people about merits of the issue. These three came up 
with a very large book, as it related to the definitions and 
the like, and essentially stayed with it until they found a 
reasonable position that would allow us to get significant 
amount material for the kinds of projects Mr. Donegan's talking 
about, and investors want, and then folks in Grant County would 
like to see get off the ground, Boyd.
    We got it done. That was because people worked together. It 
would have been real easy to take potshots and start putting 
out press releases and say, ``So-and-so didn't care about old 
growth. So-and-so didn't care about biomass and rural 
communities and getting a fresh start for rural areas.'' That 
would have been a piece of cake to just go to the ramparts and 
just start cranking up your press releases. But we took a 
different route. I hope that eventually that position is going 
to prevail. So you all have given us a lot of good counsel, and 
we got there on county payments.
    We're still waiting for the final news for this session, 
but we're going to stay at until we get it done. I can assure 
you of that. The Forest Health Legislation was of certainly 
some value, but now it is time--given the seriousness, and 
given the fact that we've got--just as you've told me Boyd--all 
these communities fearful. They're fearful of fires. They're 
fearful of losing everything. They just see little action and, 
you know, the prospect of their community going up in flames. 
We've got to make sure that the same kind of bipartisan efforts 
are made to build the kind of coalition, you know, that you're 
talking about.
    We've had business, Professor Johnson, so well-respected, 
environmental folks, rural communities all make it clear to 
me--and we'll have it, you know, for the record--after you've 
journeyed a long way to come to Washington, that there's a lot 
of common sense out there that can mobilized to solve the next 
challenge in forestry. I am committed to doing it. I always 
like to give the witnesses, you know, the last word here. So we 
can go right down the row. Boyd, and then Mr. Hoeflech, Mr. 
Donegan. You've all been very patient. Would you like to add 
anything else at this time?
    Mr. Britton. Sir, if you don't mind, I could add a few more 
things. I'm a politician, so you know we can always add 
something. I don't know how everybody shakes out on this global 
warming. OK? I don't know. I'm not going to address that. 
However, by treating the forests, it will reduce the carbon 
emissions. Absolutely. There's no question about it. By making 
our forests healthier, they're going to have places for those 
carbon sinks. Instead of our forests being emitters, they'll 
become places for them to sink.
    You're probably wondering about this. I brought it for a 
visual aid. This is a Canyon Creek Woody Fuels Reduction 
Project. It's the EA. You're looking at, by the time it's said 
and done, sir, 5 years of work, $1 million worth of labor, and 
it's going to treat 7,000 acres. You've got to help the Forest 
Service. The Senate and the House have got to help them so they 
can do a better job. They want to. They have the desire. But 
they ain't going to get it cut. That's not going to cut it, 
sir. Excuse me for stuttering, but it kind of--I get wrapped up 
about it. Going at that rate, and God bless you and Congressman 
Walden for getting that Healthy Forest Restoration Act done. 
It's very good. But they need more tools with it. More money, 
more tools, more people. Thank you for doing that, sir.
    Senator Wyden. Well said. Mr. Hoeflech.
    Mr. Hoeflich. I guess I want to say that time is of the 
essence for some of these rural communities. I'm honored to be 
working with the members of--the leadership of Grant and Harney 
County. But truly, time is not on their side. I shudder to 
think about what will happen to us if we struggle over the next 
two or 3 years. We will have dead and dying trees. We'll have a 
community that's probably cut in half that doesn't have the 
expertise to be able to harvest the trees. The mills will have 
shut down. Then we'll be sitting in front of you asking for 
emergency appropriations to retrain and to bring back a mill 
infrastructure that meets the needs of the community.
    If there is some way for us to expedite a process to be 
able to take care of the biological needs, so we don't hit the 
next catastrophic fire, that we can preserve the integrity of 
this community, the heart and soul of this community, before it 
is lost--I spent time earlier this week with John Shulk from 
Ochoco Lumber. He is hanging on by a thread, and we've already 
lost others in the community. It is just--I don't want to be 
standing in front of you like my counterparts in Arizona and 
New Mexico, where they have to start all over again. They have 
now come to consensus in the community of a desired future 
vision, but there's no infrastructure. So that's our challenge.
    Senator Wyden. Very good. Mr. Donegan.
    Mr. Donegan. I will just add an additional perspective to 
what Russ just said, with regard to timing. That is, you know, 
I think as a professional forester and as somebody who works 
not only in the private forest, but I also serve on the 
National Council of National Park Conservation Association, and 
I'm very familiar with land ownerships, public and private, I 
think all resource professionals need tools at their disposal 
in order to conduct management activities that meet their 
objectives.
    Almost always, the limiting factor is funding. I would 
just--to add urgency to what Russ just said--without mills and 
without some existing remaining infrastructure that will put 
place dramatic funding limitations on the Federal Government in 
years to come. If the remaining mills are lost, I hate to think 
that we will wake up 5 years from now and say, ``Jeez, we've 
got to introduce an aggressive thinning program to better 
sequester carbon, to better restore habitat, and, oh man, we 
realized this too late, and our mills are now gone.''
    Likewise, from a private landowner's perspective, the need 
for mills is equally dire. You can definitely look across the 
Inland west at sub-regions where the mills are already gone. 
These are the regions that are experiencing the greatest levels 
of development, land conversion, fragmentation, because 
literally, the landowners were left without any economic 
options. So I would say you can look at Eastern Washington, 
Eastern Oregon, parts of Idaho, and say, if these few remaining 
mills are lost, you're going to see tremendous advancement of 
deforestation and fragmentation in those areas. So I would just 
echo the sense of urgency that we don't have much remaining 
time. We applaud your leadership for our home State, and ask 
for all your diligence on this.
    Senator Wyden. The last word has been delivered by three 
very thoughtful advocates from the State of Oregon, and with 
that, the subcommittee is adjourned.
    [Whereupon, at 6:03 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]

    Statement of Michael E. Dubrasich, Executive Director, Western 
          Institute for Study of the Environment, Lebanon, OR

                              INTRODUCTION

    My name is Michael E. Dubrasich. I reside in Linn County, Oregon. I 
am a professional consulting forester with 26 years experience in 
private practice, and am currently Executive Director of the Western 
Institute for Study of the Environment [http://westinstenv.org]. I am 
knowledgeable about and have professional expertise in restoration 
forestry.
    I am in strong and substantial agreement with the testimony of Drs. 
K. Norman Johnson and Jerry F. Franklin regarding the pressing need to 
undertake immediate restoration forestry action in National Forests of 
Oregon. I quote for emphasis:

          We will lose these forests to catastrophic disturbance events 
        unless we undertake aggressive active management programs.
          Johnson and Franklin

                              THE PROBLEM

    National Forests in Oregon are at extreme risk from catastrophic 
fire. The Biscuit Fire of 2002 destroyed nearly 500,000 acres of 
heritage forests, principally in the Siskiyou N.F. The B&B Fire of 2003 
and adjacent fires of the last ten years have destroyed nearly 150,000 
acres of the Deschutes N.F.
    These and numerous other fires of the past 15 years have decimated 
old-growth stands and converted priceless, heritage forests to 
brushfields. Multi-cohort old-growth stands are the preferred habitat 
of northern spotted owls and other old-growth associated species. 
Catastrophic fires destroy old-growth habitat and they have been 
implicated in the continuing decline of Threatened and Endangered 
species populations in Oregon--plant and animal, vertebrate and 
invertebrate.
    The fire hazard is increasing with each passing year, as new growth 
adds to burgeoning fuel loads. Catastrophic fire acreage, fire 
suppression costs, and resource losses to fires have been increasing 
nationwide.
    The 2006 fire season was the worst in over fifty years. Nearly 
10,000,000 acres burned in wildfires with suppression costs approaching 
$1.85 billion.
    With nearly 9.3 million acres burned nationally, the 2007 fire 
season was the second worst fire season in over fifty years and the 
fourth record-setter in eight years. Seven of the worst ten fire 
seasons since the 1950s have occurred in the last 12 years.
    Fires that start in untended, fuel-laden federal forests 
occasionally escape beyond federal property lines. Such, often very 
large or megafires, threaten and burn private property. Thousands of 
homes are lost to escaped federal fires each year. Urban as well as 
rural homes are burned.
    If we continue on the present course, we will lose many more 
millions of acres of heritage, old-growth forests and the habitat they 
provide to important wildlife species. We will continue to lose 
thousands of private homes each year to escaped federal fires.
    National Forests across the state of Oregon are in a condition of 
unnatural density. Fires in forests overburdened by dense fuels tend to 
become stand-replacing. That is, most trees are killed by such fires, 
including old-growth trees.
    Historical analyses based on pioneer journals, oral histories, and 
empirical investigations of stand age structures provide strong 
evidence that most forests in Oregon were open and park-like in prior 
centuries. Frequent, regular, seasonal fires maintained trees at wide 
spacing, overtopping grassy understories.
    Historically, fires in such stands were NOT stand-replacing. 
Instead, regular, frequent, seasonal fires gave rise to conditions that 
allowed trees to grow to great ages. Without frequent light fires, 
trees do not grow very old. The actual historical development pathways 
for many (if not most) of our forests involved frequent light fires, 
not stand-replacing fire.
    Nowhere is this more apparent than in the Biscuit Burn and in other 
burns of the last two decades in Oregon. Typically the forests that 
have been destroyed by catastrophic fire were strongly multi-cohort 
with older cohort trees of 150 to 600 years of age. Also typically, the 
vegetation that arises after the fires is sclerophyllous brush with a 
few, even-aged conifer germinants.
    It is clear that the new forests will be nothing like the old 
forests. In fact, it is probable that the new forests will burn again 
after 15 to 50 years of new fuel development. We know from reburned 
areas such as the Silver Burn (1987) within the Biscuit Burn (2002) 
that the new ``forest'' is loaded with highly flammable brush. The few 
conifer germinants grow slowly and are killed in the subsequent fire. 
After reburns no conifer seed sources are left, and the new ``forest'' 
becomes a permanent, catastrophic fire-type shrubfield.
    Historical analyses also provide strong evidence that the regular, 
frequent, seasonal fires of the past that sustained old-growth forests 
were anthropogenic (human-set). Indian burning for a variety of 
subsistence purposes gave rise to and maintained open, park-like forest 
structures. In the absence of Indian burning, or modern equivalents 
thereof, our forest structures have deviated from historically 
sustainable conditions.
    Today's forest fires in dense fuels are catastrophic and stand-
replacing. The historical forest development pathways of the past were 
different. They must have been different because they gave rise to 
open, park-like forests with old trees, not permanent fire-type brush.
    In addition to inviting extreme, ecosystem-altering fires, overly 
dense stands are more prone to insect infestations and fungal 
epidemics. From the testimony of Drs. Johnson and Franklin:

          This is not simply an issue of fuels and fire; because of the 
        density of these forests, there is a high potential for drought 
        stress and related insect outbreaks. Surviving old-growth pine 
        trees are now at high risk of death to both fire and western 
        pine beetle, the latter resulting from drought stress and 
        competition.
          Johnson and Franklin

                              THE SOLUTION

    The solution is restoration forestry. Dr. Thomas M. Bonnicksen, the 
Father of Restoration Forestry, defines it thusly

          Restoration forestry is a vision for the future rooted in 
        respect for the past. Thus, restoration forestry uses the 
        historic forest as a model for the future forest.
          Restoration forestry aims to recover our nation's forest 
        heritage while also restoring the productive and harmonious 
        relationship between people and forests that existed in 
        historic forests.
          Restoration forestry is defined as restoring ecologically and 
        economically sustainable forests that are representative of 
        landscapes significant in America's history and culture.
          The goal of restoration forestry is to restore and sustain, 
        to the extent practical, a forest to a condition that 
        resembles, but does not attempt to duplicate, the structure and 
        function of a reference historic forest. The term ``reference 
        historic forest'' means the way a whole forest appeared 
        spreading over a landscape, with all of its diversity, at or 
        about the time it was first seen by European explorers.
          A reference historic forest does not represent a particular 
        point in time. It represents a period and the variations in 
        forest structure that characterized that period.
          Bonnicksen, Restoration Forestry

    The practice of preparing forests to accept fire without total 
incineration MUST include positive, scientific forestry goals of 
protecting heritage trees, meadows, and other ancient cultural 
landscape features by restoring historically-accurate and proven-to-be-
sustainable open, park-like stand structures.
    Trees have to be spaced fairly far apart to prevent crown-to-crown 
propagation of fire. Canopy fires plume into firestorms and do the most 
damage. Breaking up the continuity of the canopy is absolutely 
necessary to preclude crown-to-crown propagation and canopy fires.
    We need more than ``fuels management'' however. We need 
silviculture that recreates historical development pathways leading to 
open, park-like forests, savannas, and meadows at their historically-
accurate geographic locations within our National Forests. That means 
thinnings, clearings, and other aggressive active management actions, 
and maintaining the restored landscape conditions with anthropogenic 
fire.
    Historically and ecologically, human beings administered the key 
partial disturbances that maintained sustainable forests: frequent, 
regular, seasonal, human-set fire. Human stewardship of the land was an 
important component in the development of our old-growth stands. We 
need human stewardship again, to protect and restore them.
    History is a key element of restoration forestry. From the 
testimony of Drs. Johnson and Franklin:

          Activities at the stand level need to focus on restoring 
        ecosystems to sustainable composition and structure--not simply 
        to acceptable fuel levels. Objectives of these treatments need 
        to include: retention of existing old-growth tree populations; 
        shifting stand densities, basal areas, diameter distributions, 
        and proportions of drought-and fire-tolerant species (e.g., 
        ponderosa pine and western larch) toward historical levels . . 
        .  Finally, restoring old-growth tree populations to, and 
        maintaining them at, historical levels should be a goal of 
        restoration management.
          Johnson and Franklin

    One-half to two-thirds (at least) of our public forests require 
restoration forestry to protect, maintain, and perpetuate old-growth 
forests. That means the Northwest Forest Plan must be revisited and a 
modified Plan developed. The NWFP set-aside 85 percent of the landscape 
in No Touch Zones. The NWFP is thus not compatible with old-growth 
forest protection, maintenance, and perpetuation, according to the 
experts who drafted it. Again, from the testimony of Drs. Johnson and 
Franklin:

          Restoration programs must be planned and implemented at the 
        landscape scale to be effective; management over the last 
        century has altered entire landscapes and created the potential 
        for very large wildfires and insect outbreaks. Treating 
        isolated stands within these landscapes will not be effective . 
        . . 
          Creating fuel treatment patches and strips is a useful first 
        step to help control wildfire, but is not sufficient to save 
        these forests or the important array of values that they 
        provide, including owls and old-growth trees. Many of the 
        intervening areas will eventually burn and, even if they do 
        not, old-growth trees will succumb to insects during periodic 
        drought, since they are surrounded by dense competing 
        vegetation.
          To conserve these forests, we need to modify stand structure 
        (e.g., treat fuels) on one-half to two-thirds of the landscape.
          Johnson and Franklin

    The benefits of restoration forestry include:

  <bullet> Prevention of megafires and reduction in emergency fire 
        suppression costs
  <bullet> Prevention of ecosystem conversion to high hazard brush
  <bullet> Prevention of catastrophic fire damage to watersheds
  <bullet> Preservation of historic features of our shared, heritage 
        landscapes
  <bullet> Sustaining old-growth trees and old-growth development 
        pathways
  <bullet> Sustaining wildlife habitat, including T&E species
  <bullet> Reinvigoration of rural economies
  <bullet> Local stewardship

    In fact, across much of the publicly-owned landscape in Oregon (and 
other Western states as well), restoration forestry is the ONLY way to 
capture those benefits.
    The need for restoration forestry on a landscape scale is well-
recognized by the experts. The public demand for restoration forestry 
is also strong. Surveys of public attitudes have shown that as many as 
85 percent of urban residents favor active management to prevent 
catastrophic forest fires. The percentage of rural residents in favor 
is undoubtedly higher.
    Restoration forestry is more than ``active management'' just as it 
is more than ``fuels management.'' Our forests are living systems with 
numerous values to society. They are complex, they are precious, and 
they are at risk. That combination of factors demands intensive 
science-based stewardship to fulfill our shared responsibilities.
    Past efforts to institute restoration forestry, including the 
Healthy Forests Restoration Act of 2003 (P.L. 108-148) (HFRA) are 
laudable but have not achieved the landscape scale necessary to either 
prevent catastrophic megafires, or to protect, maintain, and perpetuate 
old-growth forests.
    Lack of action on restoration forestry also endangers the capacity 
of our National Forests to provide clean water in steady quantities. 
Catastrophic fires damage soils, decrease absorption and deep 
percolation, increase erosion, increase sedimentation, and debilitate 
watershed hydrologic functions.
    An untenable economic burden has been imposed on rural counties and 
residents by the lack of restoration forestry. Congress is perennially 
asked to provide payments in lieu of timber receipts to economically 
distress counties in the West. Restoration forestry is self-funding and 
can provide the jobs and receipts, relieving the need for Congress to 
provide addition emergency allocations.
    The US Forest Service does, however, need additional funds to 
employ professional forestry expertise. Congress must engage in 
rebuilding the agency's professional ability to manage our forests, 
which has diminished significantly in the past 15 years.
    Much more must be done and soon. I offer the following specific 
recommendations for your evaluation and adoption.

                        SPECIFIC RECOMMENDATIONS

1. Conduct a US Forest Service mission review
    The US Forest Service has not had a mission review since the 
Organic Act of 1897. The fundamental purposes of the USFS have changed 
since then. Landscape-scale forest restoration cannot be accomplished 
if the land management agency has lost its legal bearings.
    The mission review should be followed by review of the governing 
laws and regulations to ensure that the restated mission can be met. 
Funding and staffing must also be appropriate to the restated mission.
    And most especially, restoration forestry must be made central to 
the restated mission of the USFS. The scale of the problem, and of the 
solution set, require conformance to purpose in the agency and 
governing laws.
2. Revisit the Northwest Forest Plan
    The Northwest Forest Plan is also out of accord with the pressing 
need to apply restoration forestry on a landscape-scale.
    The NWFP has failed in all its goals: spotted owl populations have 
declined as much as 40 percent since inception of the NWFP; millions of 
acres of multi-cohort spotted owl habitat have been incinerated; the 
geographic continuity of owl habitat has been shredded, and regional 
economies, and especially rural economies, have suffered enormously.
    The NWFP is an impediment to restoration forestry, and thus an 
impediment to saving owls, saving owl habitat, and protecting rural 
economies. After nearly 14 years of failure, the time has come to 
review the NWFP and to alter it so as to better achieve the original 
objectives, and to enable landscape-scale forest restoration.
3. Fund research and teaching in restoration forestry
    The goal of restoration forestry is to recover and sustain the 
structure and function of historical forests. To do that we must first 
investigate historical forests and landscapes. We must understand 
history to envision the future. Second we must study the efficacy and 
efficiency of restoration forestry treatment options. New research and 
teaching is needed in:

  <bullet> Forest and landscape history
  <bullet> Ethno-ecology
  <bullet> Traditional ecosystem management
  <bullet> Historical landscape geography
  <bullet> Historical forest development
  <bullet> Restoration forestry principles and practices
  <bullet> Fire management

    Emphasis should be placed on empirical studies within those fields.
4. Conduct a forest-by-forest natural/cultural historical analysis
    The US Forests must initiate a program to investigate, analyze, and 
report on the actual forest and landscape histories every National 
Forest and BLM District in Oregon, and preferably throughout the West. 
The histories should look back at least 10,000 calendar years Before 
Present, and must include analysis of the (reconstructed) historical 
forest and landscape development pathways.
    The histories must refer to substantial evidence collected in the 
field, as well as ethnographic and anthropological research specific to 
each area. Forest-by-forest, empirical studies of pre-Columbian, pre-
Contact, and pre-Euro-American settlement forests and landscapes will 
also provide a set of reference conditions for restoration forestry in 
each local landscape or watershed.
5. Apply landscape-scale restoration forestry treatments
    The US Forests must initiate a program to plan and undertake 
landscape-scale restoration forestry treatments on every National 
Forest in Oregon to prevent catastrophic fires and protect, maintain, 
and perpetuate old-growth forests.
    Locally designed forest-by-forest restoration plans must be 
created. Plans should based on reference conditions but not be limited 
to exacting replications. The goal of restoration forestry is to 
enhance sustainable conditions that protect old-growth trees and old-
growth development pathways, as well as to protect historical natural/
cultural landscape features.
    The process should include open, public, juried reviews of each 
plan at the local level. Publicly-empanelled juries should be made up 
of local experts who are familiar with the specific forest or 
landscape. Public participation should be encouraged in plan 
development as well as evaluation.
    Approved plans should be implemented without delay. Landscape-scale 
restoration forestry treatments are needed now. The sooner treatments 
are applied the more acres of heritage forests will be saved from 
incineration by stand-replacement fires. As many have pointed out, 
restoration forestry treatments are self-funding through sales of 
removed fuels in various forms.
6. Utilize local private and public sector resources
    The task before us is immense. Both public and private sector 
expertise and capabilities must be utilized in all phases of 
restoration forestry, including historical analyses, treatment planning 
and evaluation, and application of restoration forestry to every 
National Forest in Oregon.
    Private/public partnerships, contracted arrangements, and community 
participation are required for restoration forestry to be successful. 
Wide application at landscape scales is necessary, and thus wide 
participation is too.
    Local stewardship, the management of local forests, watersheds, and 
landscapes by local communities, is the best social strategy. Also, 
locally is where all the local knowledge, expertise, and management 
skills reside. Local residents bear the brunt of local forest 
management outcomes, and so wish to assume authority and responsibility 
for local stewardship practices.

                                SUMMARY

    I am in strong agreement with a broad spectrum of forest experts 
and expertise in America. I too call upon Congress to initiate 
landscape-scale restoration forestry in at-risk old-growth forests and 
natural/cultural landscapes within the National Forests of Oregon.
    I have explained the problem and the solution, and given six 
specific recommendations for Congressional action, oversight, and 
leadership in restoration forestry.
    Thank you for your consideration of these issues.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Philip S. Aune to Questions From Senator Barrasso
    Mr. Aune I understand that you have spent a career implementing the 
research concepts that folks like Professor Johnson developed, as well 
as managing federal forests and research forests. I also understand 
that you were involved in examining a variety of thinning prescriptions 
that were burned in a later fire.
    Question 1. You mentioned the Lake Arrowhead situation in your 
testimony, are there any commercial sawmills on that forest?
    Answer. Big Bear Timber Company operated a sawmill located in the 
Santa Ana wash near San Bernardino prior to 1979. In 1979, that mill 
was sold to Golden Bear Timber Company who operated the mill for a 
couple of years. Timber supply off of the southern California national 
forests was drastically reduced due to land management planning 
decisions in the 1980s and the mill folded. The small amount of federal 
timber that has been offered since then has generally been purchased by 
Sierra Forest Products in Terra Bella, California. Sierra Forest 
Products is approximately 220 miles north of the Lake Arrowhead area.
    The insect devastation of the Lake Arrowhead and San Bernardino 
Mtn. area provide an opportunity to remove substantial volumes of 
timber beginning in 2002. I will describe who was involved with the 
role of the forest products and biomass industries in my response to 
question 2 below.
    Question 2. What did they do with the material they removed from 
those areas?
    Answer. Several saw mills in California and Oregon processed 
sawlogs from the southern California area insect epidemic. Mills 
involved:



------------------------------------------------------------------------
                                                         Distance from
         Company Name                 Location          Lake Arrowhead
------------------------------------------------------------------------
Sierra Forest Products            Terra Bella, CA           220 miles
Sierra Pacific Industries              Sonora, CA           420 miles
Sierra Cedar                       Marysville, CA           500 miles
Collins Pine                          Chester, CA           615 miles
------------------------------------------------------------------------

    All of these companies purchased logs from the southern California 
area with Sierra Forest Products purchasing the largest amount of the 
volume. Almost all of the wood purchased was from private land and 
right-of-way for transmission lines of Southern California Edison and 
Bear Valley Electric. Very little federal timber was sold to these 
firms with the exception of Sierra Cedar who processed a small amount 
of federal timber. The shorter haul distance was accomplished by truck 
transportation. Longer distance log hauling to the mills was 
accomplished with a combination of truck and rail transportation. Some 
of the companies used their lumber trucks to haul logs back to their 
sawmills after delivering lumber to Southern California market areas.
    Over 70 million board feet has been processed in lumber mills since 
2002. Keep in mind that the actual volume removed was a very small 
percentage of the total volume killed in the 611,000 acre 
infestation.\1\ The following sawlog volume was delivered by individual 
mills listed below:
---------------------------------------------------------------------------
    \1\ As of September 2003, the infestation was on 429,700 acres of 
federal land, 39,800 acres of State of California, 116 acres of local 
government land and 141,300 acres of private land. Source: California 
Department of Forestry and Fire Protection.


                                          Volume in million board feet
----------------------------------------------------------------------------------------------------------------
                    Company Name                        2002      2003      2004      2005      2006      Total
----------------------------------------------------------------------------------------------------------------
Sierra Forest Products                                    5.2      16.7       8.4       4.4       0.8      35.5
Sierra Pacific Industries                                   0       0.1      11.7       5.5       0.1      18.3
Collins Pine                                                0       1.1       9.3         0         0      10.3
Sierra Cedar                                                    Unknown, Company Closed 2007
----------------------------------------------------------------------------------------------------------------

    All of these mills produced pine boards from the logs that were 
delivered. The biggest problem with the wood delivered to the mill was 
``blue stain'' associated with insect killed timber. ``Blue stain'' 
does not cause structural problems with the finished boards. But it 
does cause a stain of the generally whiter boards produced from 
ponderosa and sugar pine logs. Logs with blue stain are generally worth 
about 55% less than those without the blue stain for typical logs 
delivered to the mills from the southern California area.
    In addition to the volume processed by these established forest 
products mills, Mr. Matt Allen and others set up small portable 
sawmills right in the Lake Arrowhead area in 2004. They were able to 
process a small amount of volume for pallet stock and other rough cut 
uses. Some of this volume was exported to Mexico.
    Biomass Electrical Energy.--San Bernardino County operated a land 
fill and accepted wood waste from the surrounding mountain area free of 
charge until 2003. Because of the large amount of material coming off 
the mountain areas, a tipping fee of $30/ton was established by San 
Bernardino County. This action helped to force removal and use of some 
of the material for biomass electrical energy.
    The area is fortunate to have Colmac Energy, Inc. located in Mecca, 
California. The plant is located on land leased from the Cabazon Band 
Mission Indians south of Palm Springs and is right in the heart of the 
southern California bark beetle problem. Colmac Energy is a 50 megawatt 
power plant that uses 325,000 green tons (250,000 bond dry tons) of 
biomass per year to generate the power they produce. Prior to January 
2004, Colmac Energy produced all of their electrical energy from 
contracts for wood waste in the southern California area, especially 
Riverside County.
    Since January 2004, Colmac Energy has been receiving about 1,500 
tons of wood from private land and utility clearing. About 500 tons per 
day comes from the northern portion (Lake Arrowhead/Big Bear area) and 
1,000 tons per day from the southern area (Idyllwild area). Colmac 
Energy is willing to pay for the transportation cost for chips 
delivered to the plant and the cost of chipping plus delivery for logs 
delivered to the plant. So far, the vast majority of the volume has 
been in the form of chips delivered to the energy plant.\2\ None of 
this volume has come from federal lands. They could easily take and 
store more volume given the dry desert climate that is very favorable 
for short-and long-term storage of logs or chips used for biomass 
electrical energy.
---------------------------------------------------------------------------
    \2\ Personal communication with Phil Reese, Colmac Energy.
---------------------------------------------------------------------------
    Question 3. If you just put it in a land fill or burn it, what 
about air pollution and the carbon dioxide emitted? How can that be 
helpful to the Los Angeles air-shed?
    Answer. The southern California wildfires of 2003 provided vivid 
examples of what happens to pollution levels surrounding the southern 
California area. With the Santa Ana winds blowing off the desert, 
almost all of southern California was covered with smoke from the fires 
past Catalina Island as can be seen in the right hand photo* below.
---------------------------------------------------------------------------
    * All photos have been retained in subcommittee files.
---------------------------------------------------------------------------
    When the winds shifted to their ``normal'' flow pattern, the smoke 
and pollution effect covered most of the southwest as can be seen in 
this photo.
    In a high fire year, roughly 900,000 to 1 million tons of 
particulate matter is emitted into the air. Compare this with the 
approximately 2.2 million tons per year of particulates that all other 
combustion sources (fuel combustion, industrial processes, 
transportation sources) produce. Additionally, with the large number of 
homes, structures, and other materials going up in flames, many 
materials (such as plastics, metals, etc.) were not properly disposed 
of emitting several harmful organic contaminants into the air.\3\
---------------------------------------------------------------------------
    \3\ Source: Environmental Protection Agency.
---------------------------------------------------------------------------
    The real question is what needs to be done to reduce the potential 
health and air pollution effects of smoke and associated pollutants 
from wildfires. One alternative is to burn the material in the field as 
part of a prescribed fire strategy. Another alternative is to burn the 
excess biomass as fuel for electrical energy production. Common air 
pollutants resulting from field burning is compared to burning woody 
biomass fuel in a biomass boiler in the following table:



------------------------------------------------------------------------
                                                              %Reduction
                                          Field     Biomass       for
              Pollutant                Burning\4\  Boiler\5\    Biomass
                                        (lbs/ton)  (lbs/ton)    Boiler
------------------------------------------------------------------------
Sulfur Oxides                             1.7       0.04           97.6
Nitrogen Oxides                           4.6       0.70           84.8
Carbon Monoxide                          70.3       0.40           99.4
Particulates                              4.4       0.26           94.1
Hydrocarbons                              6.3       0.00          100.0
                                      ----------------------------------
    Total............................    87.3       1.40           98.4
------------------------------------------------------------------------
\4\ Emission factors from ``Hydrocarbon Characterization of Agricultural
  Waste Burning.'' CAL/ARB Project A-7-068-30, University of California
  Riverside, E.F. Darley, April, 1979.
\5\ Based on actual emissions. California Biomass Energy Alliance.


    In addition to the positive reduction of specific pollutants 
described above, converting excess woody biomass into electrical energy 
will help to reduce our needs on imported oil. As an example, the 
annual woody biomass burned in the Colmac Energy plant will save the 
equivalent of 21,000,000 barrels of oil over the lifetime of the plant.
    Question 4. Mr. Aune you heard my question for Dr. Johnson on old-
growth; based on your experience, what do you think the implications of 
changing the Forest Service and BLM's mission to old growth restoration 
would mean to rural communities, wildlife, watersheds, recreations and 
other values or uses?
    Answer. Changing the Forest Service and BLM's mission to old growth 
restoration will undoubtedly be just as unwise as changing the mission 
to young growth establishment. Managing national forests for either 
extreme will not achieve the sustainable conditions described in my 
original testimony. Healthy forest conditions will require a balance of 
old, middle-aged and young forest conditions. These considerations have 
to be balanced with social and economic considerations to truly 
sustainable.
    While it is relatively easy to say our goal is to restore the 
forests to some sort of pre-European condition, this ignores the fact 
that we are a nation of 303,164,528 people as of January 3, 2008.\6\ 
The demands we place on our resources are so vastly different than 
demands placed on the resources at the time of pre-European conditions. 
Information is available comparing conditions around the year 2000 and 
1900 on the demands we place on our forests to provide wood for the 
citizens of the United States. For comparison purposes, the US 
population in 1900 was 76,094,000 or 27.9 percent of the population in 
1999. US lumber consumption for 1999 and 1900 provides an interesting 
comparison of the total volume consumed and the per capita consumption.
---------------------------------------------------------------------------
    \6\ US Popclock. http://www/census.gov/main/www/popclock.html.

          In 1999, lumber consumption in the United States for all uses 
        totaled 68.3 billion board feet, continuing records set through 
        the decade. Consumption in 1999 also exceeded levels in the 
        early 1900s, when lumber was the most important raw material 
        used in the United States for construction, manufactured 
        products, and shipping. Per capita consumption in 1999 was 250 
        board feet, almost equal to the record high of 251 board feet 
        in 1987, but nevertheless greater than per capita use in the 
        1960s, 1970s, and early 1980s. However, per capita consumption 
        was below averages for most years prior to 1965 and 
        dramatically below that in the early 1900s when consumption 
        exceeded 500 board feet per person.\7\
---------------------------------------------------------------------------
    \7\ Howard James. L. 2001. U.S. timber production, trade 
consumption, and prce statistics 1965 to 1999. Res. Pap. FPL-RP-595. 
Madison, WI: U.S. Department of Agriculture, Forest Service, Forest 
Products Laboratory. 90 p.

    Per capita consumption was cut in half between 1900 and 1999. This 
drop was offset by the huge increase in population over the last 100 
years. We consumed 30 billion more board feet than we consumed in 1900. 
Almost none of the wood consumed in 1900 came from the national 
forests. Any strategy that does not consider consumptive demands such 
as wood products, water consumption, meat consumption, minerals 
consumption, etc. and all of the supply relationships is doomed for 
failure. We could develop a single-minded focus for the national 
forests based on providing a large share of the forest products 
consumed by Americans. This single focus would be just as unwise as 
restoring our forest to some highly debatable pre-European condition.
    A similar view was expressed in the USDA Forest Service General 
Technical Report I submitted for the record.\8\ In the Introduction to 
the General Technical Report, Powers and Landrum stated:
---------------------------------------------------------------------------
    \8\ USDA Forest Service. 2005. Restoring Fire-Adapted Ecosystems: 
Proceedings of the 2005 National Silviculture Workshop. General 
Technical Report PSW-GTR-203. Pacific Southwest Research Station. 
Albany, California 305 p.

          From the perspective of human life spans, North American 
        forests seem unchanging. But change is certain. Climate, 
        seemingly immutable to our parents, is changing. And while the 
        exact causes of climatic change remain arguable, evidence 
        compels us to believe that the future will be different from 
        the past and that we must be ready. Managers must develop 
        strategies for coping with change. One expected change is the 
        nature of wildfire. Our forests--particularly those of the 
        West--are threatened. Each successive year seems marked by a 
        rise in wildfire frequency, extent, and severity. Well-meant 
        policies of decades of fire suppression plus shifts in forest 
        management practices have led to changes in forest structure 
        and diversity, physiological stress, and fuel accumulation. And 
        a mantra is heard that our public forests should be managed 
        toward conditions typifying pre-European settlement. But this 
        is a vain hope akin to putting the genie back into the bottle, 
        because our forests have a new complexion (emphasis added). 
        Many of our forests are urbanized--some as traffic corridors, 
        others as semimanaged interstices in a patchwork of community 
        development. This has produced a mosaic of ownerships and a 
        complexity of management challenges. Yet, as we fret with the 
        bustle of everyday life, forests continue to grow. Change 
        marches inexorably. The threat of catastrophic fire looms 
        large.\9\
---------------------------------------------------------------------------
    \9\ USDA Forest Service 2005. Restoring Fire-Adapted Ecosystems: 
Proceedings of the 2005 National Silviculture Workshop. General 
Technical Report PSW-GTR-203. Pacific Southwest Research Station. 
Albany, California. 305 p.

    What should be done? The general concept of restoring the health of 
our forests without the nonsense of some form of pre-European condition 
should be the focus of forest management strategies. The focus on 
restoring the health of our forests provides an opportunity to develop 
short-term as well as long-term strategies specific to the existing 
local conditions. When developing restoration strategies focused on 
forest health conditions, the key component will be developing forest 
conditions that are resilient to the wide variety of specific site 
factors, physiological and biological stress relationships, and forest 
fuels conditions. In order to accomplish the task at hand, most of our 
western national forests will require substantial thinning programs for 
the next few decades. Building resiliency into our overstocked forests 
will require thinning in all size classes!
    Programs that establish diameter limits or focus on such vague 
concepts as only removing small diameter trees lack any basis in 
science and will not accomplish the goals of leaving resilient healthy 
stand conditions. Most of the effort will require thinning from below 
and the focus should be on leaving individual trees with ample growing 
space on at least three sides. There is very little meaningful debate 
on that one simple concept. Combining thinning with removal of ladder 
fuels \10\ and surface fuels will provide the best strategy to leave 
healthy and resilient stand conditions. Given the uncertainties of 
climate changes, forests that are resilient will be our meaningful 
legacy to current and future generations. Finally, these forest 
strategies must be developed in a truly sustainable manner that is 
based upon strongly integrated economic and social considerations.
---------------------------------------------------------------------------
    \10\ Live and dead vegetaion that provide a pathway for a ground 
fire to move upward into the forest canopy leading to the potential of 
a crown fire.
---------------------------------------------------------------------------
    Question 5. I am wondering if you think the forest health issues on 
federal lands can be dealt with in the absence of a vibrant biomass and 
renewable fuels industry that is encouraged to take materials from 
federal land.
    Answer. This time my answer will be brief--NO! See following 
response.
    Question 6. Can you talk about what it will cost to accomplish this 
thinning in the absence of a viable timber and biofuels or energy 
industry in an area?
    Answer. Two examples provide some insight into this question. In a 
2003 field review of a Lake Tahoe Basin Management Unit project 
northeast of South Lake Tahoe, the Forest Service presented one of 
their forest health projects.\11\ The project involved removing trees 
and forest fuels that was offered unsuccessfully as a timber sale. No 
bids were received. The Forest Service then offered the project under a 
Service Contract and paid the successful bidder approximately $6,000/
acre to accomplish the work. The second example is the entire 
vegetation management program on the San Bernardino National Forest. 
Their unit costs are the highest in the nation. I do not have access to 
the recent figures, but they should be readily available to your 
Subcommittee. Without a viable forest products industry and developing 
economically viable projects, federal appropriations will be saddled 
with very expensive programs. Currently, the national forests are 
generally using their appropriated funds on relatively easy projects 
with questionable utility in reducing hazardous fuels and preventing 
catastrophic wildfire. The more expensive forest health projects that 
rely exclusively on federal appropriations are being postponed into the 
future.
---------------------------------------------------------------------------
    \11\ Forest Resource Association Western Region Annual Meeting 
Field Tour. May 2003. South Lake Tahoe, California.
---------------------------------------------------------------------------
    Rather than dwelling on the negative aspects and well known 
examples of high cost projects, the Subcommittee should look closely at 
success stories that actually have demonstrated cost reductions and 
revenue enhancements with economically sound thinning programs. These 
programs should be emulated. The key to every successful project is the 
availability of a viable forest products industry. The thinning 
programs on the Eagle Lake Ranger District of the Lassen National 
Forest near Susanville, California are classic examples of this 
success. The forest products industry is a vital part of their success. 
The entire Lassen National Forest area is blessed with both a 
traditional competitive forest products industry plus a viable and 
competitive electrical biomass generating industry. Given this mix, 
here are two examples of forest health projects on the Eagle Lake 
Ranger District:

    The Signal Thinning project was designed to improve overall forest 
health conditions on 1,189 acres of national forest land. The 2002 
project removed 28.5 green tons/acre including 17.1 tons/acre of 
biomass chips and 11.4 tons/acre of sawlogs. The net revenue from this 
project was $74,183 or $124.67/acre. Before and after pictures document 
the results in a very meaningful manner. The top photo is before 
thinning and the bottom is after the thinning was accomplished.
    The second example is also from the Eagle Lake Ranger District. 
This year 2000 project did not have enough revenue generating 
capability as the Signal Thinning project. The Mower Goshawk Management 
Area thinning was designed to enhance old growth-goshawk objectives as 
developed by a Forest Service wildlife biologist. The project reduced 
the surface and ladder fuels and removed 18 green tons of material per 
acre including 11.7 tons/acre of biomass chips and 6.3 tons/acre of 
sawlogs. The Forest Service used a Service Contract to accomplish the 
project objectives. The Service Contract price was $197/acre. Selling 
the products removed from the 108 acre project generated $3.76/green 
ton. The revenues helped to offset the Service Contract price and the 
net cost to the Forest Service was $129.32/acre or a savings of $67.98/
acre. This project was accomplished before the advent of the 
stewardship contract authorization. The new authorizations for 
stewardship contracting make this type of project relatively easy to 
accomplish. The pictures below demonstrate the before and after aspects 
of this project.

    These two projects demonstrate what can be accomplished with the 
help of a viable and vibrant forest products industry. In order to 
accomplish most of the goals of restoring healthy forest conditions, 
industry must be present and capable of handling all of the products 
that need to be removed. The biggest need is to make sure that existing 
forest products industry remains an active partner with the federal 
land management agencies. Second, federal energy policies must be 
improved to encourage development of the biomass electrical industry or 
biomass fuels utilization. We must alter the dynamic of having fuel 
reduction and thinning as a liability or high cost item to our forests 
and change them into an asset for forest management programs. The 
examples cited from the Lassen National Forest provide insight into how 
this can be accomplished.
                                 ______
                                 
     Responses of Russ Hoeflich to Questions From Senator Barrasso
    Mr. Hoeflich in your testimony you said: ``We believe it is time to 
 . . .  build . . . a restoration economy around Oregon and Washington 
forests. Conservation-based treatments, and the reintroduction of fire 
where it is needed, will build an economy that will not only create 
jobs, but will also benefit fish, wildlife, and water quality and could 
be part of the solution to mitigating the impacts of climate change.''
    Question 1. In your estimation is there any hope of developing an 
economy to deal with the materials from the treatments you speak of on 
federal lands in Oregon, if those materials can't be utilized by a 
biomass fuels or energy industry?
    Answer. Given the current state of federal forests, we believe 
sound, conservation based, forest restoration plans will require the 
removal of non-merchantable woody biomass to improve forest health and 
reduce the risks from fires caused by decades of stored fuels. However, 
there is insufficient funding to pay for all of the restoration needed 
to restore forest health on our federal forestlands. Recognizing this 
funding shortfall, The Nature Conservancy supports broad consideration 
of an array of uses for woody biomass, including biomass to energy and 
ethanol production.
    Unfortunately, despite some federal and state incentives, producing 
biomass energy using woody biomass taken from federal forestlands 
remains economically marginal. The costs of removal of woody biomass, 
transporting these materials, developing and/or securing transmission 
capacity, capital costs of energy or ethanol production infrastructure, 
etc. are too high at this time to compete with (for example) energy 
generated from coal or wind or ethanol produced from coal. A case in 
point is the Lakeview, OR biomass facility; at this time most of the 
feedstock planned for use at the biomass to energy plant will be 
supplied from waste material generated by the adjacent sawmill. The 
sawmill will use a significant portion of the energy produced, and the 
facility is near major electricity transmission lines. Without these 
attributes, it is unlikely this project would be economically viable.
    In our view, a key to the successful, economically viable use of 
woody biomass taken from federal forest restoration projects is value-
added processing of small logs, coupled with appropriately sized 
biomass to energy/ethanol to use mill and restoration by-products. At 
this time, wood products have a higher value than wood for energy. 
Using the Lakeview project again as my example, the Collins Companies 
uses state-of-the-art small log processing equipment, allowing the mill 
to produce dimensional lumber and other products using smaller logs. As 
an added benefit, the milling of these small logs produces enough waste 
material to supply the energy plant with nearly 60% of its fuel.
    In essence, the answer to your question is a cautious yes. We 
strongly believe that there are creative, innovative, economically-
viable opportunities to use restoration byproducts from restoration of 
our federal forests, but that we need every tool available, e.g. 
biomass to energy, to ensure economic viability given changing demand 
and markets for wood products over time.
    To this end, The Nature Conservancy was disappointed that the 
definition for renewable biomass for ethanol production excluded 
biomass generated from restoration of our federal forest lands. We look 
forward to working with the Committee to address this issue.
    Mr. Hoeflich, you also said we need to treat up to 550,000 acres 
annually in Oregon for each of the next 25 years to deal with our 
collective problem.
    Then you said: ``We aren't naive. While early engagement with 
diverse stakeholders can't eliminate the risk of a lawsuit, we have 
seen it reduce the odds. And while the process takes time, it builds 
trust. And that's what's needed to take active forest restoration to 
larger scales.
    Question 2. Given the size of the problem and the reality that 
there seems to always be someone willing to legally challenge these 
projects, do we have the time needed to wait for the local trust 
building?
    Answer. There is no alternative to but to build trust; and 
experience shows that once trust is established the implementation 
timeline will accelerate rapidly. For example, building trust among 
stakeholders is has resulted in substantial restoration progress on the 
Siuslaw National Forest in Oregon where there has not been a timber 
sale in litigation since the early 1990s. Trust building is paying off 
on the Fremont National Forest in Oregon where the Collins Company just 
invested $7 million in a new state-of-the-art small log facility. It is 
working on the Colville National Forest in Washington. You'll recall 
that Russ Vaagen of Vaagen Brothers Lumber Company also testified on 
behalf of the Northeast Washington Forestry Coalition, which includes 
Conservation Northwest. Trust building efforts have begun laying the 
foundation for forest restoration work on the Malheur National Forest.
    Other regions of the country are also seeing payoffs from 
collaborative processes that build trust. The Southwest region was a 
hotspot of legal challenges to public lands forestry but the appeals 
and litigation has declined as collaboration has increased. The Apache-
Sitgreaves National Forest has had no appeals of projects that are part 
of a 150,000 acre stewardship contract, a success attributed to the 
collaboration required for such contracts.
    Federal public forests lands belong to all Americans, and it is 
important to maintain the right of American's to become involved in 
public resource management decisions. Democracy may not be the most 
efficient way to make decisions, but over time we believe it produces 
the most equitable outcomes.
                                 ______
                                 
      Responses of Matt Donegan to Questions From Senator Barrasso
    Question 1. Mr. Donegan, would I be correct to summarize your 
testimony by saying: you think your federal neighbor's inability to 
manage their lands is negatively impacting the forest industry 
infrastructure you need to manage your lands, as well as your markets?
    Answer. Yes
    Question 2. If the federal land problems do not improve and your 
neighbor's inactions dry up your markets, what are your other options 
for the lands that you own?
    Answer. Should market opportunities for growing timber continue to 
dry up, landowners should be expected to pursue those market 
opportunities that remain, or emerge. The primary non-timber market 
opportunity in the Inland West is real estate development.
    Question 3. If Congress and the agencies continue to restrict 
access to the federal lands and continue to close roads, do you see the 
fire situation on the federal lands getting any better?
    Answer. A well-maintained road infrastructure is very important for 
suppressing fire.
    Question 4. Final question, if your company continues to experience 
fires that start on federal land and then burn your land; how long 
before you sell off your at-risk lands?
    Answer. At present we have no plans to sell lands due to fire risk, 
though a meaningful increase in fire risk could cause us to sell lands 
that we would otherwise own and manage for sustainable timber 
production.
                                 ______
                                 
        Responses of Russ Vaagen to Questions From Senator Wyden
    Question 1. I congratulate you on the successes of your 
collaborative efforts. You mentioned that you have not had appeals or 
litigation in four years as a result of your collaboration. In your 
experience, does the Forest Service ever take a history of successful 
collaboration into account when making contracting decisions?
    Answer. The Forest Service does not adequately understand what it 
means to have successful collaboration in terms of getting more things 
done on the ground or in the project planning process. If there is 
successful collaboration, a project can be larger and can move faster 
because questions are answered ahead of time and while the process is 
taking place. Our projects are still very similar in size as they 
always have been. The Forest Service employees are so trained to do 
more work, especially as it pertains to NEPA, than they have to. They 
don't seem to realize that if they work with an acceptable 
collaborative group, that they can move faster and make projects 
larger. Shifting their thinking has been very difficult.
    Question 2. I understand that the new mill that opened in the 
community of Lakeview in my State can now cut trees with a 7'' dbh 
(diameter at breast height). I understand this equipment has truly 
increased the capacity of the mill to make profits. Do you think this 
small diameter technology will change the agency's assessment of 
``commercial'' and ``non commercial'' timber?
    Answer. To be completely honest, I don't think that the agency has 
a clue what is commercially viable and what is not. They do a very poor 
job of understanding their customers and what products they can and 
should provide. I would hope that they would get better at it, in the 
last four or five years we have had only two USFS employees come to our 
place of business to ask us questions on what we do so they could 
better understand what they should provide. We spend millions of 
dollars buying logs from National Forest lands, you would think it 
would be a higher priority.
    I would also ask you to caution your thinking when it comes to the 
commercial value of small diameter logs from small trees. They need to 
be priced significantly less than larger sawlogs in order to be 
profitable. The Collins Companies should be applauded for their efforts 
and should be able to buy smaller logs at a discount to larger logs in 
order to maintain profitable operations, especially in very difficult 
lumber markets such as the one we find currently.
    Lastly, not all trees are created equal. A tree with a 7'' DBH is 
not well defined in terms of value. Some trees are short and have high 
taper, while others are tall and slender. Each of these trees of the 
same specie can have very different values. We (as the timber industry) 
are now using trees smaller than ever before. The value of these 
capabilities go far beyond the value of the small logs, but more so to 
the land that we can provide better stewardship than ever before.
    Question 3. As you know, there have been many mills in the Pacific 
Northwest (and around the country) that have closed. What do you 
attribute your company's persistence to?
    Answer. First and foremost, our persistence is due to the vision 
and drive of my father, Duane Vaagen, to always strive for the best 
possible. Best possible in all areas. That drive led us to adopt 
Scandinavian equipment and stewardship principles when many, if not all 
were doing much of the same things that they had always done. Many 
people thought we were crazy, but here we are, doing better work than 
ever before and providing leadership to a new, better way of doing work 
in the forests. We have only scratched the surface of the vision, and 
we are no where near best possible when it comes to responsible 
resource management and environmental stewardship.
      Responses of Russ Vaagen to Questions From Senator Barrasso
    Mr. Vaagen you said in your testimony: ``It is very important to 
have a fully functional wood use market. There are good markets in our 
area for chips, bark, sawdust, and shavings.''
    Question 4. What would happen to your company's ability to do the 
work it is doing if your markets for chips, bark, sawdust, and shavings 
disappeared?
    Answer. Small log sales retrieve $1,200 per acre not only because 
we can make lumber out of those logs, but also due to the fact that we 
can sell the by-products from those activities for good prices. Not 
having good markets for the by-products means that you have to make up 
for that loss of revenue in some other way. Operating a sawmill in an 
area with little to no value being placed on those by products means 
you have to pay less for logs. This impacts the distance you can haul 
the products and the overall value that is placed on a timber sale or 
stewardship project. Less value for the goods means less service work 
on the ground. It is very possible to operate this way, but it puts 
more pressure on the resource value making it more difficult than an 
area that has a fully functional wood use market. The areas that have a 
fully functional wood use market should be the target area for projects 
so those markets can continue to thrive because it takes a very long 
time to develop markets such as ours.
    Question 5. I understand you have looked at other regions of the 
country to see if you might replicate your efforts in Colville 
elsewhere, what has kept you from opening additional mills in other 
States?
    Answer. There have been many reasons why we have not expanded at 
this point. Some have been internal, but most have to do with the 
ability to confidently acquire raw material at a price and volume that 
would make economical sense. We are still searching and evaluating. We 
know very well about the bark beetle epidemic that faces Colorado and 
Wyoming. I have been there. The Forest Service needs to put together 
larger projects that can attract the kind of investment and interest 
needed to build a mill. We are working on mobile technology that will 
allow us to move into areas in a R&D mode to test an area out. By 
developing that technology and working with local collaborative groups 
we are hoping to put enough pressure on the Forest Service to help them 
put together very large, economically viable projects.
    We want to be certain that the Forest Service gets it right in our 
area (Colville National Forest) before we make promises to move on to 
other area of the country.
    If your office wanted to provide us with any information on areas 
of emphasis within the State of Wyoming we would certain look to work 
with those that want to find solutions to these forest health problems.
    You also said: ``Keeping infrastructure in place and healthy is 
critical to the restoration treatments needed in our forests.''
    Question 6. In my state of Wyoming we are down to a small handful 
of sawmills compared to just a decade ago, what would you recommend 
Congress do to re-establish the forestry infrastructure needed to 
undertake what you seem to be succeeding at in Northeast Washington?
    Answer. We talk to the remaining sawmill operators in your state 
regularly. Their issues continue to be very similar to ours. They need 
more wood available at a reasonable price. Providing large, landscape 
level projects that can operate year over year is one of the best ways 
to address this. Filling the needs of the existing sawmills first is 
critical. Once that is done, offering more volume is the best way to 
entice investment and expansion.
    Helping expand biomass power generation would also be helpful. In 
your state there are little to no markets for wood chips that I know 
of. Burning that wood waste in a clean boiler system is a great way to 
use the residual wood waste. Not only can the steam pressure be used to 
turn turbines to create power, the steam can be used to dry lumber and 
to heat buildings or even entire municipal areas. Continuing emphasis 
on tax credits for biomass power as green energy is helpful. The only 
caution is that providing incentives and funding for some new projects 
that directly compete with existing infrastructure can have a negative 
affect overall by putting an otherwise healthy company out of business.
    Finally you said about the northern European Counties: ``They don't 
have wildfires and don't use prescribed fire nearly as much as our 
National Forest managers do. They use wood residuals to make power in 
the place of coal. Their milling infrastructure is still in place and 
there no social disconnect between responsible resource management and 
conservation, they are nearly one in the same.''
    Question 7. So what is different, do they have the environmental 
documentation laws, appeals regulations, and litigation that we have 
when it comes to federal lands?
    Answer. I don't pretend to know the laws of other nations, so I can 
only share my perceptions from seeing our land management and knowing 
our process, with what I have seen in other countries. I think they 
have a completely different view about responsible management. Many of 
the countries are smaller, so they have more common thinking when in 
comes to their lands. In Finland for instance, the land mass is roughly 
the size of a Canadian province. Most of the public understand what 
resources they have and accept how the government and the private 
landowners manage their land. In the US there is very little 
understanding of what resources we have from region to region. Very few 
know how those lands are managed. I believe this is the reason we have 
create so many laws and regulations that make very little sense on a 
local level yet have a great deal of impact. We have built a system for 
the lowest common denominator that puts us in the unenviable position 
we find ourselves in today.
    Question 8. What would we have to change in this country to 
replicate their success?
    Answer. We need to focus on doing a few projects right and 
showcasing them. We need to build confidence in the public as a whole 
and the local communities that we are doing the right thing and that we 
are going to continue to do the right thing. We should probably start 
sending delegations from the US to other countries in order to learn 
from what is bring done there so we can borrow their techniques and 
systems here. No one that I know in the Forest Service knows anything 
about forestry in any other country. They don't even seem to know about 
successful forestry on private, state, and other lands.
    The USFS spends $1.8 Billion annually on fighting fires, yet less 
than 2% of the burned areas are reclaimed economically. European 
nations don't have these costs. They reduce fire danger by thinning 
aggressively. At the same time they have the World's healthiest forests 
with the benefits going back to the local communities and their people.
    If we commissioned some studies of forestry and forest products in 
Germany, Austria, France, Finland, Sweden, and Canada our government 
and industry could learn a great deal.
                                 ______
                                 
   Responses of K. Norman Johnson to Questions From Senator Barrasso
    Question 1. If I understand your testimony, you support additional 
removal of both commercial and pre-commercial trees and slash from 
federal land to improve forest health and to restore these ecosystems.
    Answer. Yes, of course.
    Question 2. Do you believe there is currently an adequate demand 
for this type of material to facilitate its economic removal from the 
federal lands you believe should be managed?
    Answer. There is demand for these products. The demand would be 
greater if there was a stable supply of products and better markets for 
the energy that can be produced from forest biomass. This would also 
encourage investment in such facilities where plants capable of 
utilizing this material are absent.
    Question 3. If not, what markets need to be encouraged, and should 
material from federal lands be allowed to participate in those markets?
    Answer. Please see the answer to question #2.
    Question 4. Your testimony has some very specific views about the 
treatment of old-growth forests. Given that in some areas in Wyoming 
and Colorado we have 70% mortality, and your statements about what 
parts of forests should and shouldn't be managed and if I understood 
you answer to my question you suggested that these stands suffered 
these fires historically and there wasn't much we could or should do 
about the older dead and dying trees at high elevation in the 
intermountain West.
    What would you recommend be done to restore our intermountain 
forests that are being killed by the insects?
    What would you have us do about the dead old-growth?
    Answer. Appropriate management differs with forest type and 
management history. We were distinguishing between the disturbance 
processes in the forests of Oregon and Washington and those in the 
Intermountain forests. For advice on the management of Intermountain 
forests, we suggest that you contact the forestry/natural resource 
experts at such institutions as Colorado State University, University 
of Idaho, Montana State University, and the University of Montana.
    Question 5. Congress has a long history of supporting a broad set 
of multiple use objectives for the Forest Service and BLM, so are you 
proposing that this position should change? If that is the case, what 
are the implications to rural communities, wildlife, watersheds 
recreations and other values or uses?
    Answer. We were not proposing that we change the multiple-use 
objectives for federal lands. In fact, we strongly support involvement 
of stakeholders representing all interests as a part of management 
planning and decision making.
    Question 6. In your answer to my question during the hearing are 
you suggesting that these unfortunate events do occur and there is 
nothing that we should do about these situations?
    Answer. We were not suggesting that nothing could be done. In fact, 
our testimony suggests what we might do to reduce the change of 
uncharacteristic disturbances. Again, relative to Intermountain 
forests, we suggest you contact experts from the states where those 
forests occur.
    Question 7. What about the damage to the soil and wildlife and 
fisheries that could occur if one of these areas burns? Are you 
suggesting those are acceptable consequences of saving all old-growth 
dead or alive?
    Answer. We were suggesting that the ecological function of old 
growth trees continues for many decades and sometimes centuries after 
they die. Furthermore, replacing old-growth forests with dense young 
stands, including plantations, will not reduce the risk of intense fire 
with resultant damage to other resources; indeed, it sometimes 
increases it
    Question 8. If we burn these areas and seriously damage the 
reproductive nature of these thin soils and delay a future forest for 
decades, is that an acceptable consequence to you of having not cut 
dead old growth trees?
    Answer. We are not sure we understand this question. Our 
suggestions were aimed at preventing the uncharacteristic fires that 
can cause the effects you mention. Again, as noted in our response to 
question 7, getting rid of the old growth is not going to eliminate the 
risk of fire.
                                 ______
                                 
        Responses of Jim Caswell to Questions From Senator Wyden
    Question 1. What is the largest stewardship contract that you have 
issued?
    Answer. By project area, the Gerber Stew Project, implemented by 
the BLM's Lakeview (Oregon) District Office, is the agency's largest 
stewardship contract. The Gerber Stew Project, with a 7-year contract 
term, covers a gross planned area of 10,000 acres. The Project is in 
its fourth year and has 7,500 acres under contract for a variety of 
treatments, with some acres receiving multiple treatments.
    Question 2. Do you feel it is possible to use this tool for large 
acreage?
    Answer. Yes, stewardship contracting could be a very effective tool 
for landscape-sized projects (10,000 to 50,000 acres). Treating larger 
areas presents the opportunit to apply a diversity of vegetative 
treatments, which may result in an increase in the amount and types of 
by-products available to the contractor.
    Question 3. What is the longest timeframe for a stewardship 
contract that you have issued?
    Answer. Public Law 108-7 authorizes the BLM to enter into 
stewardship contracts of up to 10 years in length. BLM has entered into 
10 contracts with the maximum 10-year timeframe. The average length of 
our stewardship contacts is 3.5 years. Nearly 70 percent of the BLM's 
stewardship contracts have contract terms of one to three years; 17 
percent have terms of four to seven years; 14 percent have terms of 
eight to 10 years.
    Question 4. Do you think it is an option for longer timeframe 
contracts?
    Answer. A recent interagency stewardship survey suggested that five 
10-year contracts may be more beneficial when building community-scale 
wood processing or bioenergy facilities. The BLM has used stewardship 
contracting authority primarily with small to mid-size contractors for 
an average contract length of 3.5 years. We have not encountered a 
notable demand for contracts exceeding the currently-authorized 10-year 
term. Some informal conversations between land managers and larger 
woodfiber processors have indicated that larger, landscape-level 
treatments could potentially beneft their long-term busines strategy 
due to the increased assurance of access to the product over the life 
of their investments (generally 20 years).
    However, other factors also need to be taken into consideration in 
assessing whether the appropriate length of stewardship contracts 
should be increased above the 10-year duration set in Public Law 108-7, 
which alredy reflects an extension of time periods for procurement and 
service contract periods generally available to the Government. These 
factors include the risks to the taxpayer if circumstances on-the-
ground chane over a longer time horizon, the risks to contractors if 
economic and market conditions change dramatically, and potential loss 
of revenues to the Treasury. We believe the current 10-year authority 
Congress provided for stewardship contracts provides a reasonable 
balance in meeting the objectives of stewardship contracts.
    Question 5. What are the barriers to doing larger or longer 
stewardship contracts?
    Answer. The specific barriers to implementing larger or longer 
stewardship contracts are highly dependent upon local conditions. In 
general, however, the absence of any of the following factors would 
raise significant barriers to the development and implementation of 
larger, landscape-scale stewardship contract projects:

  <bullet> established infrastructure such as permanent roads;
  <bullet> local industry capability to process increased volume of 
        contract by-products;
  <bullet> local workforce ready, willing, and possessing the skils 
        needed to complete the service requird by the contract;
  <bullet> local communication infrastructure to enable the BLM to 
        contact all local entrepreneurs who may be interested in and 
        able to bid on a given contract statement of work; and
  <bullet> a plan to promote effective cooperation and coordination of 
        vegetative treatments acros ownership/management jurisdictions.
                                 ______
                                 
         Responses of Mark Rey to Questions From Senator Wyden
    Question 1. You stated in the hearing that the Forest Service had 
logged only 400 acres of old growth forests in the Pacific Northwest 
since the Northwest Forest Plan went into effect. However, the 
satellite-based late-successional old-growth monitoring report prepared 
by Moeur et al indicates that 17,300 acres of old forest were destroyed 
by clearcutting within the range of the spotted owl. See Moeur, M, T. 
A. Spies, M. Hemstrom, J. Alegria, J. Browning, J. Cissel, W. B. Cohen, 
T. E. Demeo, S. Healy and R. Warbington. In review. Northwest Forest 
Plan-The First Ten Years (1994-2000): Status and Trends of Late-
Successional and Old-Growth Forests. USDA Forest Service General 
Technical Report. http://www.fs.fed.us/pnw/publications/pnw_gtr646/
    The recent spotted owl status review found that 156,000 acres of 
suitable habitat for the spotted owl on federal lands has been lost to 
both clearcutting (as well as thinning that would not be visible from 
space so was excluded by the Moeur et al study). See U.S. Department of 
the Interior, Fish and Wildlife Service. 2004. Estimated Trends in 
Suitable Habitat for The Northern Spotted Owl (Strix occidentalis 
caurina) on Federal Lands from 1994 to 2003. For Use By: Sustainable 
Ecosystems Institute for the Northern Spotted Owl 5-year Review. USDI 
Fish and Wildlife Serv. Can you reconcile the discrepancy in your 
statement and that from the cite?
    Answer. Information from broad-scale remote-sensing vegetation 
classification was used to estimate the amount of older forest present 
near the start of the Northwest Forest Plan (Plan) (in Oregon the 
approximate date is 1996). In 1996, the amount of older Forest Plan-
wide was 7,867,900 acres.
    In our report, Northwest Forest Plan--The first 10 years (1994-
2003): status and trend of late-successional and old-growth forest. 
Gen. Tech. Rep. PNW-GTR-646. Portland, OR: U.S. Department of 
Agriculture, Forest Service, Pacific Northwest Research Station, 
information from broad-scale remote-sensing disturbance-mapping 
projects was used to assess loss of older forest to harvest in the 
first decade after the Plan. Between 1996 and 2002, 16,900 acres of 
older forest were estimated to be clearcut. The remote-sensing approach 
used for this time frame was only sensitive to land cover changes 
resulting from regeneration harvest (clearcutting), land use conversion 
(e.g., forested land cleared for nonforest use), and wildfire severe 
enough to remove the forest canopy. It was not sufficiently sensitive 
to detect less severe disturbances that did not remove the canopy, such 
as partial harvest, thinnings, or groundfires. Therefore, our reported 
acres of older forest removed by harvest are an underestimate of the 
actual amount lost.
    The total of 16,900 acres is the older forest mapped as removed by 
stand replacing harvest across all of the federal lands in the 
Northwest Forest Plan area, as of October 2002. These management 
actions were consistent with the definitions and prescriptions of the 
Northwest Forest Plan. Approximately 400 acres has been harvested on 
National Forest lands in the Region 6 portion of the Northwest Forest 
Plan area since October of 2002.
    Question 2. Russ Vaagen--who testified on the third panel at the 
hearing--makes a point in his testimony that echoes many others' 
frustration with the agencies' failure to take full advantage of best-
value contracting. Mr. Vaagen suggests that if a mill owner develops 
broad support among all interested stakeholders through collaboration, 
then that should be factored into the bidding process. Does the Forest 
Service do that, and, if not, why not?
    Answer. The Forest Service evaluates a number of factors as part of 
the bidding process, including:

          A. Price
          B. Technical Approach
                  Plan of Operation
                  Quality Control
                  Contract Manager and On-the-Ground Supervisor(s)
                  Equipment
                  Production Capability
          C. Capability and Past Performance
                  Key Personnel
                  Subcontractors
                  Past Contracts
          D. Utilization of Local Work Force

    The evaluation of these factors is done for each contractor's 
proposal and is based on Forest Service Handbook 2409.19 Chapter 63.2, 
which states: ``To ensure that there is opportunity for use of local 
small business sawmills, ensure that the request for proposals for 
stewardship contracting projects considers technical evaluation 
criteria that give weight for use of local small businesses, including 
small business sawlog mills. During the evaluation and award process, 
give additional weight to those proposals that are responsive to the 
local community needs.''
    Collaboration is a part of stewardship project development and 
implementation. To the degree that collaboration is used in the 
contractor's proposal to be responsive to the evaluation factors, the 
Forest Service does consider it.
    Question 3. What is the largest stewardship contract that you have 
issued? Do you feel it is possible to use this tool for large acreage? 
What is the longest timeframe for a stewardship contract that you have 
issued? Do you think it is an option for longer timeframe contracts? 
What are the barriers to doing larger or longer stewardship contracts?
    Answer. The White Mountain Contract on the Apache-Sitgreaves 
National Forest in Arizona is the largest stewardship contract in the 
nation at this time. It is a multi-year Integrated Resource Service 
Contract with a ten-year term expected to treat an average of 10,000 
acres per year for a total of approximately 150,000 acres. Currently, 
we issue stewardship contracts for a maximum of ten year terms as 
provided under the stewardship contracting authority, which already 
reflects an extension of time periods for procurement and service 
contract periods generally available to the Government. This is based, 
primarily, on the length of time that can be reasonably planned. While 
we recognize that terms of greater than ten years could increase local 
market and economic stability, there is a concern that time frames 
beyond this can lead to elevated levels of uncertainty of management 
need and product flow while increasing the potential loss of revenues 
to the Treasury.
    The Forest Service is strongly in favor of expanding the use of 
stewardship contracts to accomplish forest restoration work in 
collaboration with local communities, non-governmental organizations, 
tribal, state, and local governments. There are factors which challenge 
our ability to expand the scope and scale of contracts. Some 
constraints that could limit our success of providing guaranteed long-
term contracts include, but are not limited to:

  <bullet> Land management horizon limitations--changed circumstances 
        and new information, such as catastrophic events and discovery 
        of new sensitive, threatened, and endangered species; changes 
        in land management in response to resource needs and 
        environmental bio-energy, carbon sequestration, and climate 
        change.
  <bullet> Market uncertainty--long range estimates of product volume 
        and service work acreage; new markets and new technology
  <bullet> Regulatory constraints--lack of implementable NEPA 
        documentation for extended terms;
        Responses of Mark Rey to Questions From Senator Barrasso
    Question 4. How important to the Forest Service's efforts to 
restore forest health are federal grant programs or tax credits that 
allow material from your lands to be utilized for renewable fuel or 
renewable electricity programs?
    Answer. Programs that provide incentives to public--private 
partnership are essential to accelerate success. The Forest Service is 
committed to management activity that helps to restore forest health on 
the National Forests and to assist on all of the Nation's forests. One 
program, the Forest Service Woody Biomass Utilization Grant program was 
authorized 2005. The objectives of this grant program are to:
  <bullet> Help reduce forest management costs by increasing value of 
        biomass and other forest products generated from forest 
        restoration activities;
  <bullet> Create incentives and/or reduce business risk for increased 
        use of biomass from National Forest System lands;
  <bullet> Institute projects that target and help remove economic and 
        market barriers to using small-diameter trees and woody 
        biomass.

    In fiscal year 2005, twenty proposals were funded at $4.3 million 
and matched with approximately $16 million in non-federal dollars. In 
fiscal year 2006, eighteen proposals were funded at almost $4.2 million 
and matched with approximately $9 million in non-federal dollars. In 
fiscal year 2007, twenty-six proposals were funded at $6.2 million and 
matched with approximately $12 million in non-federal dollars. The 2008 
program is underway with 92 applications under review, totaling $23 
million in requested funding.
    Your office recently sent a letter to Senator Domenici expressing 
grave concerns about the definitions of renewable biomass in Title Two 
and Title Fourteen of the recently passed House Energy Bill.
    That letter said: Title Two of the House passed Energy Bill 
``excludes all material from Federal Forests, with the exception of 
those obtained from the immediate vicinity of buildings or public 
infrastructure at risk to wildfire. This would presume that the 
majority of materials produced on federal lands would not be available 
for use in the creation of bio-fuels.''
    Question 5. How much would it cost the Forest Service to restore 
the at-risk-forest lands in Oregon and Washington if the material can't 
be utilized by the biomass industry?
    Answer. There are several factors that lead to National Forest 
System lands being regarded as ``at risk,'' including hazardous levels 
of fuel accumulation, insect infestations, and restoring habitat for 
threatened and endangered species. Decisions on project purpose, 
design, and parameters are made at the individual national forest. For 
projects where the design criteria include removal of small diameter 
woody vegetation, the price to the Forest Service of conducting such 
treatment can be reduced if the woody biomass has value and can be 
considered a product. Therefore, in areas where there is a viable fuels 
market, the ability to sell woody biomass can significantly reduce the 
cost of vegetation treatments.
    Question 6. Can you provide my staff with an estimate of the 
anticipated total cost of treating the other at-risk federal forest 
lands nationwide, with and without available bio-fuels and/or bio-
energy markets for material off federal lands?
    Answer. Fuels treatments are designed and implemented to fit the 
needs of a particular landscape. Therefore, there is no standard 
prescription for treating federal lands at-risk from catastrophic 
wildfire and no way to provide a meaningful cost estimates. In 
addition, not all areas are accessible for biomass utilization (due to 
a combination of factors, including local industry, haul distances, 
etc). However, in areas that currently have a viable biomass market, 
the Forest Service saves money on contracting the cutting and piling of 
the small diameter woody material, plus, by using the material, the 
Forest Service does not have to have crews burn the fuel piles, saving 
additional expense and avoiding the release of CO2 into the atmosphere 
from the burning piles.
    Question 7. Would you have your staff develop an estimate for me of 
how much biomass material could be removed from Forest Service lands in 
Oregon and Washington and nationwide over the next 10 years and the 
amount of tons of carbon that could be released if these areas burned 
rather than are treated?
    Answer. Individual national forests make decisions on how to design 
and when to undertake treatments on at-risk lands. Within a forest 
service region there is a large variation in ecosystems, the treatments 
used to restore those ecosystems, and the amount of small-diameter 
woody material produced by each treatment. However, the Forest Service 
treats a significant amount of acreage each year that produces woody 
material. Since, wildfires currently release over 10 tons/km of 
CO<INF>2</INF> annually in the Northwest, treatments to reduce the 
carbon release associated with wildfires can have an important impact 
on decreasing the greenhouse gas effect. In contrast, mechanical 
treatment with associated prescribed burning releases much less 
CO<INF>2</INF> into the atmosphere, while mechanical treatment with 
biomass utilization reduces the CO<INF>2</INF> emissions from the 
treatment area even further.
         Responses of Mark Rey to Questions From Senator Smith
    Question 8. Can you provide a breakdown of direct costs associated 
with fighting fires on national forests in each of the last five years, 
along with an estimate of the economic impact of the lost timber?
    Answer. In FY 2007 the Forest Service modified coding for the 
fiscal system to associate direct suppression expenditures to the unit 
(e.g., Forest) where the incident occurred, or the incident ``host'' 
unit. Prior to FY 2007 the system associated suppression expenditures 
with the resources' host unit, or the sending unit. To compile 
suppression expenditures on a Forest basis prior to FY 2007 would 
require significant analysis. The Forest Service will continue to make 
modifications to enhance accountability and provide appropriate data. 
Below is a chart with FY 2007 expenditures by Forest, however, please 
note that it does not include FS expenditures on other federal or 
cooperator incidents. The agency is currently discussing options for 
displaying those costs to the State, and possibly the Forest level next 
fiscal year.


----------------------------------------------------------------------------------------------------------------
                                                                   Expenditures by Activity--
  FS Region 06--FY 2007  Suppression Costs directly charged to             1,000 $'s                 Total
                            Incidents                            -----------------------------    Expenditures
                                                                       BAER       Suppression      1,000 $'s
----------------------------------------------------------------------------------------------------------------

0601: Deschutes===========================================================193.9===10,904.6=============11,098.5=
----------------------------------------------------------------------------------------------------------------
0602: Fremont                                                                     1,877.4               1,877.4
----------------------------------------------------------------------------------------------------------------
0603: Gifford Pinchot                                                              183.3                  183.3
----------------------------------------------------------------------------------------------------------------
0604: Malheur                                                             567.8   25,590.3             26,158.1
----------------------------------------------------------------------------------------------------------------
0605: Mt Baker-Snoqualmie                                                           88.9                   88.9
----------------------------------------------------------------------------------------------------------------
0606: Mt Hood                                                             355.4   3,315.5               3,670.9
----------------------------------------------------------------------------------------------------------------
0607: Ochoco                                                              243.7   1,402.9               1,646.6
----------------------------------------------------------------------------------------------------------------
0609: Olympic                                                              95.0    304.4                  399.4
----------------------------------------------------------------------------------------------------------------
0610: Rogue River/Siskiyou                                                        2,293.0               2,293.0
----------------------------------------------------------------------------------------------------------------
0611: Siskiyou                                                                       1.6                    1.6
----------------------------------------------------------------------------------------------------------------
0612: Siuslaw                                                                       12.5                   12.5
----------------------------------------------------------------------------------------------------------------
0614: Umatill                                                             334.6   26,941.1             27,275.7
----------------------------------------------------------------------------------------------------------------
0615: Umpqua                                                                      1,979.0               1,979.0
----------------------------------------------------------------------------------------------------------------
 0616: Wallowa Whitman                                                    242.9   23,734.1             23,976.9
----------------------------------------------------------------------------------------------------------------
0617: Wenatchee                                                        13,357.4   14,418.9             27,776.3
----------------------------------------------------------------------------------------------------------------
0618: Willamette                                                           66.4    299.7                  366.1
----------------------------------------------------------------------------------------------------------------
0620: Winema                                                                        11.2                   11.2
----------------------------------------------------------------------------------------------------------------
0621: Colville                                                                    6,519.4               6,519.4
----------------------------------------------------------------------------------------------------------------
0622: Columbia River Gorge Natural Area                                            138.6                  138.6
================================================================================================================
        Totals                                                        $15,457.1   $120,016.5         $135,473.6
----------------------------------------------------------------------------------------------------------------
** Does not include FS expenditures for other federal agencies & non-federal fires.

    We do not calculate economic loss from fire killed trees for all 
fires or areas of fires. We do calculate economic values for the fire 
areas that we analyze for salvage sale projects. During the NEPA 
analysis for each salvage project we calculate the value of volume 
being included in each alternative, as well as the values forgone with 
the no action alternative. The percent of fire killed trees that 
actually get included in a salvage project is dependent on many 
factors. Example of these factors include, where the fires burned in 
relation to Wilderness, Inventories Roadless Areas, and Forest Plan 
Land Use Allocations that do not allow for salvage, road accessibility, 
logging system costs, species and sizes of dead trees, and resource 
issues and concerns.
    The charring caused by fire does not immediately reduce the value 
of the wood, but value loss occurs quickly as a result of subsequent 
deterioration caused by several factors including decreasing moisture 
content of the wood, causing checking and splitting, attacks by 
beetles, decay fungi and stains.
    Question 9. Biomass cogeneration is seen as an essential component 
of any financially feasible stewardship projects, yet there is little 
financial aid to add such capacity so that a mill can financially 
succeed and generate positive cash flow. Given that most mills cannot 
finance the cost of adding such capacity, do you believe that it is in 
the country's best interest for the government to help finance the 
addition of biomass capacity, particularly in the West?
    Answer. Congress and the Administration have worked together to 
support financial assistance and incentives to help expand biomass 
capacity. Hazardous fuels on both federal and private lands, combined 
with extended drought across much of the west, expanding wildland urban 
interface (WUI), and managerial decisions made during fire incidents, 
have contributed to escalating cost of fire suppression. We believe 
that it is important to find ways to economically remove this woody 
biomass and utilize it in order to help reduce wildland fire severity, 
protect property and other important values, and progress in restoring 
the health of our National Forest.


</pre></body></html>
